<html>
<title> - CREATING JOBS BY OVERCOMING MANMADE DROUGHT: TIME FOR CONGRESS TO LISTEN AND ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
  CREATING JOBS BY OVERCOMING MANMADE DROUGHT: TIME FOR CONGRESS TO 
                            LISTEN AND ACT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             Monday, April 11, 2011, in Fresno, California

                               __________

                           Serial No. 112-23

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-822                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                      TOM McCLINTOCK, CA, Chairman
            GRACE F. NAPOLITANO, CA, Ranking Democrat Member

Louie Gohmert, TX                    Raul M. Grijalva, AZ
Jeff Denham, CA                      Jim Costa, CA
Scott R. Tipton, CO                  Ben Ray Lujan, NM
Paul A. Gosar, AZ                    John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
     

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, April 11, 2011...........................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     6
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California........................................     7
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California........................................     8
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
        Prepared statement of....................................     5
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     1
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3
    Nunes, Hon. Devin, a Representative in Congress from the 
      State of California........................................     9

Statement of Witnesses:
    Beck, Jim, General Manager, Kern County Water Agency, 
      Bakersfield, California....................................    41
        Prepared statement of....................................    43
    Birmingham, Thomas, General Manager, Westlands Water 
      District, Fresno, California...............................    34
        Prepared statement of....................................    36
    Collins, Larry, President, San Francisco Crab Boat Owners 
      Association, San Francisco, California.....................    28
        Prepared statement of....................................    29
    Connor, Hon. Michael L., Commissioner, Bureau of Reclamation, 
      U.S. Department of the Interior, Washington, D.C...........    46
        Prepared statement of....................................    48
    Larson, Hon. John P. (Phil), Chairman, Fresno County Board of 
      Supervisors, Kerman, California............................    12
        Prepared statement of....................................    14
    Latin, Dayatra, Director of Programs and Development, 
      Community Food Bank, Fresno, California....................    10
        Prepared statement of....................................    11
    Piepho, Hon. Mary Nejedly, Supervisor, Contra Costa County 
      Board of Supervisors, Discovery Bay, California............    23
        Prepared statement of....................................    25
    Upton, Kole, Chairman, Madera-Chowchilla Water and Power 
      Authority, Madera, California..............................    19
        Prepared statement of....................................    21
    Watte, Hon. Mark, Councilman, City of Tulare, California.....    15
        Prepared statement of....................................    17

Additional materials supplied:
    Chedester, Steve, Executive Director, San Joaquin River 
      Exchange Contractors Water Authority, Statement submitted 
      for the record.............................................    76


  OVERSIGHT HEARING ON ``CREATING JOBS BY OVERCOMING MANMADE DROUGHT: 
                 TIME FOR CONGRESS TO LISTEN AND ACT.''

                              ----------                              


                         Monday, April 11, 2011

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                           Fresno, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., at 
the Fresno City Council Chambers, 2600 Fresno Street, Fresno, 
California, Hon. Tom McClintock [Chairman of the Subcommittee] 
presiding.
    Present: Representatives McClintock, Denham, Hastings (ex 
officio), Napolitano, Costa, and Garamendi.
    Also Present: Representative Nunes.
    Mr. McClintock. The House Subcommittee on Water and Power 
will now come to order. The Chair notes the presence of a 
quorum, which under Committee Rule 3(e) is two Members. The 
House Water and Power Subcommittee meets today to hear 
testimony on a hearing entitled ``Creating Jobs by Overcoming 
Manmade Drought: Time for Congress to Listen and Act.'' To 
begin today's hearing, I would like to refer to my 
distinguished colleague, Congressman Jeff Denham, for a few 
introductions.
    Mr. Denham. Thank you, Mr. Chairman. We are privileged to 
have VFW Post 559 to present colors. It is now my honor to 
introduce an American hero, Sergeant Ray Ramos. Sergeant Ramos, 
would you do us the honor by leading us in the flag.
    [Flag salute.]

STATEMENT OF HON. TOM McCLINTOCK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McClintock. I'll begin by asking unanimous consent that 
the gentleman from California, Mr. Nunes, be allowed to sit 
with the Subcommittee and participate in the hearing. Hearing 
no objections, so ordered. We'll begin with the five-minute 
opening statements beginning with myself and then the Ranking 
Member.
    I want to thank all of you for coming here today. During 
the last session of Congress, Republicans unsuccessfully 
attempted for two years to get the Water and Power Subcommittee 
to come to Fresno to hear firsthand from the communities that 
have endured the devastating financial, social and 
environmental damage done by the government's decision to deny 
this region well over 200 billion gallons of water in order to 
indulge the pet causes of the environmental Left.
    A little over a year ago, Republicans held an informal 
listening session, at which time we heard riveting testimony of 
the human suffering caused by this misguided policy. We heard 
stories of food lines in communities that once prided 
themselves on supplying American grocery shelves. We heard 
about the frustration of seeing the same produce once grown in 
the Central Valley of California instead imported from China, 
handed out at those Central Valley food lines.
    And we saw the anger as the absent Secretary's testimony to 
the Natural Resources Committee in 2009 was played back, in 
which he admitted that the Obama Administration had the 
authority to restore water deliveries, but that it chose not to 
do so because that would be, ``like admitting failure.'' Even 
now with the snowpack at 165 percent of normal for the season, 
the wettest year in the last 16, the San Joaquin Valley has 
been guaranteed only 75 percent of its contracted allotments. 
In this discussion, the Left has attempted to pit fishermen 
against farmers. What they ignore, of course, is the actual 
science.
    They ignore the findings of the Northwest Fisheries Science 
Center that determined the Pacific Decadal Oscillation is the 
principal reason for changes in salmon migration, that these 
changes are not unique to Delta fisheries, but have been 
observed throughout the Pacific Coast, and as conditions 
improved, salmon populations are rebounding. They ignore the 
California Department of Water Resources analysis of pumping 
flows that determined that their influence on salmon and smelt 
migration is negligible compared to natural tidal flows. They 
ignore the overwhelming impact of natural predation in the 
Delta that alone is responsible for some 90 percent of salmon 
smolt mortality. They ignore the tremendous contribution of 
fish hatcheries to supporting fish population. They ignore--
indeed, they actively oppose--the construction of new 
reservoirs and other water projects that could dramatically 
increase year-round supplies of fresh cold water throughout the 
Delta. They ignore the findings of the Federal District Court 
that the U.S. Interior Department's biological opinion on Delta 
smelt to be ``arbitrary, capricious and contrary to law.'' And 
worst of all, they ignore the plight of the tens of thousands 
of farm families needlessly thrown into unemployment by these 
policies.
    For too long our government policies have been misguided by 
politically motivated junk science instead of the sober, 
dispassionate and accurate application of real science. For too 
long our government policies have focused on rationing of 
shortages rather than on providing abundance.
    Today we will hear testimony about what these policies have 
done to harm the economy of the Central Valley and the 
cornucopia of fruits, nuts and vegetables it once produced for 
the entire world. And we will hear suggestions on the changes 
in Federal law that need to be made to restore abundance and 
plenty to all of those who rely on the Delta.
    I know that people are feeling powerless and disregarded by 
Washington, but the fact is that the debates inside the Capitol 
are merely a reflection of a much larger debate going on all 
across the country.
    The public is rapidly engaging, becoming aware of these 
past policies and demanding change. As this occurs, I can 
assure you public policy will follow.
    Chairman Hastings has made it very clear that he wants 
priority given to this issue, and from this hearing today, the 
House Majority will craft legislation to restore abundance as 
the principal objective of Federal water and power policy, and 
with it, an era of abundant water, clean and cheap electricity, 
new recreational centers, desperately needed flood protection, 
burgeoning fisheries, re-invigorated farms, not to mention 
lower electricity, water and flood insurance bills for American 
families.
    It is toward this brighter and more prosperous future that 
the Majority seeks to proceed. It is my hope that the testimony 
today will assist the House in identifying those changes in law 
that are necessary to get there.
    And with that I will now recognize the Ranking Member of 
the Subcommittee, California Congresswoman Grace Napolitano.

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Mr. Chair. It's a pleasure to be 
back to this area. I have been here several times for similar 
hearings on subjects very much similar to this.
    Last week the American people sent a message that was very 
clear, we do not want a shutdown, we want a compromise. The 
same message can be said about a water crisis. We do not want 
to shut down farms, our cities, our fishing industries or our 
businesses. We do not want to shut down our environmental 
landscape. Water is a shared resource all of us in California 
rely on. Farmers, communities, homeowners, manufacturers and 
fishermen all need our water supply to be protected.
    And, believe me, from Southern California, I can attest to 
that, because we only get about 20 percent of that water. 
Instead of promoting interests that pit us against each other, 
we should be promoting a balanced approach that helps us all in 
California. But to suggest that a solution to our water crisis 
is as easy as repeating or amending a law is misleading to 
everybody. The real solution is complicated and requires 
compromise, communication and a very high level of trust. 
Insisting on extreme positions with no intention of compromise 
will only lead to more costly litigation and sure uncertainty 
benefiting only attorneys.
    This year Reclamation will make full allocation deliveries 
to over 80 percent of its contractors. It's a very welcome 
change to everybody from the last years of drought. And I want 
to thank Congressman Costa for his continued effort on this 
area, for twisting my arm and talking to me about the area, so 
thank you, Jim.
    According to the California Department of Food and 
Agriculture, California ag experienced a nine percent drop in 
the sales value of its product in 2009 at the height of the 
drought. The same year 81,500 farms and ranches received $34.8 
billion for their output. The output, an all time high of $38.4 
billion, was reached in 2008. Despite the water supply 
shortages and regulatory restrictions, the State's agricultural 
sales in 2009 were the third highest recorded behind only 2008 
and 2007. The three highest agricultural sales for the State 
coincide with the three consecutive years of drought. The same 
success cannot be attributed to commercial and recreational 
fishermen during those three years of drought. Commercial and 
recreational fisheries were completely closed in 2008, 2009 and 
a majority of 2010. This translated into a complete total loss 
of revenue and 100 percent loss of jobs. This is not a balanced 
approach. We do need to talk about a solution.
    Earlier this week I asked our witnesses to come prepared to 
ask the following questions regarding the best ideas in 
developing new, not faithful water, new water supplies. What is 
your recommendation, was my first one, to create new water. 
Second, how much will it cost. Third, who will pay for this 
water.
    And most important, when will the first drop be on line. In 
other words, how long will it take to design, build, construct 
and then get to day one of operations.
    I am a firm believer in all California approach, 
conservation, water recycling, education, storage anywhere. 
While the drought may be over, now is not the time to stop our 
efforts to develop local water supplies through water recycling 
and possible salvaging. California prides itself as a state 
where the whole is stronger than the sum of its parts. The 
whole includes the most effective farmland in the country, 
hard-working fisherman, the best cities and industries, the 
most beautiful environmental landscapes in California. The 
American people have spoken and our constituents have spoken, 
no shut down, let's work together to try to come up with a 
solution to heal that.
    Mr. McClintock. Next, we are very honored to have the 
Chairman of the House Natural Resources Committee, Congressman 
Doc Hastings of Oregon, who sits on all of the Subcommittees as 
an ex officio member.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman. I am from 
Washington. It is a pleasure for me to be here and I hope that 
today marks a turning point in reversing the drought to the--
(Inaudible.)
    The Court Reporter. I can't hear him.
    Mr. Hastings. I am from Central Washington. My district 
includes two of the largest Federal irrigation projects in the 
nation--the Yakima Project and the Columbia Basin Project. It 
derives these benefits because of irrigating water. Without the 
irrigation, those two areas would not be as diverse as they 
are. But we too are locked up in litigation. Right now the 
management plan for the river has been locked up in court for 
eight years. Principally, they are driven by exactly the same 
issues that are being discussed here today. So I'm particularly 
sensitive about this, because if this can happen here, then it 
certainly can happen elsewhere throughout the country--
certainly in my district and certainly in other areas in the 
West that rely on water.
    So the real question, what this hearing is all about today, 
is to try to find a solution to this issue. The question is 
whether Congress ultimately will let this--(Inaudible) that we 
are going through continue on.
    Republicans, over the past two years, have tried to resolve 
this situation, but unfortunately we were not even able to 
bring an issue to essentially this whole debate and vote on the 
Floor of the House. When I became Chairman of this Committee 
talking to my colleagues and having read what everybody has 
read across the country and certainly what you have experienced 
here in the central part of California, I felt first--
(Inaudible.)
    The Court Reporter. I can't hear anything.
    Mr. Hastings.--to have a field hearing here, hear what the 
people on the ground felt, how it affected them and work from 
there to get solutions. So I believe that this hearing today, 
as Chairman McClintock says, is the first step in a process 
that can result in legislation, legislation that I will push as 
hard as I can to get through the House and get through the 
normal process and we can get a long-term predictable 
resolution to the problems that you are going through. So I 
look forward to hearing from the witnesses today and I look 
forward to working with all of my colleagues to try and come up 
with legislation that will resolve this issue. I yield back to 
the Chairman. Thank you.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Thank you for holding today's hearing. Today marks a turning point 
in reversing the man-made plight of the San Joaquin Valley.
    For those of you who don't know me, I'm Doc Hastings. I'm 
privileged to chair the House Natural Resources Committee. My 
congressional district contains two of the largest federal irrigation 
projects in the nation--the Yakima Project and the Columbia Basin 
Project. These projects literally turned the desert into some of the 
most productive farmland in the world. The dams that impounded the 
water for these projects helped power the Manhattan Project that 
enabled our nation to win World War II and the Cold War. To this day, 
they continue to generate renewable and emissions-free hydropower for 
millions. These multi-purpose projects--like the visionary Central 
Valley Project--formed the foundation for the western United States.
    Despite their successes, these projects have been under constant 
assault from those with extreme political agendas. Litigation and 
regulation have hi-jacked these projects to the point where their 
purposes have been compromised. The water and power ratepayers in my 
region have literally watched as never-ending litigation and a federal 
judge determine how a river flows. I understand that it's a very 
similar situation here when it comes to putting the needs of a three-
inch fish over the needs of people.
    If it can happen here, it can happen anywhere. The San Joaquin 
Valley situation of the last two years should be a warning to us all 
that we cannot stand by for history to repeat itself. While Mother 
Nature has helped temporarily rescue this region with historic 
precipitation, a regulatory drought could re-appear all too quickly.
    The question is whether this Congress will let that happen. 
Republicans tried over the last two years to resolve this situation, 
but were not even allowed to debate the merits of proposals aimed at 
turning the pumps back on to historic levels. Democrat leaders wouldn't 
even hold an official field hearing on this topic.
    All of that changes today. Today's hearing is a first step to right 
the regulatory wrongs of the past, to end future man-made droughts and 
to give farm families and workers long-term economic prosperity and 
jobs. The time to act is now. Let's make it happen.
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Chairman. I apologize. 
Chairman Hastings is from Washington, not Oregon. Our next 
Member is Jim Costa, in whose district I believe we are 
currently seated.

STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman. And Chairman 
Doc Hastings, we thank you and the Ranking Member--and the 
other Members for coming and holding this important hearing 
here.
    The families that you see here at the hearing this morning 
really reflect the best of hard-working men and women that have 
for generations made this Valley a great place to live in. 
Their families, like mine, have been farming for many years, in 
my case for three generations. This hearing will continue to 
look at the issues of the water prices and the regulatory 
framework that many of us believe is flawed. I'd like to point 
out that this hearing obviously is paid through taxpayer 
dollars demonstrated through regulations that have been put 
forth by the biological opinions, have had harmful effects not 
only to our farmers and farm community, but have shown really 
no improvement to the environment.
    My colleagues have already touched on many of these 
hardships. Since the drought began in 2007 and throughout my 
career, I have been working every day to try to bring more 
water to this Valley, both in Sacramento and now in Washington. 
My efforts--and Senator Feinstein and Congressman Cardoza and 
all the water agencies will testify--have brought real water 
and dollars to our Valley, but more needs to be done.
    In 2009 we held the first workshop at Fresno State with 
fish biologist from western states and Canada to the peer 
review. They looked and determined that there was a consensus 
the best science was not being used.
    The Court and the National Academy of Sciences in the last 
year have confirmed it. In addition, we worked in the middle of 
the drought and provided 200,000 acre-feet of transferred water 
to the westside, people's permanent crops growing in the height 
of the drought. But we didn't stop there. The energy and the 
Water Appropriations bill that Congressman Cardoza and I worked 
on passed legislation that allowed for transfers throughout the 
entire Valley. That's been an important stop gap measure. In 
addition to that, we provided 32 million dollars in stimulus 
funds in the San Joaquin Valley for relief. I spoke with John 
Marsal last week. He said that they'll help to provide airtight 
connections for the lower Tule.
    We pushed security and more flexibility on allied-operated 
projects which resulted in higher allocation from the first 
allocation of zero, then to 10 percent to in 2010 45 percent by 
exercising greater flexibility. That also reduced the impact on 
the overdraft of the groundwater. In 2010 we developed a list 
of projects for the Department of the Interior, this is that 
list, working together with, again, Congressman Cardoza and 
Senator Feinstein to boost west side water supply south of the 
Delta. As a result of our efforts, the Department of the 
Interior, Department of Water Resources continues to put on a 
list of interim projects that are stop gap measures to try to 
deal with the current status quo. Many of these tools are still 
in place irrespective of the hydrology given this year's 
current wet year. They are included, but not limited to, money 
from the airtight project, which we broke ground last year in 
Reno, an additional 35,000 acre-feet of water to San Luis water 
usage. In addition to that, This year I introduced legislation 
to bring more water to our Valley, The Water Act of 2011 will 
help restore the balance of our water supply situation. Taking 
into account the serious questions raised by Judge Wanger and 
by the National Academy of Sciences on the biological opinions 
that are now in place, if this becomes law, it would provide, 
depending on hydrology, 200,000 to 500,000 acre-feet of 
additional water.
    In closing, for decades the policies of water politics have 
played out between fish and farmers and between different 
regions of California. That fight is well known. I think they 
are false choices. As the Chairman and the Ranking Member have 
said, the truth is we have a broken water system designed for 
20 million people in California. We now have 38 million people.
    By the year 2030, we are going to have 50 million people. 
The last 20 years have proven that the regulatory framework is 
not helping produce more food that we need in our nation and 
throughout the world, nor is it saving fish. The Court has 
stated and the National Academy of Sciences has written that 
the best science is not being used during this regulatory 
drought and our witnesses will confirm that.
    We have two choices, in closing, we can discuss with our 
witnesses today. We can continue to play the politics, the 
blame game, we know it well, blaming how Democrats or 
Republicans are responsible for the water shortfalls. That may 
make some feel better or score political points, but that 
strategy, in my view, will not get a bill out of the Senate nor 
signed by the President nor will it bring any more water to our 
Valley that we desperately need or to California, which we 
should be doing. The second choice is we can use this hearing 
to work together to find bipartisan solutions. That is what 
former Republican State Senator Ken Maddy and I used to do all 
the time, for years always trying to find the art of possible.
    Mr. Chairman, I want to thank you and the Ranking Member 
and Members of this Committee for holding, once again, a 
hearing here in the heart of the richest agricultural region in 
the entire country so that we can try to find solutions to 
these problems.
    Mr. McClintock. Thank you. I am now pleased to introduce 
another--both a Member of Congress and also a Member of the 
Subcommittee, Congressman Jeff Denham.

  STATEMENT OF HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Denham. Thank you, Chairman McClintock. Chairman 
Hastings, thank you for holding the first field hearing right 
here in our area. And that's critical. It is a critical issue 
to hear from local friends, farmers, those that are affected 
here most, those that are out of work due to this current water 
crisis. Sure, absolutely, we need to focus on a long-term 
adjustment. We need to focus on long-term water storage. But 
make no mistake, this crisis has been created by current 
regulation and can be fixed by Congress and the President 
today. The fact that we got such a huge amount of precipitation 
and snowfall this year and still only have a percentage of the 
current contracted water allotment is a travesty to the entire 
process. We are here today to give local input, to give local 
understanding of how we can change the laws to make the Central 
Valley whole again. The bread basket of the world right here 
locally needs to have the local job, the local resource, the 
local water to be able to stay in business.
    As the President continues to talk about the unemployment 
levels reducing across the nation, the economic development 
across the nation, he is yet to visit or see the devastation 
here locally being caused by regulation. We want to hear from 
you today on how we can fix this, but don't let anybody make an 
excuse about past, current or political promises that could 
have been made before or not. We have an obligation to fix this 
on a bipartisan level, working together to come up with a 
solution that will fix our current situation immediately. Now, 
I have worked with my colleagues on solutions, including NEPA, 
on San Joaquin River restoration and Delta power flood control 
impacts here locally, but ultimately you need a Valley 
delegation and a California delegation to come together to 
solve our current water crisis needs. I yield with that.
    Mr. McClintock. I'm next pleased to introduce Congressman 
John Garamendi.

STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. Thank you, Mr. Chairman. For all of you that 
are here, this is certainly not a new issue to all of us. We 
are going to have to find a middle ground here. There clearly 
is an issue in the Delta. There clearly is an issue for the 
fish, the salmon, an ecological issue, and there's also an 
issue to the south. We have been fighting for a long, long time 
about these issues and we still have to search for a solution.
    Here in the heart of the San Joaquin Valley, it's easy 
enough to say just send more water. If this hearing were to be 
in Stockton, it would probably be just the opposite, don't send 
water, it's needed there. The reality is, as Jim Costa said, we 
are going to have to find a compromise. The Ranking Member, 
Grace Napolitano, said it also, no one is going to get 
everything they want as the pressures from the population and 
the demands grow.
    No one is going to get everything that they could want. And 
that's both the fish, salmon, other species north of the Delta 
as well as south of the Delta.
    There are solutions that are available. And for many of you 
in this room that I have had the opportunity to work with over 
the last 30--almost four decades now, we know, we know the 
game. We also know the politics of this. And it's always good 
to ring the political bell. The reality is that's not where the 
compromise will be found. I think those of you that are in the 
water business know and understand that. There are solutions. 
Those who want to change the ESA and say it doesn't work, well, 
in fact it can work.
    Section 10 of the ESA can work. It's an adaptive management 
program. And I see in this audience about a half dozen of you 
that have worked with me and others to figure out how to make 
an adaptive management program work in areas other than the 
Delta. And there's no reason it cannot work in the Delta. We 
don't need to destroy. What we really need to do is to find the 
answers, use the very best science possible.
    And from time to time we'll find a science that's objected 
to by one group or another, but forge ahead. Don't throw the 
science out, just keep working to improve upon it. And in doing 
so, we may find some solutions.
    And I know there's been enormous efforts made here in this 
Valley for water conservation. Some of the environmental 
forensics say it doesn't happen. Well, it does happen. In fact, 
extraordinary steps have been taken on conservation here in 
this area. But the rest of the State's also going to have to 
conserve and that's the folks north of Sacramento. That's 
probably a bull's-eye for most of you here in this area. They 
too will have to do their share. So it's the winner take all 
mentality that will destroy this and it will simply set it 
back. I know that some of you remember 1998 when we came very 
close to an agreement. It didn't quite happen. But if everyone 
works together, there are solutions that are available and 
perhaps this hearing will lay some of them out. Thank you, Mr. 
Chairman.
    Mr. McClintock. Thank you. Finally, I'd like to introduce, 
to make an opening statement, someone who needs no 
introduction, Congressman Devin Nunes.

  STATEMENT OF HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Nunes. Thank you, Mr. Chairman. I want to thank 
Chairman McClintock and Chairman Hastings for holding this 
hearing today.
    As many of you may remember, we tried to hold hearings here 
for the past four years and we were unable to because of the 
neglect that we face on behalf of the Democrats in this state, 
in this country.
    When you hear the words middle ground, dialogue, 
compromise, studies, what that means is sell your farms, 
because the water is not coming back, OK. So for 25 years this 
has been going on. When the Central Valley Project Improvement 
Act was passed in 1992, the leaders that were in the Valley at 
that time had assurances from Senators and Congressmen and the 
Congress that that was going to be the last time that they came 
after our water and what did they continue to do? They continue 
to come after our water and they don't stop. And they use words 
like dialogue, compromise and studies. Why? Because then it 
makes you think that everything will be OK.
    The fact is it's not going to be OK unless, as Congressman 
Denham said, unless this Congress acts.
    And this whole business of Senator Feinstein thinking that 
she's going to bring water to this area, let me tell you folks, 
she has lied to me twice, in private has given promises to me 
twice about water coming back to this region. And don't be 
silly here, don't be fooled, there is nothing that Senator 
Feinstein or Senator Boxer or President Obama are going to do 
for this area. Why? Because they are beholden to the radical 
environmental element that exists in this country that is 
essentially headquartered out of the Bay Area. And you can say 
that's partisan rhetoric, but you know what, the track record 
is pretty clear. There's no water.
    And the water is not coming back anytime soon, because of 
the failure and the inaction and the greed by the Democrats in 
this state and this country. And you are going to hear a lot of 
phony nonsense that's going to come from this fisherman 
argument. And I have a video that I'd like to play for you guys 
right now if we can start the video, please.
    [Video played.]
    Mr. Nunes. With that, Mr. Chairman, I pass.
    Mr. McClintock. Thank you. That concludes the opening 
statements by Members. We'll now hear from the witnesses that 
have been invited to testify before the Committee. Each witness 
has written testimony we'll hear in full on the record here and 
so I ask the witnesses to keep their oral statements to five 
minutes each as outlined in our invitation letter and also 
under Committee Board A. I also want to put it on a time system 
here. When you begin to speak, our clerk will start a timer. 
After four minutes a bell will signal that indicates one minute 
is left. At the conclusion of five minutes, the second bell 
will sound. That's your signal to wrap up. So with that I want 
to thank you, all of our witnesses, for coming today. And I'll 
begin with first Ms. Dayatra Latin, Director of Programs and 
Development, Community Food Bank in Fresno, California.

     STATEMENT OF DAYATRA LATIN, DIRECTOR OF PROGRAMS AND 
      DEVELOPMENT, COMMUNITY FOOD BANK, FRESNO, CALIFORNIA

    Ms. Latin. Thank you. Once again, thank everyone for a 
chance to invite the community to hear this story from the 
front lines of the Community Food Bank. You do have a written 
statement that is there and you can see the people that are 
here and many of whom we served over the last couple of years 
because of the drought, who showed up at drought distributions.
    But July of 2009 is forever etched in my memory, only 
because prior to that the Food Bank was distributing about 
300,000 to 500,000 pounds of food.
    We started our first drought distribution at the end of 
July of 2009. I'll never forget. We sent out three trucks. And 
to the more than 680 people that stood in line, that was three 
trucks of hope. And so we handed out and distributed so much 
food that day, but it's the stories that stick with me that I 
hope to be able to leave with you. We started our first drought 
distribution in Mendota and that was a powerful day to be able 
to do that. And we had volunteers take time to put together 
bags of food and people just showed up and the lines were 
endless.
    That same summer we went to Huron. The drive out to Huron 
was different, because fields were kind of bare for me and that 
was unusual for me to see. In line that day I met a young lady 
named Maria. And I wish I could bring the smell of her with me, 
because she held a little baby in her hands. And in her arms 
she had her son and he was about three months old, but she was 
full of vomit and she was full of diarrhea, because her baby 
was severely sick. And he had this heart-wrenching cry that as 
a mom, I kind of stood there and wept with her. And I didn't 
know what to do. And I found somebody to translate for me to 
ask her to please go home, because with the amount of people 
who were in line, it was a hot day, it was going to be four 
hours before she ever got to the front of the line.
    And eventually she told me she couldn't leave. Her husband 
had lost his job. He was the sole provider. They had kids at 
home and the only way they were going to eat is if she stayed 
in that line. And I'm a mom of three amazing kids and I would 
never, ever have to think about having to stand in line with a 
baby sick and crying because she didn't know where her dinner 
was coming from that night. And she knew it would be two weeks 
later before the Food Bank would come back out for another 
distribution. That shouldn't happen. It was sad, it was 
horrible, and Maria stays with me.
    Months later--because we still continue to bring out 
massive amounts of foods to folks. Like I say, we wound up 
serving 500,000 pounds of food to nearly 3 million pounds of 
food at the start of the drought.
    But I met a man named Richard who stood in line. He had 
lost his job six months earlier and was happy that Community 
Food Bank was there. But the thing that was missing for him was 
he was so proud when he had a job, because with that job he was 
able to come home and put food on the table. And what he said 
to me is now I stand in line to be able to put food on the 
table for my family, because I have no work. So I can tell you 
all about the amount of pounds that Community Food Bank 
distributed to them and that there are 285,000 people that need 
our services, but I hope that the picture that you see of Maria 
and Richard and all those who stand in this room who have used 
Community Food Bank services--there is a reason why we are 
there. And I hope that this testimony has meant something and 
has made a difference. And so I thank you on behalf of 
Community Food Bank for allowing us to paint a picture. Thank 
you.
    Mr. McClintock. Thank you so much for coming today.
    [The prepared statement of Ms. Latin follows:]

          Statement of Dayatra A. Latin, Director of Programs 
                  and Development, Community Food Bank

    The end of July 2009 is forever etched into my memory. After a 
couple of weeks of planning, Community Food Bank held the first 
Disaster Drought Distribution, during the last week of that month. We 
were in the City of Mendota, it was above 100 degrees Fahrenheit and 
the line of people seeking food assistance seemed endless. We had three 
truckloads deliver food that day, but it was three truckloads of hope 
for more than 680 families. With every food box assembled by caring 
volunteers and hard-working staff, we offered a little bit of peace so 
that the worried mom and the out-of-work dad did not have to think 
about where the next meal would come from.
    That same summer we held another Drought Distribution in Huron. In 
line that day was a young mother named Maria, whose husband (and sole 
provider) had been laid off in May 2009 from his job working in the 
fields in the area and he was struggling to find work in order to pay 
bills and feed their three young children. Maria was holding her 3-
month-old child who was severely sick. Her clothes were soaked with 
vomit and diarrhea, the baby was crying that heart-breaking cry that is 
familiar to every mother. Through a co-worker, who was able to 
translate for me, Maria explained that her son had been sick for days, 
not eating, constantly crying, and late that night he began vomiting 
and having severe diarrhea. Judging by the amount of people in line it 
would be at least four hours before we could serve her, I asked her to 
go home and we would serve her later. Maria looked at me with tears in 
her eyes and said ``No! If I go home we will not eat tonight and you 
won't be back for two weeks!'' Her fear of not knowing where dinner was 
coming from kept her in line that day despite the condition of her 
child. Her story is forever with me.
    On a cold day in Firebaugh, I met a man named Richard who had been 
out of work for nearly six months. He showed up at Disaster Drought 
Distributions every two weeks for three months because this was the 
sole source of food for his wife and four children ages two through 
nine. He told me how thankful he was for Community Food Bank doing 
this, ``but I only want to work, I was proud to work and feed my family 
and now I stand in line to do it.''
    There are countless untold stories of lives that were touched by 
the lack of water in the Central Valley. They are people who want to 
work in order to provide the most basic human necessity of food.
                                 ______
                                 
    Mr. McClintock. I'd next like to introduce The Honorable 
Phil Larson, Chairman of the Fresno County Board of Supervisors 
of Kerman, California.

           STATEMENT OF HON. PHIL LARSON, CHAIRMAN, 
            FRESNO COUNTY BOARD, KERMAN, CALIFORNIA

    Mr. Larson. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Phil Larson and I am the elected 
representative of District One and the Chairman of the Fresno 
County Board of Supervisors. I appreciate the opportunity to 
testify today regarding the economic impacts on the 
agricultural industry and families in the Central Valley as the 
result of multiple years of Federal water allocations.
    My district includes the western portion of the City of 
Fresno and the westside agricultural region of our county all 
the way to the San Benito County line.
    As a farmer and businessman, I study water issues because 
they are vital to my economic survival. As a past farm bureau 
president, I advocated for additional water storage for our 
region, because our organization saw the need to establish 
safe, clean and reliable water supplies for our industry and 
community in the future.
    As a Fresno County Supervisor, I continue to fight for safe 
and secure water supplies in our region, because I know without 
additional water supplies the social, cultural and economic 
impacts to our region could be devastating.
    Over the past eight years, Fresno County's west side 
agriculture has been paralyzed because of water shortages due 
to environmental regulations. The economic reality was never 
more real than in 2008, when the Fresno County Board of 
Supervisors were forced to declare a local emergency, request a 
Presidential Declaration and request for state and Federal 
assistance to deal with statewide drought and water 
restrictions.
    In 2009, the reduction of water supply deliveries continued 
the severity of the economic hardship. Fallowed farmland caused 
severe unemployment. Those restrictions caused the idling of 
thousands of acres of cropland and resulted in substantial 
economic impact to agricultural crops, the industries that 
support agriculture and the people who work within the 
agricultural industry. An estimate 24 percent of the entire 
farmland in Fresno County was fallowed or farmed in low 
productive crops. Our estimated loss was over 74 million 
resulted in job losses and significant loss of direct and 
indirect revenues. The impacts of those devastating losses have 
created deep issues with our economic recovery.
    We are indeed an area of excessive government regulation 
that has been underserved because of government inaction in 
recognizing the economic issues created by Federal water 
decisions.
    There is an irony that one of the world's most productive 
farm areas and the leading agricultural county in the State of 
California has as many as 51 percent of its population in need 
of food assistance.
    In 2009, our Community Food Bank needed 3.3 million per 
month for local food assistance to purchase, store and 
distribute food to those in need.
    It is unfair that citizens of smaller communities and 
lesser populated areas are discriminated against by not 
receiving the same attention and support received by larger 
population centers like the Bay Area and Southern California. 
It is intolerable that governmental decisions have created over 
40 percent unemployment in western Fresno County. The 
communities of Firebaugh, Mendota, Tranquility, San Joaquin and 
Huron continue to be impacted by onerous government regulations 
and have placed critters above human needs. The result is that 
once vital communities are simply trying to survive.
    Where is the parity when a wildlife area in western Fresno 
County over the last eight years has been given 100 percent 
water allocation when the adjacent bureau contract will receive 
only 75 percent, which was just raised this last week--I wonder 
if that can be political--in one of the wettest years in 
history?
    This is even more questionable when you ask how many people 
the wildlife area will put to work. Contrast this to the 
agricultural operation as a bureau contractor who with 100 
percent allocation would put hundreds of people to work. Add to 
this the multiplier impact of the idle land that could have 
produced a crop that would have supplied food and economic 
stimulus to our valley, the state and the country. That cost 
becomes significant. Often overlooked is the collateral impact 
on jobs in the area created by small businesses like the 
hardware store, grocery stores, mini marts, the fuel suppliers, 
parts stores and the list goes on.
    Another water issue not usually considered is the loss of 
ADA, average daily attendance, funding in our local schools. 
The region school districts whose funding has been most 
significantly impacted are Golden Plains Unified, Mendota 
Unified, Firebaugh-Los Deltas Unified, Riverdale Unified, and 
the north portion of West Hills College. As jobs leave the 
area, so do families and the students that once populated 
schools. This translates to multiple job losses, including 
teachers, support staff, and maintenance workers. In 2005, the 
biggest concern for those school districts was where they would 
be housing the growing student populations. By 2008 with water 
supplies being impacted, instead of planning for growth, they 
were preparing for layoffs and reductions in curriculum.
    Those job losses then were passed on to retail businesses 
and down the food chain to the Federal taxes.
    I believe it's time for the Federal Government to return to 
the table and give full consideration to the economic impacts 
past governmental decisions and practices have created in our 
large geographical area. Our residents deserve the same 
considerations and assistance received by those in more 
populated areas.
    The solution is simple. The Federal Government needs to 
honor what was agreed on back in the 1960s when the water 
agreements first began. Allow our farmers to do what they do 
best, create jobs, economic growth, and produce food and fiber 
to feed and clothe the world. It is time to reconsider past 
decisions and take corrective action to match the reality of 
today.
    Thank you for the opportunity to testify. I would be 
honored to accept questions from you at this time.
    Mr. McClintock. Thank you. Again, I would like to remind 
folks that you are guests at the House of Representatives 
today, that the demonstrations are not permitted in the 
hearing.
    [The prepared statement of Mr. Larson follows:]

           Statement of The Honorable John P. (Phil) Larson, 
                   Fresno County Board of Supervisors

    Mr. Chairman and members of the Subcommittee, my name is Phil 
Larson, and I am the elected representative of District One and the 
Chairman of the Fresno County Board of Supervisors. I appreciate the 
opportunity to testify today regarding the economic impacts on the 
agricultural industry and families in the Central Valley as the result 
of multiple years of federal water allocations.
    My district includes the western portion of the City of Fresno and 
the westside agricultural region of our county all the way to the San 
Benito County line. As a farmer and businessman, I study water issues 
because they are vital to my economic survival. As a past farm bureau 
president, I advocated for additional water storage for our region 
because our organization saw the need to establish safe, clean and 
reliable water supplies for our industry and community in the future.
    As a Fresno County Supervisor, I continue to fight for safe and 
secure water supplies in our region because I know without additional 
water supplies the social, cultural and economic impacts to our region 
could be devastating.
    Over the past eight years, Fresno County's westside agriculture has 
been paralyzed because of water shortages due to environmental 
regulations. The economic reality was never more real than in 2008, 
when the Fresno County Board of Supervisors were forced to declare a 
local emergency, request a Presidential Declaration and request for 
State and Federal Assistance to deal with statewide drought and water 
restrictions.
    In 2009, the reduction of water supply deliveries continued the 
severity of the economic hardship. Fallowed farmland caused severe 
unemployment. Those restrictions caused the idling of thousands of 
acres of crop land and resulted in substantial economic impact to 
agricultural crops, the industries that support agriculture and the 
people who work within the agricultural industry. An estimate 24% of 
the entire farmland in Fresno County was fallowed or farmed in low 
productive dry crops. Our estimated loss of $74 million resulted in 
loss of jobs and significant loss of direct and indirect crop revenues. 
The impacts of those devastating losses have created deep issues with 
our economic recovery.
    We are indeed an area of excessive governmental regulation that has 
been underserved because of government inaction in recognizing the 
economic issues created by federal water decisions. There is an irony 
that one of the World's most productive farm areas and the leading 
agricultural County in the State of California has as many as 51% of 
its population in need of food assistance. In 2009, our Community Food 
Bank needed $3.352 million per month for local food assistance to 
purchase, store and distribute food to those in need.
    It is unfair that citizens of smaller communities and lesser 
populated areas are discriminated against by not receiving the same 
attention or support received by larger population centers like the Bay 
Area or Southern California. It is intolerable that governmental 
decisions have created over 40% unemployed in western Fresno County. 
The communities of Firebaugh, Mendota, Tranquillity, San Joaquin, and 
Huron continue to be impacted by onerous governmental regulations that 
have place ``critters'' above human needs. The result is that once 
vital communities are simply trying to survive.
    Where is the parity when a wildlife area in western Fresno County 
is given 100% water allocation when the adjacent bureau contractor will 
only receive 65% in one of the wettest years in history? This is even 
more questionable when you ask how many people the wildlife area will 
put to work. Contrast this to the agricultural operation as a bureau 
contractor who with a 100% allocation would put hundreds of people to 
work. Add to this the multiplier impact of the idle land that could 
have produced a crop that would have supplied food and economic 
stimulus to our valley, the state and the country. The cost becomes 
significant. Often overlooked is the collateral impact on jobs in the 
area created by small businesses like the hardware store, grocery 
stores, mini marts, fuel suppliers, parts stores and the list goes on.
    Another water issue not usually considered is the loss of public 
ADA (Average Daily Attendance) funding in our local schools. The region 
school districts whose funding is most significantly impacted are 
Golden Plains Unified, Mendota Unified, Firebaugh-Los Deltas Unified, 
Riverdale Unified, and the north portion of West Hills College. As jobs 
leave the area, so do families and the students that once populated the 
schools. This translates to multiple job losses including teachers, 
support staff, and maintenance workers. In 2005, the biggest concern 
for those school districts was where they would be housing the growing 
student populations. By 2008 with water supplies being impacted, 
instead of planning for growth they were preparing for layoffs and 
reductions in curriculum. Those job losses then are passed on to retail 
businesses and down the food chain to local, state and federal taxes.
    I believe its time for the Federal Government to return to the 
table and give full consideration to the economic impacts past 
governmental decisions and practices have created in our large 
geographical area. Our residents deserve the same considerations and 
assistance received by those in more populated areas.
    The solution is simple; the Federal Government needs to honor what 
was agreed on back in the 1960's when the water agreements first began. 
Allow our farmers to do what they do best--create jobs, economic 
growth, and produce food and fiber to feed and clothes the World. It is 
time to reconsider past decisions and take corrective action to match 
the reality of today.
    Thank you for the opportunity to testify. I would be honored to 
accept questions from you at this time.
                                 ______
                                 
    Mr. McClintock. The next witness is The Honorable Mark 
Watte here as a farmer in Tulare County, California.

           STATEMENT OF HON. MARK WATTE, COUNCILMAN, 
                   CITY OF TULARE, CALIFORNIA

    Mr. Watte. Good morning. Thank you Chairman McClintock, 
Chairman Hastings, Ranking Member Napolitano and other Members 
of the Committee for the opportunity to testify today.
    I appreciate your interest in solving the California water 
crisis. I hope this hearing will result in some action rather 
than just an exercise in listening.
    Let me take a moment to introduce myself. I am Mark Watte, 
a third generation farmer, with a fourth generation learning 
the ropes. We have 4,000 acres in production that include a 
mixture of permanent and row crops. We also operate two dairies 
and two calf-raising facilities. I also sit on four different 
water boards, including the Friant Board of Directors, two 
cotton boards, and I am an elected member of the Tulare City 
Council.
    The San Joaquin Valley has been blessed with good soil, a 
long growing season, and in the past an abundance of water. 
Together they created the most dynamic ag economy in the world. 
San Joaquin Valley is the first in the world in dairy, 
pistachios, almonds, processing tomatoes, asparagus, navel 
oranges, lettuce, garlic, and many more specialty crops. The 
products of the valley are truly American-made--the cheapest, 
safest, and most reliable food in the world. However, if 
Congress does not change the direction of water policy in 
California, we will have cantaloupes grown in Mexicali rather 
than in Mendota.
    Our farm is located near Tulare, in the central portion of 
the San Joaquin Valley, where we have historically sourced 50 
percent of our water from surface supplies through Friant and 
the Kaweah River and 50 percent from a significantly over-
drafted aquifer. As the years pass, the reliability of our 
water supply dwindles. Other than an over-prescribed 
groundwater source, our major challenge to our water future is 
the surface water reductions associated with the San Joaquin 
River Settlement.
    After fighting for nearly two decades and saddled with 
millions of dollars in legal fees, the farmers were left with 
no other option but to settle. During this legal struggle, 
Congress stood by and refused to take legislative action to 
resolve the legal dispute. This unwillingness to get involved 
resulted in a flawed solution, a solution that will not bring 
back a long-dead salmon fishery, nor will it bring back all of 
our lost water.
    Promises were made during the negotiations that are not 
being fulfilled. For example, there continues to be a lack of 
substantive action on the water management goals. The farmers 
were promised that restoration and water management would be 
co-equal goals. While restoration moves full steam ahead, with 
significant water releases down the river, the water management 
goals are stuck in neutral. Another example is that third 
parties were promised they will not be impacted. Yet, the 
interim flows are damaging farmland of third parties and no 
action is being taken to provide relief. The future of the 
settlement is at risk if all parties do not hold up to their 
part of the deal, including the Federal Government.
    A more commonsense solution would be to extend the existing 
San Joaquin River warm water fishery and connect it at Sack 
Dam. This will restore the river in a more fiscally responsible 
and environmentally sustainable way. It also provides Friant 
the ability to recover its water and use it twice--once for the 
environmental purposes, once for raising food and fiber for our 
fellow citizens.
    For years, our livelihood in the San Joaquin Valley has 
been under threat by drive-by tourists from the Bay Area who 
don't understand or care about our way of life. They have filed 
lawsuit after lawsuit to ensure that the government enacts 
water policy largely based on junk science. This has resulted 
in a 65 percent water allocation in a year of record rainfall 
and snowpack. While this is much better than the past two 
years, it remains disturbing in a year in which we will most 
likely see flood damage. We have done better in the past.
    There are two ways to solve most of the economic problems 
in the San Joaquin Valley. First, Congress must take action on 
the water issue. For the past four years we heard a lot of talk 
about the problem while Congress did absolutely nothing. Quite 
honestly, we are tired of talk. We want action. Congress needs 
to fix the situation in the Delta, revisit CVPIA and streamline 
a number of troublesome provisions, and we need to make sure 
that restoration of the San Joaquin River can actually be 
accomplished in a sustainable way with the least amount of 
impact.
    Second, we need the government to get out of the way. The 
regulatory process of trying to get a water project approved in 
the Valley is a nightmare. The problem is we have a bureaucracy 
that is imbedded with activists who have their own agenda. We 
no longer see the Bureau of Reclamation as a partner in solving 
our water problems. They have taken on the role of 
obstructionist. We are willing to follow the rules and pay our 
own way, but we need a good faith partner in the process. This 
is certainly not what we have today.
    Thank you for your time and effort in addressing our 
California water issues. You have heard and will hear from many 
experts that know more specifics about the ills and cures of 
our issues than I do. But make no mistake, I am the face of an 
average person who uses the wonderful resources that God has 
given us here in California. Through hard work and risk taking, 
California farms have created a bounty that benefits a nation. 
We understand and respect the risk-reward associated with 
Mother Nature. I would hope that you assist us with lessening 
our risk burden with regard to our water supply.
    What we need is inspired leadership from Congress to 
provide a balance to the unrealistic demands of environmental 
zealots who have no sympathy or compassion for the economic 
devastation that resulted from the starving valley of water.
    Again, thank you for the opportunity to testify.
    Mr. McClintock. Thank you for your testimony.
    [The prepared statement of Mr. Watte follows:]

          Statement of The Honorable Mark Watte, Councilman, 
                       City of Tulare, California

    Thank you Chairman McClintock, Chairman Hastings, Ranking Member 
Napolitano and other members of the committee for the opportunity to 
testify today. I appreciate your interest in solving the California 
water crisis. I hope this hearing will result in action rather than 
just an exercise in listening.
    Let me take a moment to introduce myself. I am Mark Watte, a third 
generation farmer (with a fourth generation learning the ropes). We 
have 4,000 acres in production that include a mixture of permanent and 
row crops. We also operate two dairies and two calf-raising facilities. 
I also sit on four different water boards, including the Friant Board 
of Directors, two cotton boards, and I am an elected member of the 
Tulare City Council.
    The San Joaquin Valley has been blessed with good soil, a long 
growing season, and (in the past) an abundance of water. Together they 
created the most dynamic agriculture economy in the world. The San 
Joaquin Valley is the first in the world in dairy, pistachios, almonds, 
processing tomatoes, asparagus, navel oranges, lettuce, garlic, and 
many more specialty crops. The products of the valley are truly 
American-made--the cheapest, safest, and most reliable food in the 
world. However, if Congress does not change the direction of water 
policy in California, we will soon have cantaloupes grown in Mexicali 
rather than in Mendota.
    Our farm is located near Tulare, in the central portion of the San 
Joaquin Valley, where we have historically sourced 50% of our water 
from surface supplies through Friant and the Kaweah River and 50% 
pumped from a significantly over-drafted aquifer. As the years pass, 
the reliability of our water supply dwindles. Other than an over-
prescribed groundwater source, our major challenge to our water future 
is the surface water reductions associated with the San Joaquin River 
Settlement.
    After fighting for nearly two decades and saddled with millions of 
dollars in legal fees, the farmers were left with no other option but 
to settle. During this legal struggle, Congress stood by and refused to 
take legislative action to resolve the legal dispute. This 
unwillingness to get involved resulted in a flawed solution--a solution 
that will not bring back a long-dead salmon fishery, nor will it bring 
back all of our lost water.
    Promises were made during the negotiations that are not being 
fulfilled. For example, there continues to be a lack of substantive 
action on the water management goals. The farmers were promised that 
restoration and water management would be ``co-equal goals''. While 
restoration moves full steam ahead, with significant water releases 
down the river yet the water management goals are stuck in neutral. 
Another example is that third parties were promised they will not be 
impacted. Yet, the interim flows are damaging farmland of third parties 
and no action is being taken to provide relief. The future of the 
settlement is at risk if all parties do not hold up to their part of 
the deal, including the federal government.
    A more commonsense solution would be to extend the existing San 
Joaquin River warm water fishery and connect it at Sack Dam. This will 
restore the river in a more fiscally responsible and environmentally 
sustainable way. It also provides Friant the ability to recover its 
water and use it twice--once for the environmental purposes, and once 
for raising food and fiber for our fellow citizens.
    For years, our livelihood in the San Joaquin Valley has been under 
threat by drive-by tourists from the Bay Area, who don't understand or 
care about our way of life. They have filed lawsuit after lawsuit to 
ensure the government enacts water policy based on junk science. This 
has resulted in a 65% water allocation in a year of record rainfall and 
snow pack. While this is much better than the past two years, it 
remains disturbing in a year in which we will most likely see flood 
damage. We have done better in the past. The proof is in the numbers.
    I call your attention to this chart which shows CVP storage versus 
Ag Service Allocation since 1952. Initial allocations are signified 
with a red square and final allocations with a green triangle. You can 
clearly see that chaos ensued after the enactment of the Central Valley 
Project Improvement Act in 1992; and only became worse. Even with the 
strangling impacts of CVPIA, the Westside still received 90% of their 
allocation in 1997--a water year that could easily mirror this one.
    There are two ways to solve most of the economic problems in the 
San Joaquin Valley. First, Congress must take action on the water 
issue. For the past four years, we heard a lot of talk about the 
problem while Congress did absolutely nothing. Quite honestly, we are 
tired of talk. We want action. Congress needs to fix the situation in 
the delta, it needs to revisit CVPIA and streamline a number of 
troublesome provisions, and we need to make sure that restoration of 
the San Joaquin River can actually be accomplished in a sustainable way 
with the least amount of impact.
    Second, we need the government to get out of the way. The 
regulatory process of trying to get a water project approved in the 
valley is a nightmare. A good example was the raising of Terminus Dam. 
It took 25 years and $50 million--$20 million going to environmental 
mitigation--to get the permits to raise the dam 21 feet. The problem we 
have is a bureaucracy that is imbedded with activists who have their 
own agenda. We no longer see the Bureau of Reclamation as a partner in 
solving our water problems. They have taken on the roll of 
obstructionist. We are willing to follow the rules and even pay our own 
way; but we need a good faith partner in the process. That is certainly 
not what we have today.
    Thank you for your time and effort in addressing our California 
water issues. You have heard, and will hear from, many ``experts'' that 
know more specifics about the ills and cures for our issues than I do. 
But make no mistake: I am the face of an average person, who uses the 
wonderful resources that God has given us here in California. Through 
hard work and risk taking Californian's created a bounty that benefits 
a nation. We understand and respect the risk-reward associated with 
Mother Nature. I would hope that you will assist us with lessening our 
risk burden with regards to our water supply.
    What we need is inspired leadership from Congress to provide a 
balance to the unrealistic demands of environmental zealots who have no 
sympathy or compassion for the economic devastation that resulted from 
the starving the valley of water.
    Again, thank you for the opportunity to testify and I look forward 
to answering any questions you may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5822.001
                                 

    Mr. McClintock. Our next witness is Mr. Kole Upton. 
He's the Chairman of the Madera-Chowchilla Water and Power 
Authority, Madera, California.

STATEMENT OF KOLE UPTON, CHAIRMAN, MADERA-CHOWCHILLA WATER AND 
              POWER AUTHORITY, MADERA, CALIFORNIA

    Mr. Upton. Thank you, Mr. Chairman, Members of the 
Committee. Yes, I'm a farmer. I'm also here as the Chairman of 
the Madera-Chowchilla Water and Power Authority. We supply 
water and power for about 200,000 acres in Merced and Madera 
Counties. I'd first like to start by giving a couple of 
attaboys--one to Congressman Denham, who has assembled a great 
staff, Jason Larrabee and Mr. Rucker and Mr. Kirk here locally, 
also to the Committee as a whole and Congress as a whole that 
came together on a program in Merced to increase the spillway 
and give us 70,000 more acre-feet, Democrats and Republicans, 
and that's the kind of cooperation that we need and I commend 
you for that.
    The hearing today is what I want to focus on. It's about 
jobs. It's not about just creating jobs, it's about protecting 
the jobs that we have now. And there are five areas that I 
recommend be addressed. Number one is environmental water 
releases. When I use water or another person uses water, we are 
held to a standard of reasonable and beneficial use, and that's 
good, and we ought to have the same standard for environmental 
uses. And there is no better example then the Delta. Since 1991 
there have been millions of acre-feet taken from folks that 
were using it to help the Delta. What do we have today? We have 
fishermen out of business.
    We have farmers out of business. We have the species still 
near extinction. We have the estuary still in bad shape. What 
have we done? We haven't accomplished anything. So we need to 
have a standard. And what I recommend that before judges or 
agencies have water taken from somebody for an environmental 
reason, there has to be a standard there that it's actually 
going to work, it's going to do something, and it should be 
reviewed occasionally for accuracy to make sure it's actually 
doing what it's supposed to do.
    The second area I would say is authorize and fund 
Temperance Flat. We need to keep--quit diddling around about 
this. The flood control benefits alone would pay for it. But, 
in addition, you would increase the amount of surface storage 
so that the Bureau could actually fulfill the contracts that 
Friant has now. They are unable to do that, because Friant 
Dam's too small.
    The third thing is to adopt the water banking program. 
Water banking is a good thing, but it needs the component of 
storage. Why? Because you cannot put 80,000 cfs into a water 
bank during a flood. It goes too fast. So you need to store it 
so you can percolate it into the ground. This would help our 
overdraft here in the San Joaquin Valley. There's something 
simple, I would think, about society investing in its own 
infrastructure. It's for the future.
    The third area I would say is we need to amend or replace 
the San Joaquin River Settlement Act. When they went into this, 
and I was one of the negotiators, everybody went into it with 
good faith, we are going to restore the salmon on the main stem 
of the river and the farmers were going to get their water 
back, hallelujah, OK. But what has happened since that time is 
that we have environmental studies and we have government 
studies and if you believe global warming, then since the San 
Joaquin River is a wide flat river it's going to be a very big 
challenge to get a significant number of fish back into that 
river. And the water management goal, we know we can't get that 
now and one of the reasons is because of lawsuits filed by the 
environmentalists, the very same ones that promised to help us 
get our water back, over Delta issues. So let's cut to the 
chase here. What we need, just like Mr. Watte just said, extend 
the current fishery to the Sack Dam and get our water back. 
You'll have a robust fishery 24/7, 365 days a year. What you 
won't get is salmon. Then you have to take the money you were 
going to invest in that, invest it in one of these northern 
rivers that already has salmon so you have exponentially more 
salmon for the fishermen to fish.
    The fourth item is the Corps of Engineers. They have come 
up with some new ideas to bring conveyances, canals, to the 
standards of the New Orleans levees and they also are extending 
their jurisdiction for the Clean Water Act. They need to be 
reined in, OK. For the safety, that's fine. They do not need to 
overextend their authority here and cost us a lot of money.
    The last point I want to make is that I commend you here 
for coming to create jobs, to protect jobs, but it seems a 
little bit counterproductive to have another agency in the 
Federal Government that is going to destroy the same jobs. Now, 
I'm talking about high speed rail. Farmers from Merced to 
Bakersfield, there are hundreds of them that I have talked to 
and worked with, and this authority has not listened to the 
farmers. They are supposed to minimize the impact of farmland, 
use existing corridors, and I can tell you that it's not 
happening. I commend them for hiring a handicap, because they 
almost seem hard of hearing, but the fact is that they are 
going to destroy the infrastructure that we have in this valley 
that's taken decades to develop. In my water district alone, 
they have taken out an entire canal, scaling systems, canal 
pumps. On the farmers' land they are taking out deep wells 
which take them a year and a half to replace. We need some help 
on this. There's some Congressmen here that are espousing high 
speed rail. You need to talk to those folks and say get with 
the program and do what you promised in the bond and in the 
law.
    Thank you for allowing me to participate in this hearing. 
I'll be glad to answer questions at will.
    [The prepared statement of Mr. Upton follows:]

                  Statement of Kole Upton, Chairman, 
              Madera-Chowchilla Water and Power Authority

    Mr. Chairman and Members of the Subcommittee
    It is an honor and privilege to appear before the Water and Power 
Subcommittee. I appreciate the opportunity to recommend actions 
concerning the subject of the Hearing, ``Creating Jobs by Overcoming 
Man-Made Drought: Time for Congress to Listen and act.''
    I, Kole Upton, am a farmer in Merced and Madera Counties living on 
the same farm started by my father after he returned for World War II. 
With my brother and sons, I grow wheat, corn, oats, cotton, almonds, 
and pistachios. The water essential to growing these crops comes from 
four sources: Friant Dam, Buchanan Dam, Merced Irrigation District, and 
groundwater. None of these sources by itself can provide enough water 
to sustain our area for the long term.
    I am appearing as the Chairman of the Madera-Chowchilla Water and 
Power Authority (MCPWA). This organization is a joint powers authority 
made up of the Madera Irrigation District (MID) and the Chowchilla 
Water District (CWD). It is responsible for the operation of the Madera 
Canal (which transports water from Friant Dam to MID and CWD) and 
MCPWA's four power plants.
    The subject of this Hearing is jobs. It is important not only that 
we create jobs but that we protect the ones we have. It is 
counterproductive for one part of the government to act to create jobs 
in the San Joaquin Valley while another part advocates programs, 
projects, and policies that threaten existing jobs. Thus, I want to 
focus on several areas in which Congress can ``Listen and Act'' to 
create jobs but also ``Listen and Act'' to amend or eliminate 
government actions that threaten existing jobs.
    The subject topic areas are listed first, and then followed by a 
more detailed explanation of each one.
        1.  Congressional action to require judges and government 
        agencies to hold environmental water releases to the same 
        standards as required of the urban and agricultural users.
        2.  Authorize and fund the building of Temperance Flat Dam.
        3.  Amend the San Joaquin River Settlement Act to restore the 
        River while ensuring job protection and creation.
        4.  US Army Corps of Engineers (USACE) Issues
        5.  High Speed Rail's Adverse Impact to Farmers, Water 
        Facilities, and Jobs.
Environmental Water Releases
    No one disputes the need for all living species to have water. Nor, 
is there much dispute about the fact that decades ago water diversions 
did not adequately address the environmental needs of society. But, the 
pendulum has swung too far in the other direction. Now, there are many 
examples of environmental diversions that have not resulted in any 
improvement to the situation for which the water was taken from other 
users that were beneficially using the water.
    There is no better example that the Delta. Millions of acre-feet 
have been diverted from their historical beneficial use to ostensibly 
save the Delta and several endangered and/or threatened species. Yet, 
the Delta is in worse shape than ever.
    It is time that water used for environmental purposes be held to 
the same standard required of other users. If environmental water that 
is diverted is not accomplishing the task for which it was taken, it 
should be declared a ``waste and unreasonable use'' of water. That 
water could then be returned to other water users who could use the 
water in a manner to benefit society. This equates directly to job 
restoration and creation! How many thousands of jobs have been lost in 
the Valley due to environmental diversions that have accomplished 
nothing?
    The California Constitution and commons sense forbid the wasteful 
uses of water. Congress should require current environmental releases 
to be regularly reviewed for efficacy. Congress should also set forth 
requirements that prohibit actions by agencies or judges from ordering 
environmental water releases until such actions are deemed to be 
prudent, feasible, scientifically justified, and have a reasonable 
chance for success.
Authorize and Fund Temperance Flat Dam
    There is nothing immoral or unethical about a society investing in 
its own future. A dam at Temperance Flat would be such an investment, 
one which would have filled with up to 750,000 acre-feet of water four 
times in the last seven years. That is more than enough water to supply 
the entire one million plus acres in the Friant service for one year. 
That would have been an immense benefit to the overdrafted underground 
aquifers in the San Joaquin Valley.
    In the past, such leaders as President Kennedy and Governor Pat 
Brown led the way with dams and other water infrastructure projects 
that turned this area from a desert to a garden. For decades now, 
however, society and its leaders have abandoned major improvements to 
our water infrastructure. Much of this attitude comes from the desire 
by society to be environmentally sensitive and ensure the survival of 
as many species as possible. Although some espousing this continued 
course of action are well intentioned, it is time for elected officials 
to bring some balance back to the situation. Our future depends on it.
    The economy in the San Jaoquin Valley is agriculturally based 
because we are blessed with some of the most fertile soil in the world. 
The one essential requirement for production and the associated JOBS is 
water. Without water, this land becomes a paradise for tumbleweed and 
jack rabbits.
    It is obvious to anyone living in the San Joaquin Valley that a dam 
at Temperance Flat would provide multiple benefits to society. Flood 
control, surface storage, and construction jobs are just a few of the 
obvious benefits. The flood control and increased surface storage 
components would dovetail perfectly with the increased need to utilize 
groundwater banking to mitigate the overdraft of the underground 
aquifers. Groundwater banking by itself is limited because it cannot 
absorb the current high flood flows that must be released due to the 
small capacity of Friant Dam. Temperance Flat Dam would solve that 
problem.
    Unfortunately, the existing regulatory environment at both the 
state and federal levels makes development of even simple water banking 
projects unnecessarily time consuming and expensive. For instance, it 
has taken seven years and millions of dollars to get the permits for 
Madera Irrigation District's water banking project.
    Congress needs to act and authorize and fund Temperance Flat Dam.
Amend the San Joaquin River Settlement Act
    The San Joaquin River Settlement was made in faith by the farmers 
in the Friant service area. There were two co-equals goals: 1.An 
attempt to revive the 60 year old dead salmon fishery on the main stem 
of the River, and 2. The Water Management Goal, to mitigate the water 
losses to the Friant service area. The Bureau of Reclamation is 
responsible for the implementation of both goals.
    The Bureau's task to mitigate our water losses has been made much 
more difficult by the increasing number of lawsuits involving the 
Delta. Ironically, some of these lawsuits have been initiated by some 
of the same environmental groups who pledged to help mitigate the farm 
water losses as part of the Settlement.
    Regarding the return of salmon, if global warming is as claimed by 
some environmental groups, then the return of a cold species like 
salmon to the San Joaquin River which is already on the periphery of 
salmon viability is highly problematic. Indeed, even studies by the 
federal government suggest that is a futile exercise.
    No one argues with the concept of a restored River, but at what 
cost? Without the mitigation of farm water losses, many jobs will be 
lost and the overdraft of the underground aquifers will increase. We 
will find ourselves in the same predicament as the West Side with only 
the idling of hundreds of thousands of acres as the means to balance 
our needs with the water available.
    We need Congress to declare that the extension of the current 
fishery below Friant Dam to Sack Dam fulfills society's obligation to 
restore the River. Such an action would allow all the farm water losses 
to be mitigated, restore the River, and protect and create JOBS.
The U.S. Army Corps of Engineers (USACE) Issues
    Throughout the West and especially in California, there are 
thousands of miles of earthen canals, mostly unlined, that have safely 
and efficiently delivering water to farms for over a century with few 
major problems. These facilities were built to convey irrigation water, 
not to be flood control levees or provide any other flood control 
function other than to occasionally distribute requested flood waters. 
Recently, USACE has initiated an effort to create regulations that such 
canals be built or rebuilt to flood control levee standards.
    In addition, the USACE is trying to assert Clean Water Act (CWA) 
jurisdictional controls over constructed conveyances such as canals. 
This will impede operations, and drive up the costs of maintenance and 
repairs without any demonstrable public benefit. This USACE effort is 
far outside the scope of CWA, lacks legal foundation, and needs to be 
brought to a halt.
    Although it may be well intentioned, the last thing we need is 
another government agency (e.g., EPA) expanding its power and 
jurisdiction over our water operations without any benefit to society.
High Speed Rail and its Adverse Impact to Jobs
    Although the concept of High Speed Rail (HSR) may be admirable, the 
current HSR project through the San Joaquin Valley as planned will be 
devastating to agriculture. Despite the intent of the language in the 
law and the bond authorizing HSR in California to use existing 
transportation corridors and minimize impacts to farmland, the current 
route options through the Valley do the opposite.
    In my area alone, the HSR routes adversely impacts thousands of 
acres of farm land. For individual farmers, it takes out deep wells, 
canal pumps, pipelines, the other water infrastructure facilities of 
individual farmers. For public agencies such as water districts, it 
takes out entire canals, water facilities for inter-district transfers, 
and sophisticated and expensive monitoring systems installed for the 
purpose of ensuring that the water is used efficiently.
    The agriculture industry in the Valley has a multiplier effect 
providing jobs all the way up the food chain from farm to market. It 
has taken decades to develop the economic infrastructure that supports 
the agriculture industry. High Speed Rail should integrate its 
infrastructure with the Valley's existing situation, and drop the 
approach that HSR is so important that it must supersede all other 
activities in the Valley.
    Congress should aggressively review the HSR project in California. 
A poorly planned and over budget project that adversely affects our #1 
industry will cost the Valley jobs. High Speed Rail should be done 
right or not at all.
    For inclusion with my testimony, I am offering a study just 
released titled, ``Will the High-Speed Train Benefit California's 
Middle Class?''
    Thank you for the opportunity to offer oral and written testimony.
                                 ______
                                 
    Mr. McClintock. Again, I want to request to keep 
demonstrations to a minimum. Our next witness is The Honorable 
Mary Piepho, Supervisor for Contra Costa County, Discovery Bay, 
California.

          STATEMENT OF HON. MARY PIEPHO, SUPERVISOR, 
         CONTRA COSTA COUNTY, DISCOVERY BAY, CALIFORNIA

    Ms. Piepho. Good morning, Mr. Chairman and Members of the 
Subcommittee and attending guests. My name is Mary Nejedly 
Piepho and I'm a member of the Contra Costa County Board of 
Supervisors. I greatly appreciate the opportunity to appear 
before you today and share some important views from another 
part of the state, the five counties that the Sacramento-San 
Joaquin Delta runs through. I'm here on behalf of the Delta 
County Board of Supervisors that encompass the Delta: 
Sacramento, Yolo, Solano, San Joaquin and Contra Costa 
counties. Together we represent more than four million 
Californians that live and work in the Delta region. We are 
fully aware that two-thirds of our state relies on water that 
flows through the Delta and that it is an ecosystem of national 
significance and the center of our state's economy.
    The Delta supports an economy of state and national 
significance and the Delta supports not only our state and 
nation food supply, but that of the world. Like you, we feel 
strongly that we should have an integral role in addressing the 
multitude of complex Delta issues that directly affect us in 
every way. I'm here today to encourage you to work together 
with us in solving the very serious water challenges facing our 
regions and the state and support our economy rather than 
solutions that might benefit one region of California at the 
expense of others, our economy at the expense of others. To be 
clear, we are very concerned about certain provisions included 
in HR-1. The Delta County Coalition is opposed to any such 
efforts that would arbitrarily block legal protections for the 
Sacramento-San Joaquin Delta and its fisheries. Such an effort, 
if enacted into law, would, in our view, undermine the fragile 
collaborative approaches that are just beginning to work to 
solve California's immense and historical water problems.
    In California, as you are aware, we have a new Governor, a 
new administration and a new approach to our state water 
complex challenges, an approach that we believe needs to be 
given a chance to succeed. And the Delta County Coalition has 
been constructively engaged in these efforts. We are most 
concerned by the HR-1 provisions that would threaten Delta 
communities that rely on a healthy Delta environment and clean 
water to support a regional economy dependent on farming, 
fishing and recreation. Rather than building trust among state 
holders, collaboration among state and Federal agencies and 
balance science-based solutions that benefit all Californians, 
this proposal would lead water policy discussions back to 
gridlock and litigation. Long lasting solutions to Delta issues 
calls for us not to move backward, but to move forward. And the 
best way forward, in our opinions, is to continue to support 
efforts that work through existing laws and to work together.
    An example of such an effort currently underway is the 
second phase of the National Academy of Sciences' study on 
Sustainable Water and Environmental Management in the Delta. 
Due in approximately November of this year, this report will 
discuss how to most effectively incorporate science and 
adaptive management concepts into holistic programs for 
management and restoration of the Bay-Delta in a way that 
should best inform the Bay-Delta Conservation Plan Development 
process. At a time when the NAS is completing its important 
work, Congress should not undercut these efforts by eliminating 
important legal protections for the Delta today. The Delta 
County Coalition strongly supports the scientifically based 
approach to solving water issues for the state and restoring 
the Delta ecosystem and that we would all benefit from it.
    We encourage Congress to support the recent state and 
legislative actions contained in the Delta reformat in the 
existing body of state law. Additionally, we hope that Congress 
will fund as a priority scientific expertise and help us to 
address these problems. The Delta, at 1300 square miles, is the 
largest estuary and wetland ecosystem on the west coasts of 
both North and South America. It includes over 500,000 acres of 
agricultural land and 200,000 jobs. The five-county Delta 
region has consistently contributed more than 2 billion dollars 
annually in agricultural gross value. California has a very 
diverse economy, up and down the state, with no single sector 
dominating our total state economy. Our state's economic health 
depends on a healthy Bay-Delta system and a comprehensive water 
program. We would encourage you to look for solutions that 
include practical solutions, short and long term.
    First among these is additional storage south of the Delta. 
Until the critical issue of south Delta storage is addressed 
and implemented, there is little or no benefit for removing 
pump restrictions. There simply is no place to store any 
additionally gained water. Since December of last year there 
have been several extended periods when the export pumps were 
not constrained by the biological opinions, but rather by their 
own inability to pump water or deliver it. Most recently, the 
pumps shut down completely and they are still not delivering as 
much water as they could, because there's no place to store the 
water. Second is the adoption of a solutions-oriented approach, 
beginning with immediate actions we know will be required now 
and in the long-term that will put people to work today. These 
include emergency planning, protection of key infrastructure 
and levee improvements. An additional and absolutely critical 
investment we need in order to ensure reliable, high-quality 
water supply for all users everywhere in the State, is in the 
improvement of the Delta levee system. The Delta Vision 
project, completed by the State of California, arrived at the 
same conclusion.
    In closing, let me reference the Principles of Agreement, 
adopted by the Delta Counties Coalition, which describe our 
joint interest on the Bay-Delta Estuary and are attached to our 
written testimony. I won't address them, but we believe the 
Bay-Delta must be protected and restored or it will not be 
available as a resource that is reliably available to help meet 
the various and legitimate needs of all of those around the 
state, 23 million Californians. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Piepho follows:]

  Statement of The Honorable Mary Nejedly Piepho, Supervisor, Contra 
 Costa County Board of Supervisors, Representing the CA Sacramento-San 
                 Joaquin Delta Counties Coalition (DCC)

    Good morning
    My name is Mary Nejedly Piepho and I am a member of the Contra 
Costa County Board of Supervisors. I appreciate the opportunity to 
appear before you today. I am here on behalf of the Delta County Boards 
of Supervisors that represent the five counties encompassing the Delta: 
Sacramento, Yolo, Solano, San Joaquin and Contra Costa. Together, we 
represent more than four million Californians that live and work in the 
Delta. I am here today to encourage you to work together with us in 
solving the very serious water challenges facing our regions and the 
state, rather than solutions that might benefit one region at the 
expense of others.
    The five Delta Counties joined together to articulate a common 
vision and voice for the Delta, advocating on behalf of local 
government and the 4 million people in the Delta. We are fully aware 
that two-thirds of our state relies on water that flows through the 
Delta and that it is an ecosystem of national significance. We feel 
strongly that we should have an integral role in addressing the 
multitude of complex Delta issues that directly affect us in every way. 
``Nothing about us without us''.
    The DCC strongly supports a scientifically-based approach to 
solving water issues for the state, and restoring the Delta ecosystem. 
We encourage Congress to support the recent state legislative actions 
contained in the Delta Reform Act and the existing body of state law. 
Additionally, we hope that Congress will fund as a priority scientific 
expertise in helping to address these problems. In particular, Congress 
should rely on the considerable expertise of the federal and state 
biologists who have studied the Delta and its fish populations to 
determine actions to protect and restore the Delta ecosystem, rather 
than imposing conditions through legislation that would further 
contribute to the decline of the Delta smelt and other at-risk species.
    The Delta is a unique and critically important natural resource to 
the state and the nation, above and beyond its clear value to the 
residents, families, farms and those that depend upon its fishery. The 
Delta as a place supports 4 million people and I am one of them. The 
Delta, at 1,300 square miles, is the largest estuary and wetland 
ecosystem on the west coasts of both North and South America, and 
includes over 500,000 acres of agricultural land and 200,000 jobs. The 
five-county Delta region has consistently contributed more than $2 
billion annually in agricultural gross value.
    California has a very diverse economy, up and down the state, with 
no single sector dominating our total state economy. Our state's 
economic health depends on a healthy Bay-Delta and comprehensive water 
program that balances the needs of all sectors and all users--
agricultural, recreational and tourism, commercial, industrial and 
residential water provision alike. Each is vital.
    We recognize the serious economic problems facing the Central 
Valley and the importance of Central Valley agriculture to the state 
and nation. We have similar economic impacts and values in our area as 
well. Surely, there must be a close examination of the diverse factors 
which contribute to these problems, and solutions to these contributing 
factors must be jointly crafted. All who care about the Valley and 
California water issues should acknowledge that there is a body of data 
prepared by respected individuals and institutions suggesting that some 
problems in the Central Valley have relatively little to do with 
reductions at the south delta export pumps.
    There have been a number of official letters and reports during and 
since 2009 that confirm that most of the recent reductions in water 
supplies were due to drought conditions and not simply Endangered 
Species Act restrictions.\1\ . It is crucial that the examination of 
the complex and at times interrelated problem areas is comprehensive so 
that real and sustainable solutions to these problems can be achieved. 
For both short and long-term benefits to the state.
---------------------------------------------------------------------------
    \1\ (Lester Snow letter to Sen. Feinstein 5/09, Congressional 
Research Service Report on CA Drought 12/09, and University of the 
Pacific--Eberhardt School of Business, Unemployment in the San Joaquin 
Valley in 2009: Fish or Foreclosure, 8/09)
---------------------------------------------------------------------------
    It is also important to note that additional impacts to the Delta 
fishery will continue to create economic hardship in other areas of the 
state, for example, to the salmon and recreational fishing industries. 
We must be very careful in implementing supposed `solutions' that 
benefit one area of the state while adversely affecting another.
    There are several items that the Subcommittee should consider as 
priorities for resolution, which we think will help move the state 
toward real and comprehensive solutions
    First among these is additional storage south of the Delta. Until 
the critical issue of south Delta storage is addressed and implemented, 
there is little or no benefit to removing pump restrictions; there is 
simply no place to store any additionally gained water. Since December, 
there have been several extended periods when the export pumps were not 
constrained by the biological opinions, but rather by their own ability 
to pump water or deliver it. Most recently, the pumps shut down 
completely and they are still not delivering as much as they could 
because there is no place to store the water. If agencies are not 
getting their full amounts this year, it is because investments have 
not been made for storage to enable more water to be pumped in wet 
years (which would also help in dry years).
    Second is the adoption of a solutions-oriented approach, beginning 
with immediate actions we know will be required now and in the long 
term. These include emergency planning, protection of key 
infrastructure with levee improvements, fish screening and actions to 
promote a healthy ecosystem that will enhance water supplies and 
improvement of water quality for all.
    An additional and absolutely critical investment we need to make in 
order to ensure reliable, high-quality water supply for all users 
everywhere, is in the improvement of the Delta levee system. The Delta 
Vision project, completed by the State of California, arrived at the 
same conclusion. Levees are a critical part of water supply and 
quality. They are not ``only'' for flood control or for the protection 
of local privately owned lands. Levees protect water quality and 
important infrastructure that keeps California running and will for the 
foreseeable future. We must protect levees today in order to protect 
existing water supplies and maintain operational flexibility even with 
any proposed isolated conveyance facility.
    In your deliberations we hope that you will consider these and 
other solutions that benefit the Central Valley with consideration of 
the state as a whole. We believe that ensuring the continued health and 
reliability of the Delta is key to the health of the other regions that 
depend upon it. We look forward to working with you on comprehensive 
solutions that benefit us all rather than pitting us one against 
another.
    In closing, let me reference the Principles of Agreement adopted by 
the Delta Counties Coalition, which describe our joint interests on the 
Bay Delta Estuary and are attached to our written testimony. I will not 
address these Principles in detail, but hope you can find time to 
review them. The Delta Counties Coalition believes the Bay-Delta must 
be protected and restored or it will not be available as a resource 
that is reliably available to help meet the various and legitimate 
needs of those around the state who must surely share our interest in 
protecting this precious and valuable resource.
    Thank you for considering our testimony today.
                                 ______
                                 

            Delta Counties Coalition Principles of Agreement

    The Coalition adopted a set of founding principles of agreement by 
resolution for the purpose of articulating mutual interests on Delta 
issues and formulating the foundation for a strategic program of action 
to further the directives of the Coalition. Furthermore, the Coalition 
has resolved to work together and with other agencies to better 
understand Delta-related issues from a regional perspective and to use 
their unified voice to advocate on behalf of local government in 
available forums at the federal and state levels. The following 
includes those principles regarding the management of the Sacramento-
San Joaquin River Delta and greater Bay/Delta Estuary:
         1.  Protect and improve water quality and water quantity in 
        the Delta region and maintain appropriate Delta outflow for a 
        healthy estuary;
         2.  Protect the existing water right priority system and 
        legislative protections established for the Delta;
         3.  Respect and safeguard Delta Counties' responsibilities 
        related to land use, water resources, flood management, tax 
        revenues, public health and safety, economic development, 
        agricultural stability, recreation, and environmental 
        protection in any new Delta governance structures;
         4.  Represent and include local government in any new 
        governance structures for the Delta;
         5.  Protect the economic viability of agriculture and the 
        ongoing vitality of communities in the Delta;
         6.  Support rehabilitation, improvement and maintenance of 
        levees throughout the Delta;
         7.  Support the Delta pool concept; in which the common 
        resource provides quality freshwater supply to all Delta users, 
        requiring mutual responsibility to maintain, restore and 
        protect the common resource;
         8.  Support immediate improvements to through-Delta 
        conveyance;
         9.  Require that any water conveyance plan for the Delta be 
        aligned with the principles established by this resolution and 
        supported by clearly demonstrated improvement the entire 
        state's water management;
        10.  Protect and restore the Delta ecosystem including adequate 
        water supply and quality to support it in perpetuity;
        11.  Include the study of storage options and implementation of 
        conservation, recycling, reuse, regional self-sufficiency as 
        part of a statewide improved flood management and water supply 
        system; and
        12.  Support those conservation actions that are aligned with 
        the principles established by this resolution and that are in 
        accordance with habitat plans and programs of the Delta 
        Counties.
                                 ______
                                 
    Mr. McClintock. Our next witness is Mr. Larry Collins. He's 
the President of the San Francisco Crab Boat Owners 
Association, San Francisco, California.

STATEMENT OF LARRY COLLINS, PRESIDENT, SAN FRANCISCO CRAB BOAT 
         OWNERS ASSOCIATION, SAN FRANCISCO, CALIFORNIA

    Mr. Collins. Good morning, Mr. Chairman and Members of the 
Council. I have the fun job of being the salmon fisherman 
representative here today. You are all pretty cavalier about 
telling me that my job is over and there's no more work for me. 
We depend on salmon for 70 percent of our income. My wife and I 
have been fishing salmon out of San Francisco for the last 27--
25-27 years. I represent thousands of fishing families up and 
down the coast of Oregon and California. I'm an angry man. We 
have been fishing salmon for 25 years. We bought a house and 
raised two kids. We are currently paying off our third and 
final boat. Unfortunately for us and the thousands of families 
like ours, which are all small business owners, the backbone of 
this country, we haven't been able to fish for the last three 
years. And it's been pretty tough for coastal towns from Santa 
Barbara all the way to Astoria.
    The problem started about ten years ago when the pumping 
levels out of the Delta jumped from 4.5 million acre-feet to 
almost 7 million acre-feet. You can see the corresponding 
downward spiral of the salmon fishermen who are losing their 
houses, their boats and their hope for the future and the 
remaining belief in their government. And still people are 
crying down here for more water. The rhetoric coming out of the 
westside of this valley is almost as toxic as the agricultural 
wastewater polluting our Delta and Bay.
    It isn't much fun being downstream of the corporate 
millionaire agribusinesses. There is no more water. Every drop 
is spoken for. You can't keep planting permanent crops. You 
have gotten way more than your share of the water and you have 
to give some back. I know that these are hard realities, but 
any politician or lobbyist that tells you any different isn't 
telling you the truth, because they are trying to keep their 
job.
    Farmers and fishermen are a lot alike. We are both food 
providers. The weather can make us or break us. Mother Nature 
can be a cruel business partner. But the more water you take 
out of the system to smooth out your ups and downs, the more 
you guaranty the death spiral of my industry. It is an unfair 
distribution of public trust resource.
    You know, I go into the schools and I do a Fisherman in the 
Classroom program and I tell the kids public trust resources, 
that's the water, that's the fish in the ocean, they are owned 
by all of us and you should care about them, because there's 
always people trying to take them from you because they are 
valuable.
    In the fishing industry we have textures right now where 
people are killing the fish in the ocean before they go catch 
them, which I'm very against it and doing everything I can to 
stop. But these public trust resources, we need to have them 
equitably distributed and we have to keep the salmon in the 
river, you know. And on bad years when there's not much water, 
it's tough down here in the Valley, it's tough on the coast. 
There's more fish now. We are finally going to get a salmon 
season, I think. Not a full season, but some salmon season this 
year. We got eight days in front of my house last year. The 
first four days it blew 35 knots, so we couldn't go out. The 
next four days I caught one and I lost one. So I had one 
salmon, which most of it's still in my freezer, because my wife 
won't let me eat it. It's been tough for the industry and I 
know you guys have tough times here too. We need to work 
together. We need to get that balance back that we used to 
have. We used to have a balance where we were able to go 
fishing, you guys were able to go farming, you know. You have 
to remember, salmon is--that's the main course and the veggies, 
they are the side dishes. Thank you. Any questions, I'll be 
glad to answer them.
    [The prepared statement of Mr. Collins follows:]

                Statement of Larry Collins, President, 
               San Francisco Crab Boat Owners Association

    Members of the Subcommittee, I am Larry Collins. I am president of 
the San Francisco Crab Boat Owners Association. I am appearing on 
behalf of our Association today.
    Our Association is a member of the Pacific Coast Federation of 
Fishermen's Associations, the largest organization of working fishermen 
and women on the West coast. I serve, as well, as vice-president of 
PCFFA's board of directors. PCFFA member associations are found from 
San Diego to Alaska.
    My wife Barbara and I fish for salmon and crab out of San Francisco 
on our vessel, the `Autumn Gale'.
    I first got involved with water issues around the time of the 
Central Valley Project Improvement Act 20 years ago and I have been 
involved ever since.
    Salmon fishing was 70 percent of my income so, clearly, if the 
resource wasn't healthy I didn't work.
    We have a duty to appear before you today to provide the 
fisherman's perspective on California's water resources, the ways in 
which these resources are being managed and abused, and the assistance 
which Congress might provide to assure a more equitable and sustainable 
distribution of the state's water resources among food producers--both 
fishermen and irrigators--and the state's urban communities.
    We were forced out of work altogether--no salmon fishing--beginning 
in 2008.
    Barbara and I were successful fishermen for 25 years. During those 
years we bought our home, raised our two kids, and paid our bills--all 
from the income earned from our fishing.
    California's salmon fisheries were shut down altogether, under the 
regulations of the Federal Magnuson-Stevens Fishery Conservation and 
Management Act, in 2008 and 2009. There was a meager ocean salmon 
fishery allowed last year--fewer than 20 percent of our fleet 
participated in it. It looks as though we might be able to get back to 
work, to catch up a bit on the bills, this year.
    Following the closure of our fishery in 2008 the National Marine 
Fisheries Service--the Service's scientists headquartered at their 
Santa Cruz, California laboratory--prepared an assessment of the 
reasons for the poor condition of Central Valley salmon stocks. The 
lead investigator of that NMFS panel, Dr. Steven Lindley told the press 
``Poor ocean conditions triggered the collapse. But what primed it is 
the degradation of the estuary and river habitats and the heavy 
reliance on hatcheries over the years \1\ (Hatcheries are created, of 
course, to mitigate for salmon habitat lost to water developments.)
---------------------------------------------------------------------------
    \1\ Dr Lindley's statement may be found at http://
articles.sfgate.com/2009-03-19/bay-area/17215271_1_chinook-salmon-
pacific-fishery-management-council-national-marine-fisheries-service; 
his report `What caused the Sacramento River fall Chinook stock 
collapse' at http://swr.nmfs.noaa.gov/media/SalmonDeclineReport.pdf
---------------------------------------------------------------------------
    This chart documents the dramatic decline of the Central Valley 
Chinook salmon.

[GRAPHIC] [TIFF OMITTED] T5822.002


    We are not talking about just any estuary here.
    We are talking about the San Francisco Bay Estuary, the most 
important estuary on the Pacific Coast of North or South America
    The San Francisco Bay-Delta Estuary ecosystem has been declared, 
time and again, by the California Legislature--most recently in its 
November, 2009 `historic Bay-Delta water deal' legislation--to be a 
resource area of both state and national significance, held in trust 
for the public by the State government.
    Given the nexus among State and Federal water quality, 
environmental policy and endangered species acts, we assume that such 
public trust responsibility extends to Congress and Federal agencies, 
as well.
    To say that the San Francisco Bay-Delta Estuary is a national 
treasure doesn't really do it justice. It is a planetary treasure and 
its health or sickness has grave consequences for all of us. The 
responsibility for its safekeeping lies primarily in the hands of State 
and federal governments.
    So how has the safekeeping of the Estuary and the river habitats by 
their State and federal stewards been going lately?
    There's been a lot of hand-ringing, of course, because there are 
supposedly high protection standards in place for the Estuary. When the 
Governor declared a drought emergency three years ago, many of those 
Delta protections--including those necessary to address the degradation 
pointed out by Dr Lindley--were suspended.
    And, of course, there have been those controversial federal court 
decisions, back and forth, about how much water can be taken from the 
Delta before harm is done to its public trust resources.
How bad was that last drought?
    It would have been hard to tell from the news the past three years 
how bad--or not--the `drought crisis' was. What is clear is the subject 
supported a two-year media circus in the Fresno area.
    Precipitation in the San Joaquin Valley was 80 to 90 percent normal 
for most stations in 2009.
    Last year precipitation was 100 percent or better for most San 
Joaquin Valley locations.
    The Central Valley Project's Friant and Eastside division customers 
received 100 percent of their contract allocations in 2010.
    It was the San Joaquin Valley's west-side irrigators that were 
doing all the hollering. It was they who were claiming to be in such a 
world of hurt. It was they who staged the media circus with clowns like 
Sean Hannity and posed 60 Minutes' Diane Sawyers in front of uprooted 
almond trees without bothering to tell her that they tear those trees 
out every 20- to 25 years anyway.
    It's the San Joaquin Valley's west-side growers, those with the 
poisoned soil, that did all the yowling during those two dry years. And 
you know what? At the same time that our guys were put totally out of 
work the San Joaquin Valley's west-side irrigators did better than 
ever.
What about unemployment in the San Joaquin Valley?
    The suffering of the farm community of Mendota, California played 
on the pages of every major newspaper in the country, on Fox `News' 
repeatedly, and in a 60 Minutes broadcast.
    How bad was unemployment in Mendota? Really bad--not only in 2008 
and 2009, but in virtually every year for which there are records.
    Unemployment peaked in Mendota in 2009 at 42 percent. It hit 38 
percent eight years ago and got below 20 percent, thanks to the 
construction boom, for the first time in 2005-2007.
    The Berkeley-based Pacific Institute noted in 2009:
    ``...the drought has had very little overall impact on agricultural 
employment, compared to the much larger impacts of the recession. In 
fact, in the last three years, while State Water Project allocations 
have decreased statewide, California's agricultural job sector has 
grown. Further, according to Professor Jeffrey Michael, director of the 
Business Forecasting Center at the University of the Pacific in 
Stockton, rising unemployment in the Central Valley is largely the 
result of the bad economy, not a lack of water.'' \2\
---------------------------------------------------------------------------
    \2\ See Professor Michael's report at http://forecast.pacific.edu/
articles/PacificBFC_Fish%20or
%20Foreclosure.pdf
---------------------------------------------------------------------------
How bad was unemployment in California's salmon fisheries?
    Unemployment in the California salmon fisheries, the result in 
major part, as Dr Lindley said, of the degradation of the Estuary and 
river habitats, was 100 percent--total--in 2008 and 2009, by order of 
the U.S Secretary of Commerce.
    A study conducted by our industry two years ago, using 2006 
National Marine Fisheries Service survey data, indicates that the shut-
down of salmon fishing in California--both commercial and sports 
fishing--delivered a $1.4 billion annual loss, and the loss of 23,000 
jobs to our state. The study found that the recovery of California's 
salmon fisheries to their good, pre-drought condition would provide 
California a $5.6 billion annual economic gain and the creation of 
94,000 new jobs.
Two quite-different San Joaquin Valleys
    Because some of you may be new to the San Joaquin Valley I would 
like to point out that there are great differences between irrigation 
on the east side of the Valley, where you are sitting today, and 
irrigation on the west side of the Valley.
    Irrigated agriculture on the east side of the Valley began in 
earnest in the 1870s.
    It draws on the streams that flow off the Sierra Nevada and the 
groundwater basins that those streams recharge.
    As you drive down the east side of the San Joaquin Valley you'll 
see a landscape filled with orchards and vineyards and farmhouses every 
quarter of a mile and small towns every few miles.
    Friant Dam was built on the San Joaquin River during the Great 
Depression as an economic recovery project.
    That was its political reason-for-being. Its principal technical 
reason was to help recharge the groundwater basins that had been over-
drawn in 60 years of east-side agricultural pumping.
    Irrigators in the Bureau of Reclamation's Friant Division receive 
100 percent of their Central Valley Project water allocation, as do the 
Bureau's `Eastside water contractors'--the Central San Joaquin Water 
Conservancy District and Stockton East Water District.
Irrigating the `Badlands' of the Valley's west-side--a government step 
        too far
    Unlike the east side of the San Joaquin Valley, with its Sierra 
Nevada run-off water supply, the west side of the Valley is desert-
like. Small creeks flow there, but only seasonally.
    The first deep wells were sunk on the west side by large landowners 
during World War I to grow cotton, a salt-tolerant crop in demand by 
the military.
    By 1942 the west-side irrigators were running out of groundwater. 
They formed the Westside Landowers Association to lobby the federal 
government for Northern California water for their side of the Valley.
    In 1952 they formed the Westlands Water District.
    One of Westlands' strongest allies was Congressman Bernice--
`Bernie'--Sisk of Fresno who pushed for congressional authorization of 
the CVP's San Luis Unit.
    Here's what Mr Sisk had to say about the proposal when it was up 
for House action in 1960:
        ``If San Luis is built, according to careful studies, the 
        present population of the area will almost quadruple. There 
        will be 27,000 farm residents, 30,700 rural nonfarm residents, 
        and 29,800 city dwellers; in all, 87,500 people sharing the 
        productivity and the bounty of fertile lands blossoming with an 
        ample supply of San Luis water.''

         ``Recent surveys show that the land proposed to be irrigated 
        is now in 1,050 ownerships. These studies show that with San 
        Luis built, there will be 6,100 farms, nearly a sixfold 
        increase. And in the breaking up of farms to family-size units, 
        anti-speculation and other provisions of the reclamation laws 
        will assure fair prices.''
    It's hard to say how many ownerships there are in Westlands. That's 
information the Bureau of Reclamation is supposed to have in hand ever 
since Congress `reformed' Westlands in 1982--but Westlands is, after 
all, a Reclamation constituent.
    There are probably about a thousand ownerships in the Westlands 
Water District- about the same number as there were 50 years ago. And 
those thousand may be held by as few as 200 families and corporations 
according to a University of California assessment.
    What we do know is that roughly about the time Congress `reformed' 
the Westlands Water District, more than a dozen years after they began 
spreading Trinity River water onto Westlands' soils, district 
landowners included the Standard Oil Company--a principal organizer of 
the 1940s lobbying effort--at 10,474 acres; the Southern Pacific 
Railroad at 106,000 acres; the Boston Ranch (owned then by cotton 
billionaire J.G. Boswell) at 26,485 acres; and the Harris Ranch, 
operator of the world's largest cattle feedlot, at 18,393 acres
    Not exactly the kind of `family farmers' that Congress had in mind 
when it passed the Reclamation Act of 1902--nor which Bernie Sisk 
promised the nation in his 1960 San Luis Unit authorization floor 
speech.
    Westland's biggest town is Huron, population 6,000, 98 percent 
Hispanic.
    There is no high school within the boundaries of the 1,000 square-
mile Westlands Water District.
What does irrigating the west side of the San Joaquin Valley have to do 
        with salmon fishing?
    What does irrigating the west side of the San Joaquin Valley have 
to do with salmon? A lot--a tremendous amount. And the situation 
appears to be getting more dire every year.
    Even as Westlands was lobbying Congress for the San Luis Unit, more 
than 50 years ago, to bring Trinity River water down to the west side 
(water, incidentally, intended for years for the CVP's `Sacramento 
Canals Unit', in what is now Congressman Herger's district) it was well 
understood by all there would have to an accompanying drainage system.
    The soils on the west side of the San Joaquin Valley are high in 
toxics, like selenium, boron and arsenic, that would gradually destroy 
irrigated agriculture unless it was drained away to the rivers, the 
Bay-Delta estuary and the coastal ocean.
    And, of course, there hasn't been any such comprehensive drainage 
system created for Westlands and their `badlands' water district 
neighbors.
    The Bay area community successfully fended off the so-called `San 
Luis Drain' from reaching to the San Francisco Bay estuary. There was a 
lame attempt to promote draining this stuff into Monterey Bay 20 years 
ago--but that was another non-starter.
    Reclamation tried to puddle the San Luis Unit drainage up at 
Kesterson Reservoir--and call it a national wildlife refuge. Birds 
began to die there in large numbers about 30 years ago, about the same 
time that a neighbor, Jim Claus' cows began to die.
    This toxic pathway--from old sea-floor sediments, to irrigation 
drainage, to disastrous release into the aquatic environment--has been 
widely reported in the scientific literature as the `Kesterson effect'.

     Selenium levels in the San Joaquin River are unfit for salmon

[GRAPHIC] [TIFF OMITTED] T5822.003


    The toxic irrigation drainage from the west-side finds its way 
to the San Joaquin River, the San Francisco Bay estuary and 
California's coastal ocean--at concentrations lethal to juvenile 
chinook salmon.

[GRAPHIC] [TIFF OMITTED] T5822.004


    Westlands' free ride
    As I mentioned above, the CVP's San Luis Unit was supposed to 
operate off water from the Trinity River--the `Trinity Diversion 
Project'--water that was always intended for the Sacramento Valley 
until Westlands muscled itself to the front of the line in the 1950s.
    The Bureau of Reclamation contracted to deliver up to 90 percent of 
the natural flow of the Trinity River water to the west-side irrigators 
on the same basis as they did the rest of their customers--`when and as 
available'.
    The 1970s diversions from the Trinity proved disastrous for Trinity 
River salmon and the Native Americans who had depended on them for 
thousands of years for food.
    In the 1980s the Department of the Interior began a re-evaluation 
of the salmon flow needs of the Trinity River.
    The findings of the re-evaluation were that much of the water 
Reclamation had been delivering to Westlands had to be left in the 
Trinity. It wasn't just about salmon. It was about American law dating 
back to the very early 1800s--the United States' trust responsibilities 
to the Tribes.
    So Reclamation is delivering to Westlands as much water as it can--
that which is available. And if that represents `only' 65 percent of 
Westlands' contract maximum is that a raw deal?
    If Congress thinks that's a raw deal, then who does it want to 
deliver the raw deal to? The Tribes?
What's the answer?
    The federal government has been delivering water that it should not 
have--at least from a salmon and Tribal perspective--to Westlands. 
Westlands has been running toxic drainage from its irrigated `badlands' 
into the river, Bay and coastal ocean, poisoning the salmon our members 
depend on for a living, in violation of law.
    In the process Westlands has run up a $500 million federal 
government tab at U.S taxpayers' expense. And they have received 
hundreds of millions of dollars in agricultural price supports--
subsidies.
    They have retired 100,000 acres of toxic lands--lands that salted 
up from irrigation just like everyone knew they would before they ever 
began. And that land retirement was done at public expense.
    There are another 300, 000 acres of toxic badlands on the west-side 
in need of retirement--before the last Central Valley salmon tank--and 
the U.S taxpayers with them.
    Retirement of that 300,000 acres of west-side badlands would free 
up enough water to take care of dry spells like the last one in 
California for another 20 to 25 years.
    For the sake of the salmon--and for the sake of the U.S taxpayers--
we urge the Subcommittee to get behind west-side San Joaquin Valley 
badlands retirement.
    We urge you to listen to the facts. We have all had enough of the 
media circus.
    PCFFA's executive director, Zeke Grader, is with me here to today 
to help me answer questions, if you have any.
    Thank you.
                                 ______
                                 
    Mr. McClintock. Our next witness is Mr. Tom Birmingham, 
General Manager of the Westlands Water District, Fresno, 
California.

 STATEMENT OF TOM BIRMINGHAM, GENERAL MANAGER, WESTLANDS WATER 
                  DISTRICT, FRESNO, CALIFORNIA

    Mr. Birmingham. Mr. Chairman, Members of the Committee, you 
have my written testimony and I will try to summarize it as 
briefly as I can. It is, indeed, ironic and I don't think the 
irony has been missed on any of you. We are here to talk about 
the impact of drought on jobs at a time when California's 
reservoirs are full, our streams are running bank to bank, our 
flood control bypasses are running bank to bank. The wet 
hydrologic conditions that exist today could make it beyond 
reasonable doubt that the water supply for farmers from Tracy 
to Kettleman City, indeed from Tracy to Kern County, is not a 
product of hydrology, whether it's wet or dry, it's a product 
of how much water we can move through the Delta to supply those 
farmers.
    Unfortunately, for the last 20 years--Mr. Garamendi is well 
aware of this--for the last 20 years we have been dealing with 
Federal regulations that have restricted our ability to move 
that water. A lot of attention has been paid to the two most 
recent biological opinions with good cause. As an example, last 
year those two biological opinions cost our two water projects 
by themselves in excess of a million acre-feet of water. But 
those impacts are in addition to the impacts that extend back 
to 1992 when the Federal Government began implementing the 
Endangered Species Act and began implementing the Central 
Valley Project Improvement Act. Together those regulations have 
reduced our reliability from a point of 92 percent in the early 
1990s to a point today where in an average water year we can 
expect to receive between 35 and 40 percent of our contract 
supplies.
    Now, the most devastating year resulting from these 
regulations was 2009. And I have heard comments that, well, in 
2009 the farm economy of the State of California was doing very 
well and in 2009 most of the farmers south of the Delta got 100 
percent, exchange contractors, most farmers that operate under 
managed levels. Well, Mr. Larson had suggested that in a year 
like this when water service contractors are getting 75 percent 
and the refuge is getting 100 percent, that suggests some 
imbalance. It was worse than that. In 2009 refuges got 100 
percent of their contract supply and we got 10 percent. Let me 
say that again. The refuges got 100 percent of their contract 
supply under Central Valley Project Improvement Act and we got 
10 percent. When I hear the comments about the agricultural 
economy in 2009 and the fact that most of the farmers got their 
water, it reminds me of a joke that a recession is when your 
neighbor is unemployed, a depression is when you are 
unemployed. Well, this is not a joke and it is not a game. The 
comments that dismiss the impasse associated with the 
regulations or resulting from the regulations that we have 
experienced for the last 20 years are offensive. They are 
offensive. And the worst part is that these regulations have 
done absolutely no good for the fish.
    And Mr. Garamendi says that we shouldn't abandon science 
and he's absolutely right, we should not abandon science. And 
that's precisely why the California Department of Water 
Resources and the water agencies that you see represented here 
are in court fighting the biological opinions, because they are 
not based on science. The Court has found that. The National 
Academy of Sciences has found that. The panel that Mr. Costa 
convened has found that if we are going to pursue the long-term 
solutions that are necessary to sustain the economy in the 
State of California, we have to figure out a way for the 
farmers and for the fishermen to survive.
    Judge Wanger, when he found that the biological opinions 
were invalid, related the sloppy science on which they were 
based. And he made a point which is absolutely correct, that 
everyone who's interested in the subject, whether it's the 
water agencies, the farmers, the communities on the westside of 
the San Joaquin Valley, the fishermen, the Native Americans, 
the environmental groups, they all deserve better. And if you 
are going to do anything, Mr. Chairman, I would request that 
you conduct oversight and then look at ways not to amend the 
Endangered Species Act, but to provide direction on how that 
act is going to be implemented so that we can survive over the 
course of the next five to ten years while we are pursuing 
long-term solutions.
    Mr. McClintock. Thank you very much.
    [The prepared statement of Mr. Birmingham follows:]

           Statement of Thomas Birmingham, General Manager, 
                        Westlands Water District

    Mr. Chairman and Members of the Subcommittee, my name is Thomas W. 
Birmingham, and I am the General Manager of Westlands Water District 
(``Westlands'' or ``District''). Thank you for the opportunity to 
appear before you today to testify today on the opportunity to create 
jobs by overcoming man-made drought.
    Westlands is a California water district that serves irrigation 
water to an area of approximately 600,000 acres on the west side of the 
San Joaquin Valley in Fresno and Kings counties. The District averages 
15 miles in width and is 70 miles long. Historically, the demand for 
irrigation water in Westlands was 1.4 million acre-feet per year, and 
that demand has been satisfied through the use of groundwater, water 
made available to the District from the Central Valley Project under 
contracts with the United States for the delivery of 1.19 million acre-
feet, and annual transfers of water from other water agencies.
    Westlands is one of the most fertile, productive and diversified 
farming regions in the nation. Rich soil, a good climate, and 
innovative farm management have helped make the area served by 
Westlands one of the most productive farming areas in the San Joaquin 
Valley and the nation. Westlands farmers produce over 50 commercial 
fiber and food crops sold for the fresh, dry, and canned or frozen food 
markets; domestic and export. These crops have a value in excess of $1 
billion.
    It is ironic that you are here to hear about drought and the impact 
of drought on jobs at a time when California's reservoirs are full and 
rivers, streams, and flood control by-passes are running high. However, 
the current hydrologic conditions are not an anomaly. Floods and 
drought, the continual alteration between these two extremes is part of 
the natural cycle of life in California. In terms of water supply for 
the people who live and work on the westside of the San Joaquin Valley, 
it used to be you could tell the difference between the two quite 
easily. Today that is not the case.
    If any proposition should be made inarguable by the current 
situation, it would be that the water supply for the numerous south-of-
Delta Central Valley Project (``CVP'') agricultural water service 
contractors is not dependent on hydrology. Exhibit 1 to my testimony, a 
graph of the current California Northern Sierra Precipitation, 8-
Station Index, dated April 8, 2011, illustrates that the precipitation, 
the snowpack, and the run-off in the current, 2010-11 water year will 
be exceptionable; however, the allocation for south-of-Delta Central 
Valley Project agricultural water service contractors is 75%. This 
anomaly is a product of the fact that today we are living under a 
federal regulatory regime that has made droughts more frequent and 
their impacts more severe. And those same regulations are reducing many 
of the natural benefits we used to derive from periods of high 
precipitation.
    This is not a recent problem. Limitations on CVP operations that 
created this circumstance date back to 1992, when restrictions began to 
be imposed on operations of the W.C. ``Bill'' Jones Pumping Plant under 
the Endangered Species Act to protect listed species and to implement 
the fish, wildlife, and habitat restoration measures of the Central 
Valley Project Improvement Act, (Pub. Law 102-575). In fact, the CVPIA 
has been implemented by the Department of the Interior in a manner that 
has reallocated more than 1,000,000 acre-feet of CVP water away from 
farms, ranches and business that relied upon this water for decades to 
the environment--for the restoration and enhancement of fish and 
wildlife. Virtually all of the water supply reductions that have 
resulted from implementation of the CVPIA have been imposed on south-
of-Delta Central Valley Project agricultural water service 
contractors.\1\ As depicted in the graph attached to my testimony as 
Exhibit 2, these restrictions have resulted in reduced contract 
allocations to south-of-Delta irrigation contractors in many years when 
Reclamation spilled water from Project storage to meet flood criteria.
---------------------------------------------------------------------------
    \1\ The disproportionate impacts of these regulatory requirements 
on the water supplies of west side farmers were recognized by former 
Governor Gray Davis and former Secretary of the Interior Bruce Babbitt 
as early as June 2000, when they signed the CALFED document entitled 
``California's Water Future, A Framework for Action.'' In that document 
then Governor Davis and then Secretary Babbitt correctly noted that 
Westlands and other San Joaquin Valley agricultural water contractors 
had been ``disproportionately affected by recent regulatory actions,'' 
and they described a number of actions that would restore, over the 
short-term and the long-term, these contractors' water supplies. 
Unfortunately, those actions have not been successful in restoring our 
water supplies.
---------------------------------------------------------------------------
    The most severe impact of the restrictions imposed under the CVPIA 
and the ESA occurred in 2009, the first year in which the CVP was 
operated under the Delta smelt biological opinion for the operations of 
the Central Valley Project and State Water Project issued by the United 
States Fish and Wildlife Service and dated December 15, 2008. As a 
result of the combined effects of dry hydrologic conditions and 
regulatory restrictions, the final allocation for south-of-Delta 
agricultural water service contractors was 10%. Hundreds of thousands 
of acres of productive farmlands had to be fallowed and millions of 
dollars worth of permanent crops were destroyed, simply because there 
was not sufficient water to sustain them. The most tragic consequence 
of the 2009 crisis was that thousands of people who live and work on 
the westside of the Valley lost their jobs; unemployment rates in the 
City of Mendota and the City of San Joaquin soared to more than 40%. 
Small, local businesses were plunged into an economic crisis. And 
tragically, many people went hungry.
    At the time, there was much debate about whether the human disaster 
experienced in 2009 was the result of natural drought, rather than 
regulatory restrictions on operations of the CVP. (In fact, that debate 
continues today.) It was also observed that the communities on the 
westside of the San Joaquin Valley that were experiencing unprecedented 
levels of unemployment historically had high levels of unemployment, 
and it was asserted that the 2009 levels were a consequence of the 
nation-wide economic recession. The reality is that there was some 
truth on both sides of these debates.
    In 2009, dry conditions did contribute to reduced water supplies; 
however, restrictions imposed on CVP operations under the 2008, Delta 
smelt biological opinion exacerbated the impact of those dry 
conditions. The 2008 Delta smelt biological opinion reduced south-of-
Delta CVP water supplies by nearly 250,000 acre-feet. (The impact of 
this biological opinion on the combined water supplies of the CVP and 
the California State Water Project was 620,000 acre-feet.) Moreover, 
the restrictions on CVP operations imposed under the 2008 Delta smelt 
biological opinion were in addition to other restrictions imposed by 
earlier biological opinions and the CVPIA. There cannot any doubt that 
had none of these regulatory restrictions been in place, the allocation 
for south-of-Delta CVP contractors would have been significantly higher 
than 10%. Indeed, when compared to allocations in similar water years 
that occurred prior to 1992, the 2009 allocation for south-of-Delta CVP 
contractors could have been as high as 90%. This is made evident by 
Exhibit 3 to my testimony, a chart depicting allocations for south-of-
Delta agricultural water service contractors since 1952.
    In addition, the communities on the westside of the San Joaquin 
Valley that had unemployment rates in excess of 40% in 2009 have 
historically had high unemployment rates, and the nation-wide economic 
malaise that occurred in 2009 undoubtedly contributed to unemployment 
on the westside of the San Joaquin Valley. But equally true is that 
hundreds-of-thousands of fallowed acres and the destruction of 
permanent crops contributed to higher than average unemployment. The 
graph attached to my testimony as Exhibit 4 helps to illustrate each of 
these points.
    Admittedly, Exhibit 4 is not based on a robust economic analysis. 
However, in 2009, more than 200,000 acres in Westlands that otherwise 
would have been cultivated were fallowed. No one can dispute that had 
these lands been irrigated, some farm workers in the immediately 
adjacent communities who were without work would have been employed. A 
very conservative assumption is that every 800 acres under irrigated 
cultivation will produce three farm worker jobs. This means that had 
these 200,000 fallowed acres in Westlands been irrigated, an additional 
750 farm workers would have been employed.
    In 2011, the harm that these restrictions are doing to the human 
environment is not as dramatic as the crisis in 2009. However, in 2011 
these same regulations reduced the initial allocation for south-of-
Delta CVP agricultural water service contractors to 50%. And although 
that allocation has incrementally increased, so that today our farmers 
can expect to receive 75% of the water we have contracted for, so long 
as farmers cannot predicatively rely on receiving an adequate supply of 
water, they are unable efficiently plan their annual operations and are 
unable to secure crop loans until very late in the growing season.
    The harm these regulations have done to our communities, our 
economy, and the environment would be bad enough, but what is worse, 
they have produced no demonstrable benefits for at risk species. And as 
the United States District Court has consistently found, many of these 
regulation lack any basis in science.
    Over the last three years, Westlands has joined with the California 
Department of Water Resources and other public water agencies that 
serve more than two-thirds of California's people in litigation that 
challenges the most recent biological opinions for operations of the 
CVP and California State Water Project. We have been trying to ensure 
that the biological opinions meet the standards for scientific 
integrity that the Endangered Species Act requires. And time after 
time, the District Court has found that the federal fish agencies used 
what the court called ``sloppy science'' or, in many instances, no 
science at all in preparing these biologic opinions.
    They failed to prepare even the most basic quantitative analysis to 
support their regulations. They ignored scientific reports that did not 
fit their preconceived notions and cherry-picked from others only the 
findings that they agreed with. In addition to failing the Endangered 
Species Act's standard of ``best available science,'' the court found 
Reclamation violated the National Environmental Policy Act as well.
    California's water system was designed to enable us to live within 
the extremes of flood and drought. In the past it gave us the 
flexibility to adjust to these changing conditions and move our water 
supplies around to the places where and when they are needed most. That 
flexibility is what the current federal regulatory regime has taken 
away. To restore it, we need to begin now building the new facilities 
that are needed for the twenty first century.
    According to Merriam-Webster, the word ``drought'' has two 
principal meanings: (1) a period of dryness, especially when prolonged, 
that causes extensive damage to crops or prevents their successful 
growth; and (2) a prolonged or chronic shortage or lack of something 
expected or desired. We certainly are not in a period of dryness this 
year, but people who live and work on the westside continue to suffer 
from a prolonged and chronic shortage of the water they expected under 
their contracts with the United States.
    I hope my testimony has made it clear that this prolonged and 
chronic shortage is the result of policy choices made by the federal 
government, not by dry hydrologic conditions. Plain and simple, this is 
a man-made drought. It is Westlands' view that these policy choices 
must be changed to better reflect the natural system, human needs and 
good science. I hope your Subcommittee will help to make that happen. I 
would welcome any questions from members of the Subcommittee.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5822.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5822.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5822.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5822.008
                                 

    Mr. McClintock. Our next witness is Mr. Jim Beck, who 
is the General Manager of the Kern County Water District from 
Bakersfield, California.

   STATEMENT OF JIM BECK, GENERAL MANAGER, KERN COUNTY WATER 
               DISTRICT, BAKERSFIELD, CALIFORNIA

    Mr. Beck. Thank you, Mr. Chairman. It is a privilege to be 
here today. I represent Kern County Water Agency. I had to get 
a special visa to come to Fresno today. It expires at noon, so 
I'll be hurrying out of the building.
    What ESA has done to us I think is indicative of what's 
going on in the State. In 1961 our growers signed a contract 
with the State of California to receive one million acre-feet 
of water from the state water project. As a result of a number 
of decisions that included the implementation of Federal and 
state environmental regulations, by 2005 growers in our area 
could depend on the State Water Project to deliver about 68 
percent of what they had signed up for. So they lost 32 percent 
of their water supply. Now, it wasn't all endangered species 
regulations, but a large portion of that in fact was directly 
related to that.
    So, in the last five years, we have seen a more dramatic 
drop of that reliability. As a result of the biological 
opinions, we lost another 8 percent. So right now our growers 
are sitting on a 60 percent reliability on a contract that they 
executed in 1961 for five million acre-feet--or one million 
acre-feet of water. Also, the ESA has cost the state water 
project 1.5 million acre-feet of water lost in the last three 
years. During those three years our growers had to continue to 
pay for water that they did not receive. That's the nature of 
the state water contract and that meant that we paid for over 
120 million dollars for that water, to get the privilege of 
seeing it go out to the ocean.
    So to combat this, we have one of the world's greatest 
groundwater banking programs, if you have water, we can store 
it. We have done that. We have invested half a billion dollars 
in infrastructure and water supplies that have allowed us to 
combat the drought that we saw over the last three years. Even 
with those tremendous assets, we did see a decline in farm and 
ag values. In 2008 they were at 880,000 acres of production, 
land production. We saw 40,000 acres go out of production in 
one year and we also saw the value of our agriculture and 
economy drop by 400 million dollars in one year. That's an 11 
percent drop in one year. Most of the westside of our portion 
of the San Joaquin Valley is suffering the same consequences 
that the rest of the Valley is. There's high unemployment rate. 
We are talking 35 to 40 percent unemployment in towns like Lost 
Hills, Delano and Shafter. So it's really a difficult time for 
much of our agricultural community. Their way of life is really 
at stake in ground zero of this crisis and our success and 
failure means whether they continue to exist in any form that 
they are today.
    So what do we do? First of all, we need to update the ESA. 
Tom Birmingham, myself and many state and Federal regulators 
are involved in a plan called BDCP. This is an effort to permit 
an isolated facility as well as deal with the overall ecosystem 
collapse in the Delta. That program is moving along. On my good 
days I'm very optimistic. On my bad days it's a tough, tough 
battle. It's our best and only hope and we have to stay focused 
on that. One of the hindrances in that effort is part of the 
regulatory process of the ESA. There's people in the room who 
are better equipped to explain this to you, but I'll give you a 
30-second update. Section 10 of the ESA requires that non-
Federal agencies are allowed to work ecosystems on a global 
basis. That's a smart way to do it. I'm a scientist. I get it. 
You look at everything that's going in the ecosystem to figure 
out what's best for it. Unfortunately, Federal participants in 
the process, like the Bureau of Reclamation, fall under Section 
7. They have to do a species-by-species review of what goes on. 
It doesn't make sense. Sometimes that's in conflict with 
Section 10 and it's really hampering the process. We recommend 
that you look at modifying the Bureau of Reclamation's 
particular requirement for the Section 7 consultation.
    Next, we'd like you to make sure, like the other cries 
we've heard, we need to have better science. It's a crime that 
we had to throw a fit and sue to get people to understand that 
dumping 15 tons of ammonia into the Sacramento River on a daily 
basis might have an effect on the ecosystem. That gives you an 
example of the type of paradigm we have been in where logical 
science that doesn't match with the existing paradigm is 
rejected and you have to fight and battle, you have to plant a 
porthole making sure legitimate science gets into the equation. 
There are a lot of other examples of that in my testimony.
    I want to thank you for this effort and I really appreciate 
the opportunity to speak to you today. Thank you.
    [The prepared statement of Mr. Beck follows:]

                Statement of Jim Beck, General Manager, 
           Kern County Water Agency, Bakersfield, California

    Good afternoon, Chairman McClintock, Ranking Member Napolitano, and 
Members of the Subcommittee. My name is Jim Beck. I am the General 
Manager of the Kern County Water Agency.
Introduction
    The Kern County Water Agency (KCWA) is located in Bakersfield, 
California and serves the urban and agricultural areas in the 
surrounding region. KCWA's mission is: ``To ensure that adequate, 
reliable and affordable water supplies are available for beneficial use 
by the people and economy of Kern County.''
    KCWA participates in a wide range of water management activities 
including protecting water quality, providing domestic, municipal and 
industrial water supplies, and constructing and managing groundwater 
banking facilities. KCWA is the second largest participant in the State 
Water Project (SWP), a water storage and delivery system of reservoirs, 
aqueducts, power plants, and pumping plants.
    KCWA holds a contract for one million acre-feet (af) of SWP water 
and is delivered to 14 public water agencies that serve domestic and 
irrigation supplies to the farms, families and businesses in Kern 
County.
    Since 1987, KCWA and the local water districts it serves have been 
faced with extreme variations in water supply from its local and SWP 
sources due to drought, but also in major part due to regulations 
imposed under the Endangered Species Act (ESA). These reductions in 
deliveries have resulted in significant reductions in agricultural 
production, and significant adverse impacts on Kern County's economy.
    In 1961, when KCWA contracted with the State of California for 
water from the SWP, we expected that KCWA would receive nearly 100 
percent of the water contracted for each and every year (about one 
million af). However, between 1960 and 2005 that expectation had to 
change because the SWP was not completed, additional criteria were 
imposed on SWP operations, and because of federally imposed 
restrictions to protect Chinook salmon and Delta smelt. By 2005, we 
were forced to expect only 68 percent of our total contract amount, or 
about 680 thousand af on average. After new biological opinions were 
issued by the National Marine Fisheries Service (NMFS) and the Fish and 
Wildlife Service (FWS) (collectively, the Services) in 2008, the SWP 
delivery capability dropped to 60 percent, or about 600 thousand af on 
average.
    While federal officials have pointed to a hydrologic drought as the 
major impact to water supplies over the past three years, the federal 
endangered species act has accounted for over 1.5 million af of water 
loss to the SWP since the beginning of 2008. Because the SWP was not 
able to deliver as much water to Kern County, farmers in Kern County 
paid more than $120 million for water that was not delivered. In 
addition to that amount, farmers had to pump additional groundwater and 
acquire very expensive surface water from other sources to make up for 
the losses.
    Under these conditions, making the best possible use of our 
existing surface and groundwater supplies has become our most important 
objective. But if we are to do that effectively, the State and federal 
governments must do a better job of balancing ecosystem and water 
supply needs in the Sacramento-San Joaquin Delta (Delta).
Balancing the Delta
    The Delta is a valuable ecosystem and the hub of California's water 
supply. It must serve both purposes equally. In the recent past, State 
and federal agencies have proposed and implemented measures in the 
Delta based on the presumption that ecosystem needs are paramount and 
water supply needs are incidental. To effectively manage the Delta to 
meet the co-equal goals of ecosystem protection and enhancement and 
water supply reliability, federal agencies that exercise regulatory 
authority in the Delta must: (1) adapt the regulatory regime to new 
realities; (2) significantly improve the quality of scientific 
information that is used by federal agencies in making regulatory 
decisions in the Delta; and (3) improve coordination among federal 
agencies and high-level federal government leadership.
    In addition, Congress should amend the ESA to streamline federal 
involvement in the Bay Delta Conservation Plan (BDCP) and to help 
achieve the co-equal goals of ecosystem protection and enhancement and 
water supply reliability consistent with State law.
Adapt the Regulatory Scheme to New Realities
    The ESA was passed by Congress almost 38 years ago. It was designed 
to protect both species and the ecosystems upon which they depend, but 
generally the ESA reflects a species-by-species and project-by-project 
approach to protecting species and ecosystems. In 1982, Congress 
amended the ESA to encourage non-federal parties to undertake 
conservation planning. Coupled with regulatory changes adopted in the 
1990s, the 1982 amendments facilitated multi-species, regional 
conservation planning. In contrast, the basic structure of Section 7 of 
the Act which governs federal agency actions has remained largely 
unchanged over the last four decades.
    The 1982 amendments to Section 10 of the ESA led to the development 
of landscape-level conservation plans in many parts of California and 
on the lower Colorado River. In lieu of conservation planning, the 
federal government and State of California opted to pursue ecosystem 
and water supply management in the Delta through the development of 
CALFED. But the CALFED experiment came up short as the number of listed 
species in the Delta continued to grow, their status worsened, and the 
State and federal wildlife agencies imposed species-specific measures 
intended to halt the declines of the growing number of listed species. 
It is now clear that conservation planning shows promise as an 
established regulatory tool to realize the goal of long-term water 
supply reliability coupled with protection of multiple aquatic and 
terrestrial species and the ecosystems upon which those species depend.
    The BDCP is an effort to marshal conservation planning to realize 
these co-equal goals. The BDCP is intended to fulfill the conservation 
planning requirements established in the 1982 amendments to the ESA and 
the natural communities conservation planning requirements set forth in 
the State of California's Natural Communities Conservation Planning 
Act. Those two regimes allow regulatory agencies to take a more 
comprehensive approach to addressing the needs of the Delta's native, 
at-risk species.
    Unfortunately, the Services have approached the BDCP process as if 
it were a consultation on operation of the Central Valley Project (CVP) 
and SWP under Section 7(a)(2) of the ESA rather than a conservation 
plan under Section 10(a)(1)(B) of the ESA. As a result, the Services' 
work on the BDCP lacks the kind of regulatory flexibility necessary to 
really look comprehensively at the full suite of activities in the 
Delta that affect listed species and their respective habitats. While 
controlling the operations of the CVP and the SWP remain a central 
focal point of the Services, other components of the BDCP designed to 
address activities that likely influence the survival and potential 
recovery of listed species are given less attention.
    Emerging scientific information regarding the Delta and its native 
species illustrates the need for a comprehensive approach that focuses 
on, among other things, habitat restoration and projects to address 
other stressors on the listed species in a manner that is equal to the 
Services' focus on CVP and SWP operations. But, unfortunately, the 
species-by-species, project-by-project focus of Section 7 of the ESA is 
in conflict with the regional conservation planning approach reflected 
in Section 10 and with the co-equal goals of water supply and ecosystem 
restoration established by the State of California for the Delta. For 
this reason, as I previously mentioned, Congress should amend the ESA 
to facilitate development and implementation of the BDCP.
Specific Suggestions to Improve ESA Regulations in the Delta
    A recent idea that we would like to explore with the subcommittee 
staff following this hearing is the possibility of allowing the U.S. 
Bureau of Reclamation (USBR) to receive Section 10 coverage under the 
ESA. Currently, all federal agencies are prohibited from seeking 
coverage under Section 10 of the ESA, which is broader than the take 
coverage available under Section 7. In the Delta this circumstance 
creates the problem of State and local agencies receiving Section 10 
coverage, but USBR only being able to receive Section 7 coverage. It is 
likely that this does not present a problem in most areas of the 
nation.
    But in the Delta, where the confluence of stressors that affect the 
species are complex and highly interrelated, the species-by-species, 
project-by-project approach of Section 7 is inadequate. In developing 
the BDCP, the Services are forced to analyze the proposed actions based 
on Section 7's jeopardy standard. They don't have the flexibility to 
look more broadly at the suite of conservation measures being taken to 
restore habitat or address the long list of other stressors, and 
instead are required to look at the specific action being taken, in 
this case the operations of a new conveyance facility. As a result, 
they must impose limits on CVP and SWP water supplies as their main 
approach to Delta environmental protection.
    However, if the Services were able to issue permits to USBR under 
Section 10, they could look more broadly at the entire suite of actions 
being taken to protect the Delta ecosystem and include all of those 
actions in their analysis. The Services could be less restrictive in 
how they regulate water supply because they could rely on the boarder 
suite of environmental actions being implemented to support a finding 
that the project as a whole provides benefits to the Delta ecosystem.
    This more comprehensive approach releases the Services from the 
narrowly focused Section 7 approach and increases the suite of 
conservation measures the Services can consider in making their 
determinations about the net benefit of the BDCP to the Delta 
ecosystem.
    Under the current ESA regulations, economic impacts also receive 
short shrift. The long term goals of water supply protection and 
endangered species protection can best be served by modifications to 
Section 10 of the ESA that ensure adequate consideration of the 
economic impacts of plans developed under that section. The goal should 
be to foster economically efficient multi-species plans that provide 
adequate protection to the ecosystem, but also provide protection of 
water supplies to avoid the economic disruptions that have occurred in 
recent years. We believe that flexibility to achieve these goals 
currently exists, but amendment of the statute to require such 
consideration would stabilize the regulatory environment and avoid 
undue protracted litigation in defense of such plans.
    In the immediate future, however, the coordinated operations of the 
State and federal projects must rely on Section 7 take authorizations 
(under biological opinions) to avoid the take prohibitions of Section 9 
of the act. A reasonable biological opinion was overturned by 
litigation in the mid-2000s and now water users have overturned an 
adverse biological opinion that is under reconsultation. Targeted 
statutory guidance for reasonable and prudent alternatives that protect 
water supplies and our economy would help to stabilize the current 
situation and reduce litigation while long term solutions are 
developed. Due to the significant effect on interstate commerce and the 
economy of the nation, those reasonable and prudent alternatives 
allowing take of species should govern the operations of both the CVP 
and the SWP without additional regulation by the State of California.
Significantly Improve Delta Science
    Science in the Delta has grown myopic. For decades, State and 
federal agencies, as well as scientists that obtain funding from those 
agencies through CALFED and the Interagency Ecological Program, have 
focused an inordinate amount of time and attention on CVP and SWP 
pumping operations in the south Delta. The CVP and SWP collect reams of 
data regarding water quality, fish entrainment, tides and water flows, 
and fish salvage and release every day at their facilities. It is not 
surprising that, in studying the Delta and its declining fish 
populations, agency personnel and scientists assumed that CVP and SWP 
pumping operations pose a threat to listed fish, even though empirical 
research is contrary to this assumption.
    The focus on collecting data regarding impacts of the CVP and SWP 
contributed to a paucity of data on other factors that could affect the 
survival and potential recovery of the listed species. Factors like 
toxics, food web deficiencies, predation, in-Delta diversions, habitat 
loss due to continuing development, ocean conditions, ocean harvest, 
and invasive species received relatively little attention compared to 
operations of the CVP and SWP pumps. Recent work in a number of these 
areas has shown surprising results; but the results are surprising only 
because agency personnel and scientists didn't spend the time and 
effort necessary to understand these factors years ago. New studies 
undertaken or supported by the water agencies, show that food web 
deficiencies and predation may be two of the most significant factors 
among several factors in the decline of some Delta species.
    For example, Dr. Patricia Glibert of the University of Maryland 
focused on the changing forms and ratios of nitrogen and phosphorous 
caused by increasing concentrations of ammonia from wastewater 
treatment plants that discharge their effluent to the Delta. In one 
published study, she noted that the changes in these constituents are 
related to the changes in species composition and abundance from the 
smallest organisms all the way up the food web. Dr. Glibert theorizes 
that much of the Delta's ecologic struggle may be traceable to changes 
to the food web caused by nutrient discharges from wastewater treatment 
plants.
    Predation by non-native species in the Delta is also a new focus of 
study that is showing significant promise. Sport fishing trade journals 
often remark about the ``heavy losses'' of out-migrating juvenile 
salmon to predation by the non-native striped bass. A March 2009 story 
in Western Outdoors described predation by the invasive striped bass 
this way:
        ``The peak of the baby salmon's downstream journey corresponds 
        with the spring spawning run of striped bass. Somewhere along 
        the line, the two migrations crash headlong into one 
        another.''. . .. ``It's a one-sided blood bath, and when the 
        spray and foam settles, stripers emerge fat and happy while 
        Chinook suffer heavy losses.''
    While the effects of predation are well known by sport fishermen, 
it has been of little interest in the Delta scientific community until 
very recently. A 2010, Sacramento Bee article notes that a supervising 
biologist for the California Department of Fish and Game worries 
because in his words ``Last night a chill ran down my spine imagining 
that Delta smelt go extinct--while we have done nothing proactive to 
address predation by striped bass.'' The same state biologist also 
stated that: ``I'm again thinking we should propose revising the 
striped bass policy to consider them a `weed' like pigs or a similar 
pest.'' Slowly this lack of scientific attention to ``common sense'' 
factors like predation that affect the Delta's endangered fish species 
is changing, but it needs to change faster.
    The most recent volley of litigation in the Delta is a ruling by 
Judge Wagner finding that significant aspects of the current delta 
smelt biological opinion for the CVP and SWP were arbitrary and 
capricious. In making his findings Judge Wagner didn't lightly skip 
over the inappropriate application of scientific information about the 
delta smelt, and the effect of continued operations of the CVP and SWP 
on the species. In his conclusion of the case Judge Wanger notes that 
``. . .the public cannot afford sloppy science and uni-directional 
prescriptions that ignore California's water needs.'' The Judge is 
correct; balancing the Delta's water supply purpose with its 
environmental value will require a sea change among agency personnel 
and scientists.
Actively Engage the Federal Administration
    The primary federal agencies with regulatory authority over various 
components of the Delta ecosystem are the Fish and Wildlife Service, 
National Marine Fisheries Service, Environmental Protection Agency, 
U.S. Army Corps of Engineers, and Federal Emergency Management Agency. 
While each of these agencies has the potential to make a significant 
contribution toward efforts to protect and restore the Delta ecosystem, 
the Fish and Wildlife Service and National Marine Fisheries Service 
(collectively, the Services) are the agencies that implement the ESA, 
which is the statutory program that most severely restricts CVP and SWP 
operations.
    For two decades, California's major public water agencies have 
tried to work with the federal regulatory agencies to find a balance 
between the needs of species in the Delta and the provision of water to 
the State's population. Most recently those efforts included the 1994 
Bay Delta Accord and the CALFED Bay Delta Program. Both of those 
efforts failed both to contribute to conservation of listed species in 
the Delta and to assure water supply reliability.
    As a result, the public water agencies initiated the BDCP as a way 
to secure take permits under the ESA from federal and state agencies 
for up to 50 years. To be successful, the BDCP requires the full 
engagement of the CVP and SWP water contractors, environmental groups, 
state agencies and federal agencies. Unfortunately, the engagement of 
the federal agencies has been sporadic.
    At the regional level, in California, the Fish and Wildlife 
Service, National Marine Fisheries Service and Bureau of Reclamation 
have worked hard to participate constructively and to help move the 
BDCP forward. But their efforts are compromised by a lack of decision-
making above the regional level. Progress toward the completion of the 
BDCP was substantial when new leadership was appointed to the 
Departments of the Interior and Commerce to oversee the work of the 
Services. Since that time the federal agencies have struggled to find 
direction, commit to decisions, or advance solutions in negotiations 
regarding the BDCP.
    The federal agency staff at the regional level in California is 
capable of making decisions and moving the BDCP forward. However, the 
connection between the regional staff and the policy-makers in 
Washington D.C. must be strengthened to facilitate timely decision-
making. If development of the BDCP comes to a standstill every time an 
issue is sent to Washington D.C. it will fail just like the Bay Delta 
Accord and the CALFED Bay Delta Program failed.
Conclusion
    In conclusion, on behalf of the Kern County Water Agency, I want to 
again thank the Subcommittee for investing their time and energy to 
bring this hearing to California's Central Valley. The opportunity to 
meet face-to-face and constructively work toward better collaboration 
is appreciated and, we believe, can lead to new progress. Thank you for 
considering our input and for your service on what are critical issues 
to our state and country.
                                 ______
                                 
    Mr. McClintock. Our final witness is Mr. Mike Connor, 
Commissioner of the Bureau of Reclamation, Washington, D.C.

    STATEMENT OF HON. MIKE CONNOR, COMMISSIONER, BUREAU OF 
                 RECLAMATION, WASHINGTON, D.C.

    Mr. Connor. Thank you, Mr. Chairman, Members of the 
Subcommittee. I'm Mike Connor, Commissioner of the Bureau of 
Reclamation. I'm pleased to provide the views of the Department 
of the Interior on these very important California water 
issues. The testimony today compels action without a doubt. It 
compels an accurate assessment of the facts and the formulation 
of appropriate policies and I'm happy to participate in that 
process.
    California has been experiencing a twofold crisis over the 
past several years--one related to water supply and the other 
to the collapsing Bay-Delta ecosystem. Acres of land have been 
fallowed, fisheries have been shut down and communities within 
the Delta are concerned about their long-term survival. In 
today's testimony I'll focus on positive developments for near-
term water supplies as well as efforts made to improve the 
situation for the long term.
    In 2011, California's water supply conditions have improved 
significantly. Healthy snow and rainfall totals resulted in a 
100 percent water supply to most of the Central Valley Project. 
As a result of biological opinions from the U.S. Fish and 
Wildlife Service and the National Marine Fisheries Service that 
apply to CVP, operations are expected to have little impact on 
this year's water supply. As of this time, the biological 
opinion for Delta smelt has not resulted in any pumping 
restrictions. The NMFS biological opinion for salmon and other 
species has caused some restrictions on pumping, but only about 
10,000 acre-feet or 0.3 percent of the total South-of-Delta 
contractual quantities. And those impacts will probably be 
offset this coming April.
    In view of this year's hydrology and the fact that the ESA 
restrictions have had little impact to water operations, it's 
understandable that the Subcommittee and some of our customers 
are asking why South-of-Delta agricultural water contracts are 
only at 75 percent. Some context is in order.
    First, Reclamation will deliver 100 percent of the 
contractual water supplies for most CVP contractors, including 
agricultural, refuge and M&I contracts. We have annual CVP 
contracts for approximately 9 million acre-feet and currently 
we have allocated over 7 million acre-feet in 2011.
    Second, the 75 percent allocation figure is specific to 
sub-set CVP contract, known as South-of-Delta agricultural 
water service contracts.
    As designed, the CVP pumps must operate at full capacity 
all the time to meet 100 percent of the contract quantity 
South-of-Delta. Since 1999, however, these contracts have been 
allocated 100 percent only three times. This situation simply 
did not develop overnight. It's been driven by many factors 
over the last 20 years that have affected the quantity and 
reliability of South-of-Delta supplies, including drought 
conditions, listing of species under the ESA, state-imposed 
flow and water quality requirements, state water rights 
priorities, and enactment of the Central Valley Project 
Improvement Act.
    Third, the delivery of water for the 2011 contract year 
only began on March 1st. The State recently completed it's 
fourth 2011 snow survey and runoff forecasts. Reclamation has 
been updating its forecasts and increasing the South-of-Delta 
allocation as conditions warrant as we did this past Friday.
    Fourth, South-of-Delta agricultural and M&I water users are 
dependent on the movement of water via the state and Federal 
export pumps in the Delta. These exports are subject to the 
water quality standards set forth in the State Water Resources 
Control Board's Decision 1641. Water quality requirements for 
salinity and Delta outflow govern operation of the export pumps 
in order to protect the environment and communities within the 
Delta.
    Fifth, many factors in addition to the export pumps affect 
species health in the Delta, including toxic substances, non-
native species, hatchery management, illegal fishing and local 
water diversions. As a result of all the factors just cited, 
the Delta's biologically diverse ecosystem is in serious 
decline. Water exports through the Delta have been modified to 
protect at-risk fish species and enhance Delta outflows which 
affects water deliveries.
    Hopefully, this context helps explain the factors that over 
time influence the South-of-Delta allocation. As stated 
earlier, this past Friday the allocation was 75 percent, 
substantially higher than a 20-year average allocation of 62 
percent. We expect there may be opportunity to further increase 
that allocation. Nonetheless, we understand that reliability of 
South-of-Delta water is not what it once was. We therefore 
remain committed to working with our partners to develop short 
and long-term solutions. There are many projects to fund and 
there are also big picture activities of the Bay-Delta 
Conservation Plan, or BDCP. Through our water recycling program 
we invested substantial resources and produced 240,000 acre-
feet per year in California. Over the last two years we have 
also provided 15 million in funding to develop groundwater 
banking conjunctive use projects. Under CALFED we are studying 
ways to increase water storage in California. We just issued a 
record decision with Contra Costa Water District for the 
expansion of Vaqueros Reservoir. In addition, we are completing 
construction of the canal that was mentioned earlier with an 
additional 35,000 acre-feet on average for the project. And we 
have also prepared, as Congressman Costa referenced, the CVP 
water plan to be used in the allocations of those. Long-term 
requires a long-term and confident solution and the best office 
to do that is the BDCP. It will serve as the basis for 
providing new water to main facilities and also incorporate 
Delta restoration projects.
    In closing, I'd like to summarize that Reclamation has a 
broad set of actions underway to develop solutions for the 
short and long term. We look forward to working with everybody 
to address all the issues at hand in order to construct that 
long-term solution.
    I'll answer questions at the appropriate time.
    Mr. McClintock. Thank you very much.
    [The prepared statement of Mr. Connor follows:]

 Statement of Michael L. Connor, Commissioner, Bureau of Reclamation, 
                    U.S. Department of the Interior

    Chairman McClintock, Ranking Member Napolitano and members of the 
Subcommittee, I am Michael Connor, Commissioner of the Bureau of 
Reclamation (Reclamation). I am pleased to provide the views of the 
Department of the Interior (Department) on challenges and opportunities 
associated with California's water supply.
    The title of this hearing is ``Creating Jobs by Overcoming Man-Made 
Drought.'' The Administration strongly supports the idea of protecting 
and creating jobs through water and environmental policies intended to 
promote certainty, sustainability, and balance in the use of our finite 
water resources. California has been experiencing a two-fold crisis 
over the past several years--one related to water supply, and the other 
related to the collapsing Bay-Delta ecosystem. The issues, of course, 
are inextricably linked, and the 3-year drought that recently ended 
made painfully evident the unsustainability of California's present 
water supply system. Acres of land have been fallowed, once productive 
fisheries have been shut down, and many communities within the Delta 
itself and in coastal California are concerned about their long-term 
survival. In today's testimony, I'll focus on near-term water supplies, 
as well as efforts being made to improve the situation for the long-
term.
    Fortunately, the Obama Administration, together with the State of 
California, water users, community leaders, and members of the NGO 
community, are not relying on the status quo--but are seeking to bring 
back certainty, sustainability, and balance to all those relying on 
California's Bay-Delta. In September 2009, the Department entered into 
an MOU with the Departments of Agriculture and Commerce, the 
Environmental Protection Agency, the U.S. Army Corps of Engineers, and 
the Council on Environmental Quality to coordinate the federal response 
to the California water supply crisis and to facilitate a partnership 
with the State of California in addressing California's water supply 
and environmental challenges. In December of that year, these same 
agencies released an Interim Federal Action Plan for the California 
Bay-Delta which outlines priority actions being taken by these agencies 
to work closely with the State and local authorities, promote science-
based decisions, and ensure effective performance.
    In 2011, California's water supply conditions have improved 
significantly, and improved even more markedly since the Subcommittee 
last conducted a field hearing in the state in January 2010. Federal 
Central Valley Project (CVP) reservoirs are at or near capacity for 
this point in the water year. The state's most recent snow surveys 
reported statewide snow water equivalents to be 160% of normal 
statewide as of this date, with snow water equivalents in the Northern 
Sierras at 172% of normal for this date \1\. As a result of the large 
amount of precipitation over the winter, projected run-off, and other 
factors, the U.S. Fish and Wildlife Service (FWS) and National Marine 
Fisheries Service (NMFS) biological opinions that apply to CVP 
operations are expected to have little impact on this year's water 
supply. As of March 31 this year, the FWS biological opinion for delta 
smelt has not resulted in any restrictions on pumping. With respect to 
the NMFS biological opinion for salmon and other species, to date it 
has caused some restrictions on pumping, but only in an amount of 
approximately 10,000 acre-feet--or 0.3% of total south-of-Delta 
contractual quantities, and because of the flexibility offered by the 
wet conditions those impacts will most likely be offset in April and 
May.
---------------------------------------------------------------------------
    \1\ http://cdec.water.ca.gov/cgi-progs/snow/DLYSWEQ
---------------------------------------------------------------------------
    In view of this year's hydrology and the fact that the Endangered 
Species Act (ESA) restrictions have had little impact to water 
operations, the Subcommittee and some of our customers are asking a 
very reasonable question: how can Reclamation announce agricultural 
water supply allocations south of the Delta of only 75%?
    Reclamation appreciates the opportunity to address these issues and 
answer questions of the Subcommittee. The question of allocations goes 
to the heart of many of our activities underway in California, from 
planning activities to daily operations to ongoing construction 
projects. Before speaking to this year's allocations, some context is 
in order regarding CVP operations and the factors affecting the 
allocation.
    First, it is important to understand that this year, Reclamation 
will deliver 100% of the contractual water supplies for most CVP 
contractors, including agricultural contracts and refuge level 2 water, 
as well as municipal and industrial (M&I) water. We have contracts for 
a total of about 9 million acre-feet of water from the CVP each year. 
And, as of this date, we have allocated over 7 million acre-feet for 
delivery in 2011, with the potential for higher South-of-Delta 
allocations before a final allocation is made in June.
    Second, the 75% figure is specific to a sub-set of the CVP's 
contracts, known as South-of-Delta agricultural water service 
contracts. The volume of South-of-Delta contracts is roughly 1.965 
million acre-feet, or about 20% of the CVP's total contracted amount. 
Prior to 1990, South-of-Delta agricultural water service contractors 
received a 100% allocation in most years. As designed, the CVP pumps 
must essentially operate at full capacity all the time, to meet 100% of 
the contracted South-of-Delta quantity. Since 1990, however, these 
contracts have been allocated 100% only three times. This phenomenon 
did not develop overnight. It has been driven by a host of factors over 
the last 20 years that have affected the quantity and reliability of 
South-of-Delta supplies, including drought conditions, listing of 
numerous fish species under the ESA, state imposed flow and water 
quality requirements, state water rights priorities, and enactment and 
implementation of the Central Valley Project Improvement Act (CVPIA).
    Third, the delivery of water for the 2011 contract year began on 
March 1. The state recently completed its fourth snow survey and runoff 
forecasts \2\. Reclamation made its initial allocation of water on 
February 18, 2011, and since that time has been updating its operations 
forecasts based upon the survey results and continuous monitoring of 
conditions, including precipitation, timing of snowmelt, and water 
demands, to determine if additional increases to the allocation can be 
made.
---------------------------------------------------------------------------
    \2\ http://cdec.water.ca.gov/cgi-progs/snow/COURSES.04
---------------------------------------------------------------------------
    Fourth, South-of-Delta agricultural and M&I water users are 
dependent on the movement of water via the state and Federal export 
pumps in the Delta, and these exports are subject to the water quality 
standards under the California State Water Resources Control Board's 
(SWRCB) Water Right Decision 1641. The Delta is home to people and 
wildlife reliant on a safe and dependable water supply. Urban areas 
like Alameda and Contra Costa County draw drinking water from the 
Delta, and agricultural water districts like the North, Central, and 
South Delta Water Agencies draw water for crops directly from the 
Delta. People also fish and recreate there. Commercial fisheries in the 
area are dependent on adequate water quality. Water quality is a 
significant factor in Reclamation's state permits to export water, and 
for these reasons, water quality requirements for salinity and Delta 
outflow heavily govern operation of the export pumps, including, at 
times, restrictions on pumping.
    Fifth, the Delta was historically a 700,000-acre tidal freshwater 
marsh. Over a hundred years ago, much of this marsh land was reclaimed 
by constructing 1,100 miles of levees and then draining the lands 
behind them to allow for crop production. Wetland, marsh, and riparian 
areas in the Delta have been transformed into farmland or urban 
developments. Many factors in addition to the export pumps affect 
species health in the Delta, including toxic substances, other water 
quality issues, nonnative species, hatchery management, illegal 
fishing, and smaller, local water diversions. The Delta of the future 
will be affected by worsening land subsidence, heightened seismic risk 
and possible effects of climate change which could include both sea 
level rise and changes in storm timing, intensity, and frequency.
    As a result of many of the factors just cited and as noted earlier, 
the Delta's biologically-diverse ecosystem is in serious decline. 
Several fish species have declined to the lowest population numbers in 
their recorded histories. The commercial and recreational salmon 
fishing season in California was completely closed in 2008 and 2009, 
and the delta smelt population has continued to decline. As a result, 
water exports through the Delta have been modified to protect at risk 
fish species and the overall aquatic ecosystem, which affects water 
deliveries to urban and agricultural water users who rely on the Delta 
for their water deliveries. Notwithstanding their limited applicability 
so far this year, the FWS and NMFS biological opinions for delta smelt, 
salmon, steelhead, and sturgeon do address water exports at the State 
and Federal pumps. The opinions, issued in 2008 and 2009 by the FWS and 
NMFS respectively, determined that operation of the CVP and the State 
Water Project (SWP) as proposed would jeopardize fish species protected 
under the ESA and adversely modify their critical habitat. Both 
opinions included a Reasonable and Prudent Alternative (RPA) to the 
proposed CVP/SWP operations to avoid jeopardizing the listed fish, and 
in both cases, under certain conditions, the RPAs limit the ability of 
the projects to export water at certain times of the year. Both 
opinions are the subject of ongoing litigation.
    Hopefully, this context helps explain all the factors that 
influence the South-of-Delta allocation. As noted earlier, at this 
point in time, this year's allocation for South-of-Delta agricultural 
water service contractors is 75%--which is above the 20-year average 
final allocation of 62%. There could be an opportunity to increase that 
allocation in the next month based on runoff conditions South-of-Delta. 
For example, in 2006, the last year when a final allocation hit 100%, 
the initial allocation was 65%, increased to 85% at the end of April, 
and revised to 100% in mid-May. Any increase above 75% will result in 
South-of-Delta water supplies for agricultural water service 
contractors to be well in excess of the twenty-year average. 
Nonetheless, we understand that reliability and certainty of the water 
supply South-of-Delta is not what it once was. We therefore remain 
committed to working with our partners to develop short- and long-term 
solutions, including those currently under consideration in the Bay 
Delta Conservation Plan (BDCP). I would like to take this opportunity 
for the rest of my statement to describe actions the Department and 
Reclamation (as well as other Federal agencies) are taking to assure 
that water reliability can be maximized not just in 2011, but for 
decades into the future.
    Reclamation is committed to optimizing the use of available water 
supplies. Through our WaterSMART program, we are focused on projects 
that improve water management efficiency and provide funding for 
projects focused on water conservation activities, water banking, and 
water transfers. Over the last two years Reclamation has provided 
almost $15 million in cost share funding for the development and 
expansion of numerous groundwater banking conjunctive use projects in 
the San Joaquin Valley. In addition to conjunctive use projects, 
funding for water use efficiency projects was provided to several 
Central Valley water agencies to improve water measurement and delivery 
system automation that resulted in improved water accounting and 
reduced water losses. Further, through our water recycling program, 
Reclamation has provided over $477 million in cost-shared funding to 
recycling projects in California through FY 2010. Statewide, these 
projects are producing over 240,000 acre-feet of water per year.
    Reclamation has a long history of working to address the water 
supply needs of California. For the past several decades Reclamation 
has been working toward solutions to resolve complex environmental and 
water supply issues under the CALFED program and the CVPIA. Under the 
CALFED program, Reclamation has been working with other Federal, State, 
and local agencies to study ways to increase water storage in 
California. Many of these studies are nearing completion and last 
month, Reclamation issued a Record of Decision for a water operations 
agreement with the Contra Costa Water District which will facilitate 
the District's efforts to expand Los Vaqueros Reservoir in Contra Costa 
County. The expansion project will increase the existing reservoir's 
storage from 100,000 acre-feet to 160,000 acre-feet. In addition, 
Reclamation is midway to completing construction of the Delta-Mendota 
Canal/California Aqueduct Intertie. This project will provide increased 
water deliveries by restoring and improving CVP conveyance capacity to 
match the Jones Pumping Plant capacity in the Delta. Improving existing 
facilities and maximizing the use and flexibility of existing 
facilities is cost-effective with less environmental impact.
    When the current biological opinions were released in 2008 and 
2009, all parties recognized the dire condition of the listed species 
and their Delta habitat as well as the likely effects on water 
supplies, and multiple lawsuits were filed almost immediately. As a 
result, the National Academies of Science (NAS) were retained by the 
Departments in late 2009 to conduct a phased review of the science in 
the biological opinions, the RPAs, and the initial draft of the BDCP. 
The first phase, concluded in March 2010, included a review report that 
focused on the basis for the RPAs. In the second phase, the panel has 
been asked to evaluate the use of science in the BDCP and to publish 
its findings in a written report later this year. The final phase of 
the National Academies study, due in late 2011, will address how to 
most effectively incorporate science and adaptive management concepts 
into holistic programs for management and restoration of the Bay Delta. 
The request by both Department of the Interior and Department of 
Commerce for the NAS to undertake this multi-layered study underscores 
our commitment to ensuring that the Opinions and future regulatory 
actions pertaining to the Bay Delta are based on sound science.
Bay Delta Conservation Plan
    At the foundation of the jeopardy findings in the FWS and NMFS 
opinions is the understanding that the CVP and SWP operate export 
facilities in the middle of an aquatic ecosystem. For this reason, the 
BDCP has been underway since 2007 and is currently investigating water 
conveyance alternatives to move CVP and SWP water through, around, or 
under the Delta while restoring the Delta ecosystem. The purpose of the 
BDCP is to provide for a sustainable Delta and a more reliable water 
supply to meet California's water needs.
    BDCP participants are drafting a Habitat Conservation Plan under 
the ESA that identifies proposed conservation measures addressing water 
conveyance and project operations, habitat restoration, and other 
stressors on the Delta environment. Options currently being considered 
include water exports via dual conveyance facilities (using existing 
south Delta intakes, new intake facilities in the north Delta, and a 
new isolated conveyance facility around, under, or through the Delta); 
large-scale restoration of tidal marsh habitat; and measures to address 
other stressors such as pollutants, introduced species, predation, and 
hatcheries management.
    The BDCP will serve as the basis for the permitting of new water 
conveyance facilities. It will also establish the parameters for 
modifications to the operation of the CVP that are subject to 
consultation under the ESA. These facilities and the operational and 
restoration actions that would accompany them offer the best chance at 
present to address the export constraints discussed above and address 
the critically important concerns of water users regarding the 
vulnerability of Delta levees and the potential impact of their 
catastrophic failure upon the water supply. At the same time, it would 
provide for a sustainable Delta that will meet the needs of people and 
fish species dependent upon it. Over the last six months, federal and 
state agencies, working with affected interests, have made significant 
progress in working through a number of important issues related to the 
BDCP. While there is still much analysis and review to be done, 
Reclamation and the other Federal agencies are working with the State 
of California and other appropriate parties toward a draft BDCP and 
EIR/EIS.
    As this process unfolds, it is important to bear in mind that the 
BDCP is a collaborative, public planning process that will provide for 
the conservation of species while improving water system reliability. 
Reclamation is participating in this effort to help facilitate 
activities of the BDCP with other State and Federal agencies because we 
understand the importance of reliable water supplies and a restored 
Delta environment. A significant amount of ecosystem restoration and 
water conservation work is already underway in the Delta, through the 
CALFED Program, and through initiatives by some of the water districts 
participating in this hearing today. Throughout all the public 
meetings, draft reports, workshops, town hall meetings and even 
Congressional hearings, we will remain focused on the dual objectives 
of this Program.
Conclusion
    At last year's hearing, Reclamation highlighted the broad set of 
actions underway today at the Bureau and Departmental levels to improve 
California's water supply infrastructure and our ongoing operations. 
The Interim Federal Action Plan for the California Bay-Delta released 
in 2009 by six Federal agencies continues to leverage available Federal 
resources, particularly in the areas of drought relief and financial 
assistance. In the construction arena, more than 40% of Reclamation's 
funding from the American Recovery and Reinvestment Act (ARRA) has been 
invested in this state. Many projects like the intertie between the 
Delta-Mendota Canal and the California Aqueduct underway northwest of 
here near Tracy and the Red Bluff Fish Passage Improvement Project near 
Redding will be complete or are nearing completion this year. We also 
have a suite of water transfer programs that facilitate the transfer of 
water from willing sellers to willing buyers throughout the CVP. We are 
pleased to discuss these actions in greater detail with the 
Subcommittee today.
    Understanding the need of farm operators to make early planting 
decisions, Reclamation also developed a series of actions for the 2011 
water year to help support water allocations earlier and higher and is 
intended to be used to respond to dry-year conditions as necessary. 
Those actions are identified in the CVP Water Plan for 2011.
    Reclamation has a long history of commitment to science across the 
agency including in the California Bay-Delta estuary. Reclamation is a 
founding member of the Interagency Ecological Program, a four-decade-
old partnership of six federal and three state agencies that carries 
out or coordinates most of the monitoring and research conducted in the 
Bay-Delta. Reclamation believes that sound, peer-reviewed science is 
key to the success of an adaptive management approach to achieving the 
goal of increasing water supply reliability while continuing to protect 
and enhance the Bay-Delta ecosystem.
    In closing, I would like to emphasize that the Department and 
Reclamation are acutely aware of this Subcommittee's interest in water 
and power related issues in the Bay Delta region. The water supply and 
Delta conditions have declined over several decades and the long-term 
solution needs to be thoughtful, implementable, and supported by the 
public. It will take time to achieve the goals of the BDCP. In the 
interim, Reclamation is taking actions in cooperation with our State 
and local partners to provide some relief to the environment and to 
water users to prevent the loss of valuable resources before we are 
able to find and implement long-term solutions.
    As people who administer contracts for water and power, and who 
work with water districts and farmers on a daily basis, we understand 
the very real ramifications of water shortage and declining fish 
populations on peoples' businesses, on families, and on communities. We 
will continue to work to maximize our reliability in light of the 
challenges presented by hydrologic droughts, environmental conditions, 
or regulatory actions.
    Thank you again for this opportunity to testify on this important 
topic. I would be happy to answer any questions the subcommittee may 
have.
                                 ______
                                 
    Mr. McClintock. I'd also like to note for the record that 
John Laird, the Secretary for the California Natural Resources 
Agency, was invited to attend today's hearing, but Secretary 
Laird declined the invitation.
    To our witnesses who decided to attend, thank you very much 
for all your testimony. At this point, we'll begin questions 
for the witnesses. To allow all of our Members to participate 
and also ensure that we can hear from all of our witnesses, we 
are going to be limiting Members to five minutes for questions, 
although we'll do a second round as requested. However, if 
Members have additional questions, we'll accommodate them.
    And I'll begin. And I'd like to start with Mr. Birmingham. 
We just heard a statement a few minutes ago and that statement 
was there is no more water and anyone who says that is just 
trying to promote their career or words to that effect. As I 
recall, there are four acre-feet per second passing under the 
Sacramento Bridge right now on their way to the Pacific Ocean 
that we can't store. My first question to you is if we had 
simply built the reservoirs that were originally envisioned by 
the Burns-Porter Act in 1958, would we be having any of these 
discussions or problems today?
    Mr. Birmingham. Mr. Chairman, the simple answer is no. We 
are the beneficiaries of a water supply infrastructure system 
that was designed by our forefathers and implemented, but it 
was never really completed. And had we completed all of the 
infrastructure associated with the original water plan of 
California, we would not be experiencing these impacts. To say 
there is no more water probably is technically correct, but the 
reality is it's a question of how we manage the water resources 
that we have. And we are doing a terribly inefficient job of 
managing those resources.
    There are a number of things we can do with a stroke of a 
pen that would improve the efficiency of management of water 
resources. Integrating the two water projects is a single 
example and there are many, many others. But I'd like to touch 
on something that Mr. Upton said and that is we need to apply 
the standards of reasonable and beneficial use to environmental 
uses of water. Really what we are talking about today as it 
relates to the implementation of these biological opinions is 
that water is being used for no reasonable purpose. We are 
dedicating water to the fish, but it is not helping the fish. 
And as a consequence, we are suffering enormous hardship on the 
westside of the San Joaquin Valley regardless of how good 
conditions might be someplace else.
    Mr. McClintock. But it was mentioned by the Bureau of 
Reclamation, for example, that existing plant facilities, 
Temperance Flat, for example, don't need to appropriate cost-
benefit ratios. But as you begin to do that you realize what 
about construction costs.
    Those are the costs that, in all of the biological 
opinions, have been issued regarding the price of the 
facilities right into the stratosphere and we end up with 
paralysis. So your suggestion is we essentially begin applying 
the same cost-benefit analysis to all of the water diversions 
and ask the simple question are they accomplishing what they 
are supposed to be accomplishing and what economic value are 
they adding?
    Mr. Birmingham. Again, the simple answer is yes. And this 
goes to a question that Ranking Member Napolitano circulated to 
all of us, that is if we have new facilities, who's going to 
pay for them. And the simple answer is the beneficiaries should 
pay for them, but then the question becomes who are the 
beneficiaries. And the classic example is in Public Law 99-546 
Congress authorized that the Central Valley Project could be 
used to meet water quality objective in the Delta. That was 
going to be a new beneficiary of the project. And Congress 
directed that the Secretary of the Interior undertake a cost 
allocation study, because those costs of meeting those water 
quality objectives in the Delta were supposed to be non-
reimbursable. That study has never been done despite our 
repeated requests. We, the farmers, are still paying for 
storage that has now been dedicated to the environment. And so 
the beneficiaries pay and we need to do the cost-benefit 
analysis that you're describing in order to determine whether 
or not these projects make sense.
    Mr. McClintock. Thank you. Mr. Watte, you are a farmer in 
Tulare County. One of the messages here today is farmers are 
just going to have to learn to deal with the fact that we are 
going to have a lot more conservation, just grin and bear it. 
In fact, a hearing in Washington D.C. Recently, one member of 
the Subcommittee said, well, farmers they are always 
complaining and the more they complain, the better they are 
doing. What's your response?
    Mr. Watte. Relative to water conservation, using it more 
wisely, the concept that's overlooked is the amount of water we 
use and the amount of units, the output that we create, we are 
using similar amounts of water that we did 20, 30 years ago. 
Some of our crops are producing 100 percent more. And so if you 
think about it in terms of output, which is how it should be 
thought of, we are doing a wonderful job, much more efficiently 
than we ever have and we continue to work on it. But the whole 
idea of saving water through conservation or using it, you 
know, that's a concept that I think is sometimes overlooked.
    Mr. McClintock. Thank you very much. I'll recognize Ms. 
Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman. It is very 
interesting to listen to both sides, because I have been at 
hearings here several times through the last few years in this 
particular area. Just as I was looking at information that July 
of 2009--(Inaudible)--announced 40 million for the Recovery Act 
for the drought--(Inaudible)--in California and in the Central 
Valley in contrast to the 26 million--(Inaudible)--so it is a 
little bit of a disparity there. The question that I have will 
be addressed to several of you. And I have submitted those 
questions for a reason, because I want to have a better idea. 
And yes, Mr. Birmingham, it is an issue that I believe should 
be on the record and that's why it's being submitted. I'm 
looking for yes or no answers from all the ag members on the 
panel.
    Have the water shortages during 2007-2009, the extreme 
drought years, affected agriculture production, yes or no.
    Mr. Larson. Yes.
    Mr. Watte. Yes.
    Mr. Beck. Yes.
    Mr. Birmingham. Yes. But I would want to challenge----
    Ms. Napolitano. Yes or no.
    Mr. Birmingham.--challenge the----
    Ms. Napolitano. Yes or no.
    Mr. Birmingham. Absolutely, the water supply reductions 
in----
    Ms. Napolitano. Next. Thank you. I just want a yes or no, 
because I'm following up with something else.
    Mr. Birmingham. Yes.
    Ms. Napolitano. OK. Now, the three highest agriculture 
sales on the record were in those three years, and I believe 
they were good before that, according to the California 
Department of Food and Ag 2009 figures and they coincide with 
those three years of extreme drought. Why wasn't it that these 
record-setting cash received translated into lowering the 
unemployment for farming related jobs? Anybody.
    Mr. Larson. There are areas in California that we had 
plenty of water, plenty of production, plenty of labor, but the 
area that I refer to in my testimony is the area on the 
westside. 300,000 acres of dry land and 40 percent unemployment 
over the last five years, that's still the case.
    Ms. Napolitano. Thank you. That answers my question. 
Anybody else? OK. To Mr.--Commissioner Connor, if the South-of-
Delta water service contractors were allocated 100 percent of 
their contract this year, how would that impact other 
contractors? In other words, here in the State with water flow 
restrictions, where do you believe the water would come from 
and how are we able to apply those water allocations.
    Mr. Connor. Well, I think there's a Congressional question 
as to if there was 100 percent allocation given away, 
distributed out, whether we could provide that water, whether 
we have the capacity and infrastructure to provide that water. 
It couldn't be all taken. So there's a threshold question. 
Perhaps we could deal with our storage facilities in a way that 
we could. And I think that's something that would have to be 
looked through.
    The other answer to your question as to whether or not--who 
would that water come from, well, it either would come from 
senior water users, which would be at odds with the way we 
operate the projects under our conditions, or it would come 
from the Delta, which would be in violation of our permanent 
conditions. Otherwise, how else will water cover any balancing 
act with all of these permanent conditions, environmental 
regulations as well as our contractual obligations that we 
have. And that's the basis that we are maximizing our 
allocation presently at the level we have right now, and we are 
constantly reassessing it.
    Ms. Napolitano. How many--very quickly, my time is running 
out, Commissioner. What are the designations of the water 
rights both for senior and junior?
    Mr. Connor. Well, we commonly refer to them as senior or 
junior, but we have settlement contracts both north and south 
of the Delta that we honor first. We have M&I contract 
obligations. We have a whole mix of different types of 
contracts----
    Ms. Napolitano. How about Native American?
    Mr. Connor. With respect to?
    Ms. Napolitano. Water rights.
    Mr. Connor. With respect to water rights in the Native 
American Community that has been part of--the treaty rights 
recognized in the Tule River revision has been part of the 
reason for our adjustment in water supplies being made 
available to projects and to those Native American rights.
    Ms. Napolitano. Thank you. Mr. Chairman, I yield with that.
    Mr. McClintock. I'm pleased to introduce Chairman Hastings 
of the State of Washington, a state that looks deceptively like 
Oregon.
    Mr. Hastings. Well, at one point Washington was part of the 
Oregon area.
    There's been a lot of discussion--first of all, I want to 
thank all of the witnesses here today. There's been a lot of 
discussion of----
    Audience Member. Could you speak up, please?
    Mr. Hastings. There's a lot of discussion based on making 
decisions based on good science, which I certainly agree. I 
want to put up a chart that has to deal with ocean conditions. 
And I want to ask Mr. Collins and Mr. Birmingham some 
questions. Your testimony created----
    The Court Reporter. I can't hear him.
    Mr. Hastings. Mr. Collins, you suggest that water, river 
water directly correlates--(Inaudible.) Mr. Birmingham says 
otherwise. The National Marine Fisheries says that ocean 
conditions were the main reason for a declining current. This 
chart in front of you shows the measure of water temperature. 
The top of the chart, it measures between 1980 and 2000 when 
ocean conditions were relatively warm. The bottom chart relates 
to the--(Inaudible.) Looking at this, there seems to me there 
is a correlation and I would just like to have your 
observations on both of those. Mr. Birmingham, I'll start with 
you.
    Mr. Birmingham. Mr. Chairman, there isn't any question that 
fish need water. The question is always how much. And the 
decline of the Sacramento River Chinook salmon fishery over the 
course of the last four or five years has been attributed to 
increased pumping out of the Delta. And, first, I would want to 
challenge the question of has there been increased pumping. But 
more than that, if the decline of the salmon fishery was a 
result of increased pumping, then how do we explain the 
reduction in salmon runs on virtually every tributary to the 
Pacific Ocean up and down the West Coast, including Oregon, 
Washington and California. And, fortunately, those runs are 
improving. But pumping in the Delta does not explain the 
decline of those runs. And what does explain, in large part, 
the decline of those runs is ocean conditions. That's the 
conclusion that NOAA Fisheries reached. And I'm not a 
biologist, but it certainly tends to make sense that if the 
fish lack food in the ocean, then they will not survive to 
return to spawn.
    Mr. Hastings. Mr. Collins.
    Mr. Collins. I think that there's a number of different 
factors that affect salmon populations--ocean conditions, the 
pumps, I disagree, I think they do affect, absolutely. I mean, 
nowadays when they release the salmon from the hatcheries, they 
get a very, very small percentage of them making it back, which 
is why we have a trucking program to truck them around the 
Delta all the way down to the Bay. We get a way bigger 
percentage of those fish back, because the Delta's pretty much 
lethal to the baby salmon going back to sea. As far as numbers 
of fish on other rivers on the coast, I think being from 
Washington you have seen the huge numbers. The returns on 
Columbia were--the best is the 30s I think it was.
    Mr. Hastings. Right now it is larger since we have started 
keeping records. We started in 1938. The answer to your 
question is yes. But you said--so both of you then, I hear both 
of you saying that we ought to base the decisions based on 
science, this is something we ought to take into consideration, 
right?
    Mr. Collins. Well, there's nothing we can do about the 
ocean conditions. There is something we can do about it in the 
river.
    Mr. Hastings. Of course, but it is science, you know, and 
we are trying to base decisions on science, so wouldn't you say 
that that is a good starting point.
    Mr. Collins. Yes, sir. Science is good.
    Mr. Hastings. Mr. Birmingham, you would say that too.
    Mr. Birmingham. I certainly would, Mr. Chairman. And one of 
the things that I would agree with Mr. Collins is that the 
Delta is lethal to baby salmon out migrating. But the question 
is why is it lethal?
    We have very accurate records of the number of fish we 
entrain at pumps and it's less than one percent. However, we 
don't know how many of the baby salmon migrating out are eaten 
by striped bass. But the National Marine Fisheries Service has 
said if we want to improve the salmon runs, we ought to 
eliminate the restrictions on the take of striped bass, because 
they consume millions, literally millions of fish as they are 
migrating out of the Delta.
    Mr. Hastings. Thank you. Mr. Chairman, I just wanted to 
make a point that if we are going to make a decision, we ought 
to base them on the facts. This is a fact that ought to go into 
our deliberation. Thank you.
    Mr. McClintock. Thank you. Mr. Costa. Well, everyone else 
is in California, so I'm safe from here on.
    Mr. Costa. Having been down to Chairman Hastings' District 
of Washington, they have great farm country and we welcome you 
here today.
    I'd like to continue with Doc Hastings' questioning line, 
both to Mr. Birmingham and Mr. Collins, about the factors that 
we talked about that are impacting the Delta fish. How about 
the--you mentioned earlier the ammonia, that a certain number 
has been reported that goes into the Delta. Is that impacting 
the fish?
    Mr. Birmingham. The analysis of the impact of discharges of 
ammonia is still being conducted. And what the analyses tend to 
show, Mr. Costa, is that the discharge of ammonia affects the 
food sources for fish which then has an indirect effect on the 
Delta smelt.
    Mr. Costa. Mr. Collins, you think that's impacting it.
    Mr. Collins. Well, I think that--yes. You know, any time 
you put pollution in----
    Mr. Costa. How about the quadrupling of the population in 
the Delta over the last two decades with all the non-point 
source that flows into the Delta, is that impacting the Delta?
    Mr. Collins. I think that any pollution that goes into the 
Delta is impacting the wildlife of the Delta. The more flow, 
you can flush stuff out into the ocean, the healthier the Delta 
will be.
    Mr. Costa. The whole statement, that's the best and most 
reasonable use. I mean, you didn't talk about----
    Mr. Collins. Well, to me that's----
    Mr. Costa.--whether or not the upper----
    Mr. Collins.--because I'm a salmon fisherman.
    Mr. Costa.--Sacramento River Valley water users should be 
contributing as well.
    Mr. Birmingham, on the area of withdrawal of water from the 
Delta on unscreened pumps, is that impacting the Delta?
    Mr. Birmingham. Yes, Mr. Costa, unscreened diversions in 
the Delta affect those fishes.
    Mr. Costa. I think it's fair to say that there are many 
factors which we have not been able to make a determination as 
to which of those factors are contributing to which degree.
    Is it possible, Mr. Chairman, that I could have Mr. Will 
Stelle of NOAA--who is behind Mr. Connor--to ask him a question 
at the table?
    Mr. McClintock. Yes.
    Mr. Costa. Mr. Stelle, I'm perplexed. I asked you this 
question a couple weeks ago. Maybe you can give me a better 
answer. Because, Mr. Collins, I agree that we need to address 
all of the people that are impacted by our water decision, 
including fishermen. I don't appreciate the condescending and 
rather insulting comments you made in regard to people who work 
very hard here, trying to make a living every day and need 
water just as much as fishermen do.
    Mr. Stelle, you made a decision earlier in the last month 
to allow for the opening of fish in the fishing season, which I 
think is good. As you said, the fishing season's been closed. 
It's been determined that 20 percent of the river run salmon 
will be lost as a result of opening up the season. I mean, you 
have to fish, catch the fish. And those adult fish don't come 
back to the Delta to spawn, right?
    Mr. Stelle. (Nods.)
    Mr. Costa. But you also made the decision that only a 1 
percent take would be allowed or permitted at the pumps. I'm 
trying to understand if we are trying to protect the fish, what 
NOAA's position is you are allowing for a 20 percent take by 
opening up the season, but your standard is 1 percent at the 
pumps for export purposes. Can you explain it?
    Mr. Stelle. Yes, Mr. Chairman. Thank you. My name is Will 
Stelle and I work for NOAA Fisheries----
    Mr. Costa. Mr. Stelle, my question----
    Mr. Stelle. Yes. The answer is that we are trying to do two 
basic things. One is to improve significantly the survival of 
juveniles going out to sea. If you are trying to rebuild the 
population of the San Joaquin and Sacramento systems, the 
salmon populations, you have to do two things--you have to make 
sure that the young survive and you have to make sure the 
parents get back----
    Mr. Costa. I get that part. But 1 percent versus 20 
percent.
    Mr. Stelle. The 1 percent at the pumps serve as a testament 
of entrainment rates. It's not an estimate of overall 
mortalities associated with pumping. There is a significant----
    Mr. Costa. I realize that's part of the problem. I'd like 
to get more detail later on.
    Mr. Stelle. I'd be happy to.
    Mr. Costa. Mr. Connor, I agree with some of the witnesses, 
Supervisor Piepho, Dayatra Latin, that we need more water south 
of the Delta. Where are we on the Temperance Flat?
    Mr. Connor. Temperance Flat study is one of the four 
studies that we have in progress. I don't have a specific due 
date at this point in time when we expect that we'll get the 
draft and get this study out. I know, as mentioned earlier, the 
economics have been called into question. And so what we are 
doing right now is we are looking at how to integrate that 
project----
    Mr. Costa. We need to have a thorough discussion with the 
Chairman and the Subcommittee, a cost-benefit analysis----
    Mr. Connor. Happy to do that.
    Mr. Costa.--other projects as well. I have another question 
with regard to BDCP, but my time has expired and hopefully in 
the second round I'll get to it.
    Mr. McClintock. Next is Congressman Denham.
    Mr. Denham. Thank you. Mr. Connor, I'd like to follow up on 
that last questioning, specifically San Joaquin River 
Restoration Settlement. To reintroduce salmon back into the San 
Joaquin River system above the Mendota Pool by utilizing eggs 
from other Central Valley salmon run that are listed as 
threatened or endangered under the Federal Endangered Species 
Act, how much will this program cost in the first fiscal year, 
2012, and every year after.
    Mr. Connor. The overall San Joaquin River Restoration 
program, all the activities or just those related to the 
fisheries, just the reintroduction.
    Mr. Denham. Just the reintroduction, to reintroduce the 
salmon.
    Mr. Connor. I don't have that specifically broken up for 
reintroduction of salmon. I think overall for all the 
activities that we are looking at to do the next fiscal year, 
we are probably spending something close to the 35-40 million 
dollar range. That doesn't include spacing east of us which is 
calling in large part we have that for the average 
reintroduction.
    Mr. Denham. So you haven't done a cost-benefit analysis to 
know how many fish we are going to have and what expense per 
fish that would cost?
    Mr. Connor. Cost-benefit analysis, that's not part of the 
settlement program.
    Mr. Denham. It's a big part of the settlement, because it's 
reintroduction of salmon. Why wouldn't we have done a cost-
benefit analysis up to now?
    Mr. Connor. This is a settlement of litigation over 
violation of the Bureau of Reclamation of a state water code. 
As a condition of this settlement and part of the stipulation 
and part of the agreement as it was ratified by Congress, we 
are supposed to be restoring the river, which includes the 
release of flows, the channel maintenance activities that we 
are doing, we are working on water management goals and we are 
looking at specifically what we need to do to reintroduce fish 
into the river. That's the fundamental part of the settlement. 
The settlement legislation specifically calls for a cost-
benefit analysis, a feasibility analysis on some of the water 
supply, does not call for a cost-benefit analysis of the 
fishery reintroduction part of the program.
    Mr. Denham. Well, I think that would be an important part 
as we are struggling as a nation to figure out how we can solve 
our difference. So let me move on to the next issue. All 
Central Valley salmon runs struggle to regain their historic 
numbers. Why would Reclamation purposely reduce the numbers of 
available salmon in other streams, plant them into the San 
Joaquin system and further threaten current runs?
    Mr. Connor. Well, I think initially what we are going to be 
looking at in the reintroduction process are runs that aren't 
endangered or threatened, second of all, what they will be at 
some point in time, looking at some of those runs. And there 
will be very tight conditions to ensure the overall 
survivability of the species.
    Mr. Denham. You haven't done an analysis on what it's going 
to cost per salmon? Has Reclamation formed a benefit-cost ratio 
of not reintroducing the salmon run in the San Joaquin River?
    Mr. Connor. No, we have not.
    Mr. Denham. How long will Reclamation attempt to 
reintroduce salmon into the San Joaquin system?
    Mr. Connor. How long are we looking at?
    Mr. Denham. How long?
    Mr. Connor. We are looking at an--overall it's a 20-year 
program. There are a number of activities that are threshold 
before any reintroduction takes place, that includes the 
analysis of the interim flows and the restoration flows, 
evaluating the seepage impacts, we have channel capacity 
projects that we have to get done, and we have to do this all 
in tandem with our water management goals. And so overall, I 
can't remember the specific day that we are looking at 
reintroduction. I think it might have been as early as 2012. 
But the Bureau of Reclamation in implementing these programs 
will make those decisions and will not move to reintroduction 
until the system is ready to support those. And we have to work 
with our settlement parties as part of that process in working 
through those deadlines, et cetera. The basic improvements to 
the river, to the channel and to our ability to ensure the 
success of the program is critical before we make any 
reintroduction.
    Mr. Denham. So you do have goals for the 20-year program, 
correct?
    Mr. Connor. We do overall, yes.
    Mr. Denham. And you do have a defined amount of money that 
is going into the program, correct?
    Mr. Connor. We have an overall budget and expectation of 
what the program's going to cost us.
    Mr. Denham. So if you have an overall budget and you have 
an overall expectation and you have both for a 20-year program, 
how can you not have a cost-benefit analysis to understand 
exactly how much you are going to spend on each fish so you 
know if you are going to meet your goal or not?
    Mr. Connor. The goal is to have a successful fishery and 
what that is in terms of overall, the population--or the 
current population is going to be something that's defined over 
time based on if we can restore the flows that are part of the 
whole situation. Once again, we have not been called or 
requested as part of the overall settlement to do a cost-
benefit analysis. Overall, I have seen figures that indicate 
that the goal that the legislation was going to do was going to 
be something where we repair natural fisheries with around 
30,000 fish.
    Mr. Denham. Defined over time is not something these 
farmers could take to the bank. I have a number of other 
questions, but I'll refrain until the second round.
    Mr. McClintock. Next is Congressman Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. It's a very 
interesting hearing and a rather good example of why we don't 
get very far. We mostly point to each other and say you are to 
blame. In fact, I think all of us share in the responsibility 
and to a large extent we all share the blame. I'd like to ask 
Supervisor Piepho if you could expand on those things that 
could be done immediately in the short-term to enhance 
everybody's opportunity for more water north of the Delta as 
well as south of the Delta.
    Ms. Piepho. Thank you, Mr. Congressman. I'd be happy to. As 
I mentioned, additional storage south of the Delta is very, 
very important in that since December there have been several 
extended periods where their pumps were not constrained by 
biological opinions and water can be flowing through. If 
agencies were not getting their full amounts this year, it is 
because investments have not been made for storage to enable 
more water to be pumped in wet years, which would also help in 
dry years obviously.
    Second, the adoption of the solutions-oriented approach 
begins with immediate short-term actions, fish screening, levee 
protection, emergency preparedness all would help to promote a 
healthy ecosystem that would also enhance water supplies and 
improvements for water quality throughout California.
    An additional and absolutely critical investment, again, is 
the emphasis for ensured reliability on high quality water 
throughout the system as encouraged by the Delta Vision report, 
not only for flood control or for protection of the locally 
private owned lands, but for the water system throughout the 
State. Levees protect water quality and important 
infrastructure to keep California running and will for the 
foreseeable future. We must protect levees today in order to 
protect the existing water supplies, state power grids, oil and 
gas lines, interstate highways and the railroads that traverse 
the Delta today.
    Mr. Garamendi. Thank you very much. I wanted to get that on 
the record that there are things we can do immediately that are 
important for north of the Delta as well as for south of the 
Delta. It's critical that we protect the Delta levees. They 
could go at any time. Those who want to build a canal, it would 
be realistically about 10 to 20 years before we get a single 
drop of water out of it. What do you do in the meantime? 
Supervisor, thank you for that testimony.
    Mr. Beck, you raised a point about a viable water storage 
south of the Delta, that is the underground aquifers. Would you 
please expand on that and could you please tell us if there are 
any particular reasons why it does not have limited capacity?
    Mr. Beck. Yes, Mr. Congressman. In Kern County we've 
probably got the most extensive groundwater bank program in the 
country. And what it takes is you have to have the right 
hydrogeologic conditions and the subsurface has to have the 
right structure to support that type of recharge and recovery 
act. It's also got to be located next to the right reconveyance 
facility and have the right quality of water. Most important, 
you have to have water to send to those areas. So without water 
supplies, our banking projects sit empty. So while our pumping 
capacities are available----
    Mr. Garamendi. Well, are you banking water now in the 
groundwater supply?
    Mr. Beck. Yes. Our banking projects are full right now 
because of the hydrologic conditions.
    Mr. Garamendi. You have reached capacity.
    Mr. Beck. Yes, we have.
    Mr. Garamendi. Well, that speaks to the need for storage 
south of the Delta and the need for the Temperance Flat and 
other storage facilities in Madera and other places to move 
forward vigorously on the studies and the cost-benefit that 
goes with it. We'll have to sort that out as those studies are 
done. I guess I'll wrap up. I have a minute.
    There are solutions that are available to us and we need to 
move on those that are immediately available, the storage 
facilities that are there today need to be fully utilized, 
whatever they may be. And most of them are at the moment, but 
others can be developed rather quickly and those need to be put 
in place. Some are going to be very, very expensive and may not 
be desirable because of the cost.
    In regard to the Delta itself, there are things that need 
to be done immediately in the Delta and there has been some 
state fund available. There's enough Federal money available 
right now for those facilities in the Delta. Those are 
basically enhancing the Delta levees that are there that ensure 
us for the next decade, maybe for two decades, that water will 
be able to flow through the pumps when it is viable.
    My final point is that the Endangered Species Act does 
allow for Section 10, which is an adaptive management program, 
and the Bureau of Reclamation is not blocking nor is the Fish 
and Wildlife Service.
    Both of them have over time engaged in the adaptive 
management programs. We need to do that. We need to be very 
aggressive in setting up an adaptive management program based 
upon science and over time making modifications in the pumping 
and in other aspects of the transfer facilities so that we can 
make adjustments. It's possible. It can be done. Thank you, Mr. 
Chairman.
    Mr. McClintock. Thank you. Finally, our final questions 
from Devin Nunes.
    Mr. Nunes. Thank you, Mr. Chairman.
    Mr. Connor, I'd like to go to you first. Would the Obama 
Administration support a temporary waiver of the Endangered 
Species Act to allow the pumps to run despite whether or not 
there's water or non-water for the next few years until you can 
get all of your studies done?
    Mr. Connor. I'd have to look at the--in the Administration, 
I would have to look at the tax assessments section, so I'm not 
going to offer any kind of notion of support or non-support. I 
think, quite frankly, it will be an uphill battle. We have to 
look at a lot of ways to--there's other ways we can improve 
this overall system, including science as one of them. I think 
we have learned a lot over the last few years that we can make 
an impact on water supply projects.
    Mr. Nunes. Sure. In the meantime though you have folks here 
that need to go back to work, because you are going to have 
flooding this year and you are also still going to have land 
that will be idle because there will not be enough water 
because the Bureau of Reclamation has not been able to move the 
water because of the Endangered Species Act. So I was just 
hoping the Obama Administration would support a waiver. And I 
think there's been----
    Mr. Connor. There has been no restriction because of the 
ESA this year as I stated in my testimony.
    Mr. Nunes. I want to let Mr. Birmingham respond to that 
very quickly, but I think you do have some experience with 
waivers, if I'm not mistaken. Wasn't there a waiver done back 
in the early 2000s for the silvery minnow in New Mexico----
    Mr. Connor. There was----
    Mr. Nunes.--the State of New Mexico?
    Mr. Connor. There was something about the minnow, right, 
addressed----
    Mr. Nunes. You are familiar with that, I assume.
    Mr. Connor. I'm very familiar with that.
    Mr. Nunes. You want to state for the record your prior 
employment.
    Mr. Connor. I was with the Senate Energy and Natural 
Resources Committee counsel working on the Water and Power 
Subcommittee.
    Mr. Nunes. Who was the Chairman, or its Ranking Member?
    Mr. Connor. Chairman Jeff Bingaman.
    Mr. Nunes. From New Mexico.
    Mr. Connor. That is correct.
    Mr. Nunes. Right. Mr. Birmingham, would you like to 
respond?
    Mr. Birmingham. Thank you, Mr. Nunes. I would like to 
respond, because what Mr. Connor said about the impact this 
year of the biological opinions, again, is technically correct, 
but it's not the entire question. The allocation that we 
received this year, the initial allocation was 50 percent and 
we got a 50 percent allocation notwithstanding the projections 
that it was going to be wet. We got a 50 percent allocation 
because the Bureau of Reclamation had to assume the worst-case 
scenario in terms of how the biological opinions and all of the 
other restrictions that have been in place throughout the years 
would affect the operations of the project. And so had the 
Bureau of Reclamation not had to project the worst-case 
scenario, our initial allocation this year would have been 
significantly higher. It could have been 75 percent and----
    Mr. Nunes. Not to mention, Mr. Birmingham, that the last 
two years would have been much higher also, because the 
biological opinions weren't in place. Water wasn't stored and 
held over. And that's why I want to point out that in some 
cases the Congress will make waivers to the Endangered Species 
Act, which Mr. Connor is familiar with. And I'm not holding him 
responsible for what President Obama's decision will be. But 
the fact is that Congress has made waivers, be it temporary, 
and that will be a logical course ahead.
    I want to switch to Mr. Collins. I thought your testimony 
was very well enlightening for me. I haven't met these 
billionaire farmers yet, but I'd like to meet them. You are 
quote, ``the Delta is lethal for fish,'' I thought that was 
fascinating. Why is the Delta lethal to fish?
    Mr. Collins. I'm not a scientist. I'm a commercial 
fisherman. But I know that the returns of fish that we truck 
around the Delta do way, way better than the ones that try to 
naturally swim out. There's a lot reasons----
    Mr. Nunes. So loading fish and----
    Mr. Collins. There's a lot of reasons----
    Mr. Nunes.--moving them around the Delta, that's a good job 
for the government to do.
    Mr. Collins. There's a lot of reasons that the fish aren't 
making it through the Delta. When the pumps are running, you 
know, they are turning the river backwards, the quality----
    Mr. Nunes. Hold on, Mr. Collins. The pumps are man-made, 
correct?
    Mr. Collins.--the quality----
    Mr. Nunes. The pumps are man-made, correct?
    Mr. Collins.--the chemicals that are coming off the farm 
fields and everything else. There's a lot of pollution factors.
    Mr. Nunes. Including the farmers in the Delta.
    Are those islands man-made just like the pumps, the islands 
in the Delta and the levees that you are so concerned about? 
Are those man-made?
    Mr. Collins. The hydrology in California used to be way, 
way simpler than it is today. You had two rivers that ran down 
into the Delta that ran out to the ocean. Back then the fish--
--
    Mr. Nunes. So shouldn't you tear down all those levees.
    Mr. Collins. I'm not suggesting that the only use of water 
in California is for salmon. I'm not suggesting that. That 
would be ridiculous for me to suggest that.
    Mr. Nunes. But why do you pick on some man-made projects 
and not others? When you say--when you talk about----
    Mr. Collins. Ten years ago there was farming going on and 
there was fishing going on.
    Mr. Nunes. One final question. Who stopped you from 
fishing?
    Mr. Collins. The government----
    Mr. Nunes. The government.
    Mr. Collins.--because there weren't enough salmon. The 
number of salmon got down to 39,000 that returned from millions 
of fish, so we stopped fishing because we don't want to catch 
the last salmon.
    Mr. Nunes. Thank you, Mr. Chairman. I want to make sure for 
the record that it was the government that stopped Mr. Collins 
from fishing, not the pumps.
    Mr. McClintock. Thank you, Mr. Nunes. We'll now begin the 
bonus round of questioning.
    I'd like to pick up where Congressman Nunes left off, your 
statement of hydrology. Hydrology of the Delta was a lot 
different in prehistoric times. Obviously, the agenda of the 
environmental Left is to restore it to prehistoric times, which 
only requires restoring the human population to its prehistoric 
condition. I am well aware that we have floods and we have 
droughts. Then we went to the construction of facilities that 
even out those flows, provided year-round water flows that made 
the current ecology of the Delta possible in the first place. 
And when I look at the tremendous facilities that were 
envisioned by the previous generation, the Burns-Porter Act, 
and realize how little of that actually was completed and 
realize that if we had it, we wouldn't be having any of these 
discussions today, there would be plenty of water to go around 
for everybody, it breaks my heart. The Bureau of Reclamation 
was established within the Federal Government for the purpose 
stated, and proudly stated, of making the desert bloom again. 
So, Mr. Connor, I'd like to ask you, what are this Bureau's 
plans for making the desert bloom again?
    Mr. Connor. Making the desert bloom requires addressing all 
of our legal obligations effectively and coming up with more 
additional water management strategies. I would agree with Mr. 
Birmingham completely and totally that we can do a much better 
job of managing the water supplies that we have. But the fact 
is we operate in the reality of certain laws and recognize 
certain values and the impacts of the projects that we 
construct, so we need to deal with that. We need to deal with 
our ESA obligations and we need to construct better 
infrastructure, more efficient water management strategies----
    Mr. McClintock. I want to get some specific answers from 
you, if not have a very short one. You mentioned we need to 
allocate our supplies better.
    Well, we are watching four acre-feet per second pass under 
the Sacramento Bridge right now right out to the Pacific Ocean 
that we could just store for use in dry years or in dry 
seasons. I'd like to know what conditional water storage 
facilities you have in the works to alleviate this situation.
    Mr. Connor. Well, we just approved a record decision on the 
Contra Costa project to raise Los Vaqueros, so there's one 
study that's turned into an action that's going to result in a 
raise there. We also have ongoing studies there with Shasta and 
the Temperance Flat site, as well as the offstream Sacramento 
reservoir. What's happening with those studies, we are working 
on those very hard. Quite frankly, until conveyance issues in 
the Delta--because these projects--the storage facilities have 
to be integrated with the overall migration. Until we fix the 
conveyance out there, the cost-benefit ratios are not going to 
pan out. So we are going to go ahead and publish the data so 
everybody knows at least the technical aspects of these storage 
studies, but the reality is we are going to have to deal with 
the conveyance issues in order to keep the technology alive. At 
the same time we are working on groundwater projects. We are 
investing in conjunctive use groundwater----
    Mr. McClintock. OK. You mentioned Temperance Flat. The 
Natural Resources Defense Council calls Temperance Flat the 
dumbest dam in America. You disagree with that apparently.
    Mr. Connor. The Bureau of Reclamation has not made that 
judgment. We are working on the study. We are analyzing with 
our partners the data and we are going to take that study to 
completion----
    Mr. McClintock. What was Temperance Flat's current 
condition of water storage? About a million acres?
    Mr. Connor. I was looking at that this morning and I'm 
stumped on that. I can probably lean over my shoulder and get 
you an answer.
    Mr. McClintock. Let me hit one other point along the lines 
of Congressman Costa, except in this case in regard to the 
Delta smelt. My understanding is the Federal Government's 
Interagency Ecological Program calls for a take of up to 33,500 
Delta smelt annually, but the level of authorized take 
established there is quite a bit more than 167, 124 and 211 
adult Delta smelt that were authorized to be taken in the last 
few years by the Federal and state pumps. How do you reconcile 
those numbers?
    Mr. Connor. I didn't quite follow the question. With 
respect to the----
    Mr. McClintock. The Federal Government's Ecological Program 
calls for a permissible take of 33,500 and yet over the last 
three years no more than 211 Delta smelt had been authorized at 
the Federal state pumps.
    Mr. Connor. I'm not sure, quite frankly, how the Fish and 
Wildlife Service comes up with those takes. I do know that----
    Mr. McClintock. Can I get a brief answer to that, Mr. 
Birmingham? In about two seconds can you respond.
    Mr. Birmingham. Mr. Chairman, I'm not familiar with the 
specific program that you just articulated, but as an example, 
earlier--or late last year the official--the USGS was given an 
incidental take permit to conduct a study in the Delta and they 
were authorized to take 2500 Delta smelt, 2500. If we take nine 
Delta smelt, we shut down the economy of the State of 
California and I think that's the inequity that you are talking 
about.
    Mr. McClintock. OK. Thank you. Ms. Napolitano.
    Ms. Napolitano. First of all, I'd like to--(Inaudible.) 
Water Supply San Joaquin Valley in 2009, another one from the 
California Natural Resources Agency and another one, California 
water shortfall.
    Mr. McClintock. Do we have objections?
    Ms. Napolitano. Second, I'd like to have the panelists 
please answer in writing the questions that were submitted to 
you that you have in writing. Then in regard to the silvery 
minnow, the 2003 amendment in question did not waive the 
Endangered Species Act. The water project in question remains 
subject with respect to the silvery minnow. Instead of 
overturning the biological opinion as so many have sought to do 
in their debates, it protected biological opinion from 
litigation and that's for the record.
    Third, I want to make for the record known that I'm from 
Southern California, as you all know, and in our--just in that 
county alone, Los Angeles County, there are supposedly 11 
million people, well, it looks more like up to 12, 13 million. 
That's about a third of this population. So in essence when you 
pass water bonds and you do all of that, a third of it's paid 
for by just the LA County. Never mind San Diego--(Inaudible.) 
So we understand the issue when we have to pay 1100 to 1500 an 
acre-foot of water. Figure that one out. And then there's the 
issue of the water coming in that is contaminated with 
pesticides, fertilizers, cadmium and other toxins which is an 
additional cost to be able to run through the water through the 
membranes to make--to ensure treatment. So you understand the 
frustration that we bring to the record.
    Now, Mr. Stelle, what kind of flexibility can the National 
Marine Fisheries Service exercise with respect to a biological 
opinion, especially in terms of an annual described spring 
operations?
    Mr. Stelle. Congresswoman, the Endangered Species Act gives 
us, NOAA Fisheries and Fish and Wildlife Services, a 
significant degree of flexibility in making adjustments 
annually and programmatically. There is no question about that. 
So the real issue is what kind of adjustments are warranted and 
what can we support scientifically. If we have new ideas on 
better ways to operate, to improve survivals, then we can 
capture those in the biops on an annual basis, on a rolling 
basis. We do so on an annual basis at the present time and we 
will continue to do so.
    Ms. Napolitano. Why on an annual basis?
    Mr. Stelle. Because we learn every year as we operate. So 
in the fall time after the close of the season, we can convene 
an independent science panel and ask that panel what we learned 
and what kind of adjustments should we be making the next year 
in order to benefit from what we learned. We have done that 
once, we will do it again this fall and we are committed to it 
with the Fish and Wildlife Service and the Bureau, learn as we 
go.
    Ms. Napolitano. Then why does the National Marine Fisheries 
Service claim its biological opinion is sufficiently flexible 
if it has never exercised any of those flexibilities?
    Mr. Stelle. Ma'am, with all due respect, we have exercised 
that flexibility. In fact, we are sending a letter to the 
Bureau and the State which will be ensuring some of the 
adjustments that we made based on the panel last fall.
    Ms. Napolitano. Thank you.
    Mr. Stelle. And it's an absolute ongoing commitment and 
it's sincere. Good ideas, we will capture them. It's our 
responsibility.
    Ms. Napolitano. Thank you. I believe I'm out of--well, I 
have a minute. Mr. Watte, you mentioned in your testimony the 
construction of Temperance Flat was necessary and that 
Reclamation is no longer an able partner in the efforts. If 
Reclamation is no longer an able partner, what is stopping the 
local business from meeting the construction efforts and why 
not build it yourself?
    Mr. Watte. Well, it's not something we can do just--you 
know, an independent, smaller-type district can do. I'm not 
exactly sure of the entirety of your question. You want to 
repeat that.
    Ms. Napolitano. Well, we have long considered that the user 
pay. We heard it over and over again.
    Mr. Watte. Beneficiaries pay, yes.
    Ms. Napolitano. Correct.
    Mr. Watte. Yeah.
    Ms. Napolitano. So the dam is going to be constructed by 
the users, paid for by the users.
    Mr. Watte. There's many projects that users, beneficiaries, 
would be happy to do, but as I said in my testimony, trying to 
get even the smallest projects accomplished, anything in 
California, is extremely difficult and very expensive.
    Ms. Napolitano. Thank you, Mr. Chairman.
    Mr. Birmingham. Excuse me, Mr. Chairman, may I correct a 
statement I made a moment ago in response to your question?
    Mr. McClintock. I'm sorry.
    Mr. Birmingham. In response to your question, I said that 
the United States Geological Survey was given an incidental 
take permit for 2500 Delta smelt. In fact, it was 2200 Delta 
smelt. And I just wanted to correct the record. Thank you.
    Mr. McClintock. Next is Chairman Hastings of Washington.
    Mr. Hastings. Thank you. Thank you very much. I have----
    The Court Reporter. I can't hear you.
    Mr. Hastings.--so let me try to capitalize this.
    Audience Member. Can you speak up, please?
    Audience Member. Can you get closer to the mic?
    Mr. Hastings. I'm sorry. You know, maybe this particular 
Councilman doesn't speak often. I would like to just ask a very 
simple question to Supervisor Larson and Mr. Birmingham. You 
have both experienced drought. And so my very simple question 
to you this year is did the Federal Government or was it Mother 
Nature that alleviated the drought this year.
    Supervisor Larson?
    Mr. Larson. The Federal Government has done nothing this 
year other than give us 75 percent of the water. Mother Nature 
alleviated the drought with 175 percent of rainfall.
    Mr. Hastings. Mr. Birmingham?
    Mr. Birmingham. Like so many other questions, Mr. Chairman, 
that is a difficult question. We have been helped significantly 
by the above-average, significantly above-average precipitation 
and runoff that we have had, but I would not want the Committee 
to be left with the impression that Reclamation and Fish and 
Wildlife Service have done nothing. In particular, this year 
the Bureau of Reclamation developed a number of actions so that 
it could give us a higher allocation earlier. Had they not 
taken those actions, our initial allocation would have been 
rather than 50 percent, probably would have been 25 percent or 
30 percent, so they have been trying to find some flexibility 
and where they can they have utilized that flexibility. But the 
basic point is that the water supply shortages that we have 
suffered this year--and 2007 and 2008 were not critically dry 
years. They were below-average years, but 2008 was not 
critically dry. Look at the hydrograph I have attached to my 
testimony as Exhibit 1. It shows 2008 was essentially an 
average year, yet we were 45 percent supplied. Those were a 
consequence of the regulations that have been imposed on the 
operation of projects.
    Mr. Hastings. But 75 percent more came from Mother Nature; 
is that correct?
    Mr. Birmingham. This year 75 percent came from Mother 
Nature. And we could get to 100 percent without taking water 
away from anyone else as we did in 2006.
    Mr. Hastings. This is a good follow-up. On a scale of one 
to ten, with ten being the absolute highest, is there a risk 
that a drought could return with existing regulations in place? 
Supervisor Larson?
    Mr. Larson. Yes.
    Mr. Hastings. Mr. Larson?
    Mr. Larson. They haven't changed any rules and we are----
    Mr. Hastings. Mr. Birmingham?
    Mr. Birmingham. Yes. And on a scale of one to ten, ten 
being the likelihood of a drought coming back, it's a ten.
    Mr. Hastings. OK.
    Mr. Birmingham. Regardless of how wet it is.
    Mr. Hastings. But the question speaks to the issue that 
there has to be something coming out of this Committee to 
resolve these issues and that is why this hearing is held here 
today after having gone through a couple years of not having 
this discussion.
    Final question to Supervisor Piepho. And I wanted to ask 
you this question, because in your oral testimony and in 
response to Congressman Garamendi's question, you were talking 
about solutions being prospective; is that correct?
    Ms. Piepho. No. No, there are direct short-term----
    Mr. Hastings. Well, that's prospective. It could happen in 
the future is a solution that's prospective; is that correct.
    Ms. Piepho. I don't know that I would agree. I know that 
the voters in this State have passed a water bond to do levee 
improvements that have not been implemented. So if a 
prospective vote has already been taken to apply the revenue to 
a project that should move jobs forward and stay in the Delta 
is prospective I'm not sure I understand.
    Mr. Hastings. OK. Well, all right, maybe that's a bad 
choice of term. But in your oral testimony you said that one 
thing we can't do is go back. Now, I'll tell you it struck me 
because going back farmers here have water. Would you like to 
explain that phrase where you said we can't go back?
    Ms. Piepho. Sure. My reference to going back has been a 
historical debate that's occurred on California's water for 
hundreds of years, frankly. And we all know the Mark Twain 
story about whiskey and water and fighting. My point to the 
words is that I believe, as an optimist, that with good people 
at the state, Federal and local level working together, we can 
find comprehensive solutions for the State's water system, 
build an infrastructure that benefits short, mid and long-term 
goals and use our revenue, our infinite tax--I'm sorry, 
uninfinite tax dollars to good, higher best purposes. And we 
agree with the cost-benefit analysis on infrastructure 
projects, including high speed rail.
    Mr. Hastings. Well, it struck me in this whole discussion, 
and there certainly appears to be a couple--two of the same 
sides on that. But when I heard that phrase, it, frankly, 
raised a red flag. Whether you share that or not, there may be 
others that have the same red flag that I would have, so I 
thank you.
    Mr. Chairman.
    Mr. McClintock. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Beck, you spoke about the efforts to focus on water 
supply. I think Kern County Water Agency is a good example in 
terms of water management and tools and using all the tools and 
your efforts since. But I authorized the water bank that you 
spoke of earlier originally some 400,000 acre-feet in 1988. 
What is the capacity of that water bank today.
    Mr. Beck. Congressman Costa, we have projects along the 
Kern bank that encompass over 30,000 acres. Those projects 
recharge in a wet year over 300,000 acre-feet of water each 
year. They can also recover about the same amount. So those 
current bank projects have been very important in our ability 
to withstand the regulatory drought that we have experienced.
    Mr. Costa. In terms of dealing with the Endangered Species 
Act, I'm glad that you talked about using the Section 10 and 
the entire conservation plan is something that I think the 
Bureau needs to look at in more depth. You also indicated 
though, Mr. Beck, in your testimony, the Bay-Delta conservation 
plan, as many of us believe, is really the long-term solution. 
Today we have been talking about a lot of short-term efforts. 
In terms of long-term efforts, you mentioned that sporadic 
involvement of Federal Government has caused delays today. 
Could you be more specific about what we ought to be doing if 
we want to get our act together and be a real partner in taking 
care of California's long-term water lease, which I said in my 
opening statement we need to do?
    Mr. Beck. Yes. I think there's a theme that you have heard 
today, we have all got to work together on this. It's such an 
important issue. Those of us that are on the ground, whether 
it's Tom or myself or the farmers that are represented today, 
understand every day you wake up thinking about how you are 
going to get water for California, what's the next step and 
what it takes for us to do our jobs to keep the ball rolling. 
We have seen good progress with the new state Administration. 
They have hit the ground running.
    They are actively engaged. The difficulty we have had with 
the Federal Administration is that it's taken some time to get 
them as directly engaged at the Washington level as we felt is 
appropriate. We have seen great representation from the folks 
in California, folks on the West Coast.
    Mr. Costa. We have been pushing them. You think it's 
getting better? I have other questions I want to ask.
    Mr. Beck. I think it is getting better, but what I said 
when I met with them is you can't take a breath. It isn't like 
you get over----
    Mr. Costa. And we have to hold them to milestones. Is that 
not the case? Hold them to milestones----
    Mr. Beck. That's correct. We have some deadlines ahead.
    Mr. Costa. OK. Mr. Birmingham, we counted up the amount of 
water that we have given up, taken according to Mr. Collins. No 
other part of the entire state has given water away, not 
freely, but as we have as a result of various court decisions, 
state and Federal statutes and other impacts. When you look at 
the CVPIA reform in 1992, Mr. Birmingham, if you look at the 
settlement agreement and other factors, court decisions you are 
aware of, how much water has been taken from the San Joaquin 
Valley, not willingly, to benefit other regions of California 
and benefit other areas.
    Mr. Birmingham. Well, Mr. Costa, that's an excellent 
question and it goes right to a point Mr. Garamendi made. I 
hope that I haven't impressed the Subcommittee that I'm blaming 
anybody else, particularly the fishermen, for the situation we 
are in. I'm not. And I agree with Mr. Garamendi that we all 
share some blame and we all share some responsibility. And it's 
for precisely that reason, Mr. Garamendi, as you'll recall, in 
1994, December 15th, 1994, we signed a Bay-Delta Accord, in 
fact, you negotiated the Accord, where collectively the state 
and Federal projects voluntarily gave up a million acre-feet of 
water for the protection of listed species.
    But to answer your question directly, Mr. Costa, we have 
lost--in the San Joaquin Valley we have lost in excess of a 
million acre-feet of water annually under the biological 
opinions of the Central Valley Improvement Act and that water 
is now being used for fish and wildlife enhancement.
    Mr. Costa. If you add the east side, it would be a million 
two.
    Mr. Birmingham. If you add the east side, it would be a 
million two. And there are other programs that I have not 
included. The Trinity River Restoration Program I have not 
included in that million acre-feet that we have lost.
    Mr. Costa. The fact is that every part of this state is 
going to have to get involved if we are going to provide enough 
water for a population of 50 million people by the year 2030, 
which we know is going to happen just as well as we know the 
droughts and floods will happen. And we are not taking care of 
our short-term or long-term water lease. Thank you very much, 
Mr. Chairman. My time has expired.
    Mr. McClintock. Thank you. The Chair would like to ask that 
you be careful with these signs. The Committee is very tolerant 
of signs, but I do have to ask they not be hung over the 
balcony and they not obstruct anyone. With that, we'll go to 
Congressman Denham.
    Mr. Denham. Thank you, Mr. Chairman. Mr. Upton, allotments 
made out of the San Joaquin River Restoration Settlement could 
help solve a number of Valley problems. How much money do you 
spend on water storage out of that settlement?
    Mr. Upton. I'm not aware of any on water storage.
    Mr. Denham. That was part of the settlement though, was it 
not?
    Mr. Upton. I had suggested that in the early part of the 
settlement when we were negotiating, because I learned from my 
salmon education that they liked cold water. So it made a lot 
of sense that they could build Temperance Flat, because then 
you'd have more cold water to put down the river for the fish, 
but the environmentalists rejected that out of hand.
    Mr. Denham. Thank you. Mr. Connor, on that same line of 
questioning, part of the settlement, some water storage, some 
projects equity of implementation.
    Mr. Connor. We are working on a number of water management 
actions. Water storage is not one of them. The primary goals of 
the water management program are to restore capacity of the 
Friant-Kern Canal and Madera Canal. And those have active eco 
studies ongoing right now with the anticipated releasing later 
this year.
    Mr. Denham. So only water flow?
    Mr. Connor. Increased capacity could take more water 
through those canals as they were originally designed. We are 
also working on a current water account. We just made an 
announcement now that it will allow credit to be given for the 
flows being made available for the fishery restoration program. 
The advantage of that, and we are going to look prospectively, 
which is going to help the Friant district's now to move out 
460,000 acre-feet of credit, so that they will get that in a 
water year like this. They will be able to purchase that water 
at very low rates as contemplated as part of the settlement.
    They can take that water if they have capacity. Also, water 
management goals would look at increasing the canal capacity 
which would also help in that regard.
    Mr. Denham. OK. How about the farmers that are along the 
river itself, what about the seepage issues that they are going 
to be facing with a large flow.
    Mr. Connor. The seepage issues are a high priority and we 
have had some seepage concerns and issues already in their 
field. And we are releasing our environmental impact statement 
in April, our program statement to deal with those seepage 
issues. But that doesn't change the fact that we already have 
issues with that. We have installed 110 monitoring wells so far 
to better understand the seepage and we are trying to work with 
those farmers that have already been affected. In fact, I'm 
going out to meet with some of those folks this afternoon.
    Mr. Denham. And I wanted to address a couple of the 
projects that we are working on here today. I have H.R. 869, 
which deals with Exchequer. Has Reclamation taken a position on 
that bill yet?
    Mr. Connor. We have not taken a position on that bill yet, 
but I am aware of the bill and we have talked about it internal 
so we'll be prepared to take a position when the U.S.----
    Mr. Denham. And the Madera groundwater bank, where is 
Reclamation as far as the Madera water bank?
    Mr. Connor. I'm not exactly sure where we are in working 
with those issues associated with the Madera groundwater. I 
know we see opportunity for our owners as far as banking. It's 
a work in progress, but I can't expand on that for the record 
for you.
    Mr. Denham. Mr. Upton, can you comment on the water bank?
    Mr. Upton. Well, they have had it for seven years and have 
spent millions of dollars. And it goes with what Mr. Watte 
said, trying to get anything done in this state is almost 
impossible because of all of the impediments that are put in 
place. But the water bank is exactly, I would think, what 
everybody would want to do here. It's a great project. But it's 
been held up by--I don't--you know what it's been held up by. I 
would urge the Bureau to certainly call the Madera District, 
Lance Johnson, and get it done. They are ready.
    Mr. Denham. We will help facilitate that if there's some 
type of communication breakdown. Seven years of trying to push 
a project through, we'll make sure that you have all the 
information on that too. It's certainly a non-controversial, no 
expense project. If we can't get those done, it would sure show 
a lack of involvement to get anything done. I yield the rest of 
my time.
    Mr. McClintock. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. A couple of things. 
I think we need to have an understanding that, in fact, salmon 
populations in California have crashed. I'd like to introduce 
into the record two charts that just simply show the crash of 
the salmon. This particular chart begins in '98 with a robust 
salmon and ends down here in 2008. There's no doubt we have 
seen the crash of the salmon population in the state. A similar 
one, slightly different population run, but the same results. 
We have a problem. We have a real problem and we have to find a 
solution to that problem, and the solution is going to require 
a lot of cooperation and it's going to require a toning down of 
the rhetoric, although I have certainly had my share of it over 
the years.
    One other thing it's going to require, Mr. Chairman, is a 
lot of money. As you certainly know from your own speeches, the 
Federal Government's supposed to reduce its expenditures, 
significantly reduce its expenditures while reducing taxes. So 
where is the money going to come from for these projects? In 
the studies that are being done of Temperance and the other 
storage facilities, the question will inevitably arise over who 
is going to pay, and that raises the question of the Federal 
Government's share. The way the Federal Government is headed, 
or at least you and your colleagues want it to head, is to 
significantly reduce Federal expenditures. This may be a high 
priority and we can find the money to do these things, maybe 
not. But this is a very, very real question for all of us. 
Where is the money going to come from to pay for all these 
facilities?
    Mr. Chairman, you have mentioned the Burns-Porter Act. I 
think I was around shortly after it was passed. My recollection 
is there's one facility that has not yet been built from the 
Burns-Porter Act and that's the Peripheral Canal. I think all 
the other facilities have been built.
    There are certainly other facilities that have been 
suggested over the years. I think that's the only one. Now, as 
I said earlier, even if we were to have a significant start on 
building a facility today, it would be probably 15 to 20 years 
before the first drop of water would be available. We have to 
deal with what happens in the near term, that is in the next 10 
to 20 years, and that takes us back to the Delta and what 
Supervisor Piepho has suggested.
    My final point is I want to thank everybody for their 
participation today. These are profoundly important issues in 
California. There are solutions.
    And I would recommend that we look at several things. First 
of all, conservation everywhere. Second--and that's, I mean, 
everywhere, city, county, everywhere.
    Second, the Delta is stressed for many reasons. Pumping is 
clearly one of the reasons as are other stressors in the Delta 
from striped bass to ammonia from the Sacramento and other 
sanitation facilities.
    All of those have to be addressed, including those of us 
who farm in the Delta and pump dirty water back in the 
estuaries. All of these things are important, all have to be 
dealt with. Second, we need storage facilities. We need a lot 
of them. We need to move forward with all of the studies. The 
studies are the cheap part. What comes next is very, very 
expensive and all of us are going to have to dig deep and think 
very hard about how we are going to pay for those storage 
facilities.
    Finally, we are going to need to address the need for 
recognizing that the climate is changing.
    I want to thank the water users here and some years ago, 
four or five years ago, we talked about re managing the 
operations of the reservoirs so that we could have real time 
information about water conditions, snow conditions, rain 
conditions and the like. I know there's progress on this and we 
focus on the American River to accomplish that. And I urge us 
all to move forward on that so that we make better use of what 
we already have. Many things need to be done. The era of 
plenty, well, that's a challenge.
    Mr. Chairman, thank you for the hearing. And for those of 
you that participated, thank you. I yield with that.
    Mr. McClintock. Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman. Mr. Collins, I'd like 
to go back to some fishing questions for you. The stripe bass, 
do you fish for stripe bass?
    Mr. Collins. No. There's no commercial fishery for striped 
bass.
    Mr. Nunes. So you don't fish for them at all?
    Mr. Collins. No. We are not allowed to catch them.
    Mr. Nunes. They are non-native species to the Delta, 
correct?
    Mr. Collins. Yeah. I remember hearing a story about the 
last line rail cars back in 1890s or something like--milk cans 
or something like that back in the 1890s.
    Mr. Nunes. But would you--since they are non-native, would 
you support allowing people to catch as many stripe bass as 
possible?
    Mr. Collins. It's a non-issue for me. I mean, I don't do 
fisheries management. I mean----
    Mr. Nunes. But they are not native, so it seems like why 
wouldn't they just fish them if they weren't there to begin 
with.
    Mr. Collins. Yeah.
    Mr. Nunes. Yes is a good answer. We finally agreed on 
something.
    Mr. Collins. I mean, yeah. I mean, I'd like to see 
everybody catch plenty of fish to eat.
    Mr. Nunes. OK. Thank you. Thank you, Mr. Collins. 
Supervisor Piepho, excuse me, do you support long-term either 
having a Peripheral Canal or some kind of ability to move 
freshwater around the Delta?
    Ms. Piepho. Around the Delta, no. We prefer through Delta 
conveyance. We do not feel that the State should abandon the 
Delta for its value of its infrastructure and beyond just water 
supply.
    Mr. Nunes. As in a pipeline underneath the Delta?
    Ms. Piepho. You can do dual pipe lines through the Delta 
definitely to preserve it and the integrity and the importance 
of the Delta into the State, not just to the locals around the 
Delta.
    Mr. Nunes. Does Contra Costa County take any responsibility 
for problems in the Delta?
    Ms. Piepho. I think there are many stressors to the Delta 
from locals to parties beyond from environmental to 
agricultural to business and that's why we seek and advocate 
for true science and looking forward to the National Academy of 
Sciences' study coming forward that will hopefully identify 
what those stressors are, what those precursors are and what we 
collectively have a role and responsibility to address. It 
isn't just one thing. It's not just flows. It may be size of 
flows, timing of flows, does the Bay need freshwater flow 
through the Delta to remain healthy and salmon to populate. I 
think the answer to that is yes, but I'm not a scientist. But 
yes, we all do have a role and responsibility.
    Mr. Nunes. So you support freshwater flows in the Delta and 
I understand you don't know the exact type of flows that they 
need, but----
    Ms. Piepho. Unfortunately, none of us do, because that 
study has not been made and it's one we advocate for.
    Mr. Nunes. Do you think it's fair that the freshwater from 
this area is taken away when you have--San Francisco gets their 
water supply from Hetch Hetchy and they have had to give up 
zero?
    Ms. Piepho. Well, I think that we all do need to look at 
allocations as a part of the comprehensive plan throughout the 
state, senior and junior water rights beginning and then the 
percentages. Westlands Water, Mr. Birmingham's talking about 
percentages of allocations, but we are not talking about the 
numbers themselves. And I think the number themselves are very, 
very important to have on the table, not just the percentages.
    Mr. Nunes. But specifically do you think that San Francisco 
should give up some of their water supply?
    Ms. Piepho. Well, I'm not from San Francisco, so I don't 
wish to speak for them, but----
    Mr. Nunes. But you are willing to advocate taking our water 
supply?
    Ms. Piepho. No. I didn't say that. I didn't say that. What 
I said was we have allocations that are very important and the 
Delta has been overcommitted to the State's water supply and 
that we all have a role and responsibility, in my opinion, of 
preserving and protecting the Delta so it has a value to all of 
us, not just North versus Southern California, not just the 
valley here versus the valley where I come from. We all have a 
role and responsibility, so we can all benefit from the Delta, 
because I believe if it is restored, we identify what the flows 
are, we identify what the surplus is, then we can have a 
better----
    Mr. Nunes. Supervisor Piepho, thank you for your testimony. 
My time is running short here. I do want to just clear up some 
things for the record.
    Mr. Chairman, I want to make sure that the Committee does 
go back and study--Ms. Napolitano unfortunately had to leave, 
but the last time I checked, she does get water, whether it has 
pesticides, fertilizer and anything else that she claims it 
has, that is where a majority of her constituents get their 
water supply, so I'd like to know specifically if the Ranking 
Member wants to give up their water supply, sounded today like 
she wanted to, so I'd like to have it on the record.
    Also, the charts that Mr. Garamendi put up, they are very 
interesting, because they happen--they start at the year where 
there were record salmon flows. If you go back ten years prior 
to that--or salmon runs, I'm sorry--the salmon runs were 
basically what they are a couple years ago. And so they went 
like this, your chart starts right there, of course, and shows 
a collapse. So I think it's important if we are going to look 
at salmon runs, this Committee should look at the history of 
salmon runs over whatever we have records for, for three or 
four decades. With that----
    Mr. McClintock. I want to thank everybody who's 
participated in the hearing today, all of our witnesses who 
traveled quite a ways, all of our Members of Congress and the 
State of Washington and to all of you for spending your 
valuable time with us here today.
    Members of the Subcommittee may have additional questions 
for witnesses. We ask that you respond to those in writing. 
Again, I want to thank all of you. It's been a very 
constructive and enlightening hearing. The purpose of this, of 
course, is not just to talk at one another, it's to gather and 
consolidate legislative recommendations to resolve this issue. 
I'd like to invite all of you to present any of your--any 
recommendations that you have on the legislation that Congress 
needs to consider on this issue. The hearing record will be 
open ten business days to receive these responses. And if 
there's no further business, without objection, Subcommittee 
stands adjourned.
    [Whereupon, at 12:43 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

   Statement submitted for the record by Steve Chedester, Executive 
    Director, San Joaquin River Exchange Contractors Water Authority

    Mr. Chairman and Honorable Members of the Subcommittee, my name is 
Steve Chedester and I am the Executive Director of the San Joaquin 
River Exchange Contractors Water Authority (Exchange Contractors). The 
Exchange Contractors are a public agency of the State of California and 
are comprised of four water agencies that provide water to farmers 
along the San Joaquin River below Friant Dam, for some approximately 
153 miles to the confluence with the Merced River. We provide water to 
240,000 acres of irrigated agriculture. Our water rights result from 
water development in the 1850s. Through a contract with the Bureau of 
Reclamation, we exchange these water rights for water when available 
from the Central Valley Project Delta Mendota Canal. When water is not 
available from the DMC, the Bureau of Reclamation is obligated to 
provide us with water from the San Joaquin River. This contractual 
arrangement was a central component of the development of the Central 
Valley Project in the San Joaquin Valley.
    I am providing the Sub-committee with a substantial amount of 
information that will be useful in understanding the current status of 
implementation of the San Joaquin River Restoration Program (Program). 
I will summarize that information by highlighting some of our key 
concerns.
    The Program is faced with the following problems:
         i.  The Program is not on schedule. The San Joaquin River 
        Restoration Settlement Act (Act or Legislation) was enacted two 
        and a half years after it was expected to be enacted by the 
        Settling Parties. The delay was not the fault or responsibility 
        of any of the Parties. Despite this delay, the Bureau of 
        Reclamation (Reclamation), United States Fish and Wildlife 
        Service (FWS) and National Marine Fisheries Service (NMFS) are 
        all proceeding as if the Legislation had not been delayed. The 
        result is that development of the Program is not proceeding 
        logically or comprehensively.
         ii.  The Program is being implemented out of sequence. The 
        reintroduction of fish to the river was to occur by the end of 
        2012 and several infrastructure projects were to be completed 
        by 2013. Despite the fact that not one shovel of dirt has been 
        turned for any of the infrastructure required to protect the 
        fish and downstream landowners, FWS, NMFS and the California 
        Department of Fish and Game (CDFG) have indicated they intend 
        to stick to the schedule in the Settlement unless someone or 
        something determines that they not proceed. This is despite the 
        present knowledge that the required infrastructure as called 
        for in the Settlement will not be in place by 2014.
        iii.  The Program is broke. The burn rate on the Program has 
        been about $20 million/year. Of the $88 million in federal 
        funds the Program started with, according to Commissioner 
        Connor, only $39 million remains. In two years the Program will 
        be out of money.
    The costs and funding for the Settlement and the estimated costs 
for the near term actions are set forth on the chart on the next page:
[GRAPHIC] [TIFF OMITTED] T5822.009


        .epsiv.  The Program is Harming Third Parties. The Settlement, 
        the Legislation, the Settling Parties, and every member of 
        Congress involved in promoting the Legislation promised that 
        the Third Parties would not be harmed. Section 10004(d) of the 
        Act requires that the Secretary of the Interior mitigate any 
        impacts before implementing a single project, including the 
        release of water from Friant Dam. Despite these legislative 
        directives and assurances, Reclamation has not yet issued a 
        Programmatic Environmental Impact Statement (PEIS), and due to 
        lack of installed mitigation measures, downstream farms have 
        been flooded, crops damaged, a levee destroyed, and monetary 
        impacts incurred.
         v.  The Program Has Not Yet Met Its Obligations Under the 
        National Environmental Protection Act (NEPA). A Programmatic 
        Environmental Impact Statement (PEIS) was supposed to have been 
        finalized over two years ago according to the schedule 
        Reclamation set forth at the beginning of this process. The 
        PEIS was required so that the public and Congress could 
        understand how the Program was going to be developed, what 
        environmental impacts would occur that would require mitigation 
        and whether the Program was likely to achieve the goals for 
        fish restoration and water management. Rather, Reclamation has 
        proceeded to implement the Program on a segmented or piecemeal 
        basis. For instance, without a PEIS, for the past two years 
        Reclamation has been implementing the Program by releasing 
        water from Friant Dam with nothing more than Environmental 
        Assessments and Findings of No Significant Impact (FONSI), and 
        they have started environmental scoping processes on Reaches 2B 
        and 4A. They have proceeded without benefit of a feasibility 
        report, overall plan for implementation, or comprehensive 
        environmental review of the entirety of the Program. For a 
        program that spans over 140 miles of river, involves ESA-
        protected species, adversely impacts downstream landowners, 
        water agencies and the physical environment, and costs $500 
        million or more, this is not a reasonable or rational way to 
        proceed.
How We Got to this Point.
    Along with the Exchange Contractors, the other Third Parties 
include the Central Valley Project Contractors that comprise the San 
Luis and Delta Mendota Water Authority, and the independent irrigation 
districts located on the east side of the San Joaquin River on the 
Stanislaus, Tuolumne and Merced Rivers. Each of these sets of Third 
Parties have particular interests at stake as a result of the 
Restoration Program.
    I would like to provide the Sub-committee with some background that 
is essential to apprise you of the situation we face today.
    The stipulated Settlement among the Settling Parties, which 
includes, among others, the Bureau of Reclamation, the Friant Water 
Users Authority and the Natural Resources Defense Council, was entered 
into in 2006. At that time, the Settlement was negotiated and 
legislation drafted without consulting the Third Parties. After the 
fact, we were afforded an opportunity to seek amendments to the 
legislation. Senator Feinstein and Representatives Cardoza, Costa and 
Radanovich spent countless hours trying to work through amendments to 
the legislation that was already secretly agreed to by the Settling 
Parties. To an extent, we were successful; to some extent, we were not.
    One of the major issues of concern to us was the adequacy of 
funding for the Restoration Program. The Environmental Protection 
Agency funded a study that was conducted by the engineering firm of 
CH2MHill. That study and further analysis estimated that the Program 
would cost approximately $1.4 billion. The Settling Parties did not 
agree with that amount, but, rather, maintained that the program could 
be funded for about $500 million. As a result, we Third Parties tried 
to obtain in the legislation a requirement that the Program be 
implemented on a project-by-project basis, consistent with the amount 
of money that was available. Our concern was that we not have a 
repetition of the dismal situation that we still face to this day as a 
result of the partial funding and construction for the San Luis Drain 
and the long-term damage that has occurred.
    We were unsuccessful in obtaining that amendment to the proposed 
legislation. In 2006 and 2007, as the Settling Parties and Third 
Parties were negotiating changes to the legislation, we did not know 
then what we know now. Importantly, we now know that there are grossly 
insufficient funds to support the Restoration Program. In fact, in 
2009, because of the implementation of ``PAYGO'' requirements, of the 
approximately $300 million that was sought to be obtained from the 
federal portion, only $88 million became available. At that time all 
parties hoped the additional funding would be obtained in 2010. That 
did not happen.
    The Settlement and initial legislation did not undergo the normal 
process for Congressional approval. There was no report to Congress, no 
feasibility study conducted, and no environmental review pursuant to 
the National Environmental Policy Act. Rather, this extraordinary 
process took place without the usual protections and refinements that 
ordinarily would accompany such a program. As a result, Congress was 
never able to appreciate and debate the merits of the daunting task of 
restoring the San Joaquin River. That task is made even more daunting 
today, due to the lack of funds.
Where We Are Today.
    The Bureau of Reclamation identified the funds that would be 
available, the projects that would need funding, and the timetable for 
the construction of these projects. It was anticipated that after these 
projects were funded, spring run Chinook salmon would be restored to 
the San Joaquin River. Just to give you an idea, pursuant to the 
Settlement, the following projects were to be completed by the end of 
2013. Along with some of the items are dollar amounts in bold that 
indicate Reclamation's estimates of the costs for development as of 
2008:
        <bullet>  September 2009--Complete environmental permitting (in 
        excess of $30 million)
        <bullet>  December 2011--Complete modification of Reach 4B to 
        capacity at least of 475 cfs ($15 million)
        <bullet>  December 2012--Complete Reach 2B-Mendota Pool bypass 
        channel for 4,500 cfs ($80 million)
        <bullet>  December 2012--Complete modifications of Sand Slough 
        Control Structure ($5 million) and San Joaquin River headgate 
        for 500-4,500 cfs and fish passage
        <bullet>  December 2012--Complete screening of Arroyo Canal and 
        fish ladder at Sack Dam ($11 million), but a revised project 
        deemed preferable by USBR will replace Sack Dam ($30 million)
        <bullet>  December 2012--Complete modification of structures in 
        the Eastside and Mariposa Bypasses (flood control structures 
        owned by California Department of Water Resources) for fish 
        passage ($38 million)
        <bullet>  December 2012--Complete construction of low flow 
        channel in the Eastside and Mariposa Bypasses for fish passage, 
        if necessary
        <bullet>  December 2012--Complete steps to enable deployment of 
        fish barriers at Salt and Mud Sloughs ($1 million)
        <bullet>  December 2013--Complete Reach 2B channel capacity 
        increase to 4,500 cfs with floodplain and riparian habitat ($75 
        million)
    By the end of 2016 the following Phase 2 projects were to be 
completed:
        <bullet>  December 2016--Complete modification of Reach 4B for 
        4,500 cfs
        <bullet>  December 2016--Complete filling and isolating gravel 
        pits in Reach 1 (gravel pits create habitat for warm water 
        fisheries, like bass, that eat salmon)
        <bullet>  December 2016--Complete modifications to Bifurcation 
        Structure (upstream of Mendota Pool) for fish passage and to 
        prevent entrainment
    None of these projects have even been started. None of these 
projects have undergone environmental review; none of these projects 
have been studied within the context of the overall development of the 
fish restoration program; and none of these projects have commenced 
construction. In fact, it is only once the PEIS is issued that we will 
be able to even have a glimpse of how Reclamation intends to develop 
this program.
    Based on this information and the costs identified in the chart 
above, below is a graphical depiction of the problem faced by 
Reclamation to fund this Program. As is obvious, the deficit in the 
Program is going to be growing rapidly commencing in 2013. Within the 
darkened portion of the graph, the blue line indicates the cumulative 
restoration costs as distinct from the water management costs and the 
entire darkened area is the Program funding deficit.

[GRAPHIC] [TIFF OMITTED] T5822.010


    The Fish Restoration Efforts.
    Currently, we have a situation where the U.S. Fish and Wildlife 
Service, National Marine Fisheries Services, and California Department 
of Fish and Game are proposing to go forward with the fish restoration 
portion of the Restoration Program without having the infrastructure in 
place that is necessary to protect the fish.
    From the outset of the Restoration Program, it was understood that 
fish would be returned to the river once significant infrastructure was 
in place. Attached to my testimony as Exhibit A is an excerpt from the 
Stipulated Settlement that sets forth the Bureau of Reclamations 
schedule for development of the necessary infrastructure. According to 
Reclamation, the major facilities listed above were to be in place 
prior to the introduction of spring run Chinook salmon to the San 
Joaquin River. I note that the schedule calls for fish to be inserted 
in the River in about mid-2012, but as I understand it, those are test 
fish not meant to be the first generation of the hoped for sustainable 
population of spring run salmon.
    Further, the fish reintroduction program was going to start with 
non-protected species of salmon, such as Sacramento fall run Chinook 
salmon. Those fish would have been used to test the new system to 
determine the effectiveness of the completed infrastructure and to 
identify areas where additional infrastructure, such as screens or 
other devices to keep fish out of irrigation works, would be needed. In 
part, these facilities were identified extensively by Edward Donahue, 
an expert who prepared a report for the settlement of the litigation.
    As I said before, no infrastructure has been put in place. And yet, 
the Program is moving forward this year, placing fall run Chinook 
salmon into the San Joaquin River. The validity of this experiment is 
highly questionable for several reasons. While CDFG identified several 
studies that could be conducted this year, due to the fact that the 
river is in flood flow condition, CDFG has conceded that the only 
benefit to putting fish in the river is to train staff in the handling 
of fish. This is a very expensive training program.
    According to Dr. Forrest Olson, a fisheries biologist with CH2M 
HILL, the following problems arise with the proposed planting of fall 
run Chinook salmon into the river at this time:
        <bullet>  Fall run Chinook salmon behave differently than 
        spring run Chinook salmon. Due to their life histories, spring 
        run will be larger when they out-migrate, and therefore have 
        greater swimming ability and the ability to avoid predators. 
        Juvenile fall run Chinook salmon will be swept down with the 
        flood flows.
        <bullet>  Putting fish in the river at this time, during flood 
        flows, will not replicate conditions that the fishery will 
        normally experience during the course of a year. Therefore, for 
        a meaningful experiment, fish should be planted in the river at 
        various times and under various flow conditions.
        <bullet>  Because the river is in flood flow operation, the 
        vast majority of water is conveyed through flood control 
        channels around the San Joaquin River. This is to avoid 
        downstream flooding. These flood control channels were 
        constructed by the State of California and are operated by 
        local flood control districts. The experience of the fish in 
        the flood control channels is remarkably different than that in 
        the main stem of the river.
        <bullet>  The river is going to be reconfigured under the 
        Restoration Program. Testing fish survivability under current 
        conditions will bear little to no relationship to the 
        survivability of fish once the river is reconfigured.
Conclusion.
    The current fishery proposal exemplifies the problems with the 
implementation of the Restoration Program. A logical development of the 
Program, assuming that funding was not a problem, would dictate that 
analysis be conducted, a preferred alternative adopted, infrastructure 
constructed, mitigation measures put in place to avoid harm to 
downstream interests, and only thereafter would the fish restoration 
part of the Program commence. Yet, here we are, with no infrastructure, 
little to no mitigation measures, running out of money, and yet the 
National Marine Fisheries Service, Fish and Wildlife Service, 
California Department of Fish and Game, and the Bureau of Reclamation, 
are proceeding with the fish restocking program as if the rest of the 
Program had been implemented according to plan. This makes no sense. 
The program needs to get back on track. To that end, the Exchange 
Contractors request that the following eight measures be implemented 
expeditiously:
        1.  No spring run Chinook salmon should be introduced to the 
        river until adequate improvements are in place. This is by far 
        our number one concern as putting spring run in the river too 
        soon will have detrimental impacts on the downstream property 
        owners and potentially jeopardize the success of the fish 
        reintroduction.
        2.  Reclamation must agree in writing to not release Program 
        flows of a magnitude that would exceed 1300 cfs in Reaches 2A--
        nor more than 50 cfs in Reach 4A (below Sack Dam).
        3.  Form a working group of the settling parties, Third 
        Parties, representatives from the State of California, and 
        Senator Feinstein and the local Congressional representatives. 
        The purpose of the working group would be to analyze current 
        conditions facing the implementation of the Restoration Program 
        and to come up with a plan that reflects the current schedule; 
        loss of 2\1/2\ years due to the delay in implementing the 
        legislation and related adjustments to the schedule; 
        determining what can be done, given the money that remains, 
        which is clearly insufficient to carry the program to 2019; and 
        to set a course of action that properly sequences the Program 
        in a manner that meets the needs of both the Restoration 
        Program and the affected Third Parties.
        4.  Revise the Technical Advisory Committees (TAC) for flow 
        releases and fisheries so that third parties are included in 
        these committees. The TAC is comprised of only NRDC and the 
        Friant contractors. The federal and state agencies are afforded 
        input and receive recommendations, but the affected Third 
        Parties are only afforded an opportunity to learn of decisions 
        being made after the fact. This is too late, particularly given 
        our experience with and knowledge of the river. The request to 
        participate in the TAC was made by the Third Parties at the 
        time they were informed of the settlement. Recent events 
        concerning flows and the fishery issues have proven that it 
        would be even more useful to have the Third Parties participate 
        on these committees.
        5.  Congress should include in the appropriations for the 
        Restoration Program sufficient funds to pay for damages already 
        incurred.
        6.  Legislation should be enacted, or if feasible funds 
        directed through the appropriations process, to establish a 
        claims fund to pay for future damages without the need to go 
        through the Federal Tort Claims Act and litigation processes. 
        This would be a mini version of the ``Gulf Oil Spill'' type of 
        fund, that could be administered either by an independent 
        third-party administrator, or by the Bureau of Reclamation. The 
        fund would need to be transparent and contain a right to appeal 
        should there be a dispute over the damages that are incurred.
        7.  Despite the impending publication of the Programmatic 
        Environmental Impact Study, unless it is included in the PEIS, 
        Reclamation should be required to conduct a feasibility study 
        that assesses the Restoration Program for the next eight years 
        based upon the amount of money actually available and the 
        timing for the investments in infrastructure and implementation 
        of the program. The feasibility study will provide everybody 
        with an opportunity to understand how a roadmap for 
        implementation of the program can be created under the current 
        funding circumstances.
        8.  Based on the results of the feasibility study and the PEIS, 
        Reclamation should pursue ``no regrets'' projects that have 
        independent utility, until such time as the program is fully 
        funded. Such projects might include Mendota Dam improvements, 
        installation of tile drains, reinforcement of levies, and 
        reconstruction of Sack Dam.
    With the exception of the payment of claims and the formation of 
the claims fund, we do not believe that legislation is necessary to 
address any of the other measures. Rather, this can be accomplished 
administratively, but subject to Congressional oversight and input.
    Thank you for this opportunity to comment.
                                 ______
                                 
EXHIBIT ``A''
(Stipulated Settlement ``Exhibit C'')

                               EXHIBIT C

    The Parties have collectively developed the following timeline for 
the development and implementation of the improvements described in 
Paragraph 11 of the Stipulation of Settlement. In so doing, the Parties 
have considered a variety of factors including, but not limited to, the 
desire to commence Restoration Flows (and other restoration-related 
activities) at the earliest possible date, as well as the challenges 
associated with the development and implementation of these 
improvements. For these reasons, the dates set forth below represent 
milestones for purposes of implementing the Settlement. The enforceable 
deadlines are set forth in the Stipulation of Settlement.
    These dates were drawn from a schedule the Federal Defendants 
developed to assess the estimated minimum period to complete the 
Paragraph 11 improvements. The Parties recognize that this schedule is 
ambitious and reflects the Parties' intent to complete the improvements 
in an expeditious manner. Many assumptions were made in developing this 
schedule and include, but are not limited to: technical understanding 
of the nature of the improvements given the current limited 
availability of detailed site-specific information, availability of 
sufficient funding and resources, timely acquisition of necessary land 
and entry rights, timely availability of detailed information and 
survey results for environmental analysis, timely issuance of necessary 
permits, and no reduction in the estimated annual 120-day construction 
period due to weather, in-stream flows events, environmental or 
permitting requirements.
Program Environmental Compliance
September, 2009:
    <bullet>  Complete necessary and appropriate NEPA, NHPA, ESA, CEQA 
review
Phase 1 Improvements
December, 2011:
    <bullet>  Complete modification of Reach 4B to route at least 475 
cfs
December, 2012:
    <bullet>  Complete Reach 2B-Mendota Pool 4,500 cfs bypass channel
    <bullet>  Complete modifications of Sand Slough Control Structure 
and San Joaquin River headgate for routing 500-4,500 cfs and fish 
passage
    <bullet>  Complete screening of Arroyo Canal and construction of 
fish ladder at Sack Dam
    <bullet>  Complete modification of structures in the East Side and 
Mariposa Bypasses for fish passage
    <bullet>  Complete construction of low-flow channel in East Side 
and Mariposa Bypasses, if necessary
    <bullet>  Complete steps to enable deployment of fish barriers at 
Salt and Mud Sloughs December, 2013: Complete Reach 2B channel capacity 
increase to 4,500 cfs with floodplain and riparian habitat
Phase 2 Improvements
December, 2016:
    <bullet>  Complete modification of Reach 4B for routing 4,500 cfs
    <bullet>  Complete filling and isolating gravel pits in Reach 1
    <bullet>  Complete modifications to Bifurcation Structure for fish 
passage and to prevent entrainment, if necessary

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
